No. ___________
════════════════════════════════════════

In the Supreme Court of the United States
──────────────────────────────
JOHN H. MERRILL, IN HIS OFFICIAL CAPACITY AS SECRETARY OF STATE FOR THE STATE
OF ALABAMA, AND THE STATE OF ALABAMA,
APPLICANTS,
v.
PEOPLE FIRST OF ALABAMA, ET AL.,
RESPONDENTS.
════════════════════════════════════════
APPENDIX TO EMERGENCY APPLICATION FOR STAY
═══════════════════════════════════════
To the Honorable Clarence Thomas,
Associate Justice of the Supreme Court of the United States and
Circuit Justice for the Eleventh Circuit
═══════════════════════════════════════
Steve Marshall
Attorney General
Edmund G. LaCour Jr.
Solicitor General
Counsel of Record
A. Barrett Bowdre
Deputy Solicitor General
James W. Davis
Winfield J. Sinclair
Misty S. Fairbanks Messick
Brenton M. Smith
A. Reid Harris
Assistant Attorneys General
State of Alabama
Office of the Attorney General
501 Washington Avenue
Montgomery, AL 36130-0152
Tel: (334) 242-7300
Edmund.LaCour@AlabamaAG.gov

TABLE OF CONTENTS
Court of Appeals Order Granting in Part and Denying in Part Applicants’ Stay
Motion (October 13, 2020) .....................................................................................App. 1
District Court’s Final Judgment and Permanent Injunction Order
(September 30, 2020) .............................................................................................App. 3
District Court’s Findings of Fact and Conclusions of Law
(September 30, 2020) .............................................................................................App. 8
District Court’s Order Denying Applicants’ Stay Motion
(October 6, 2020) ................................................................................................App. 205
Trial Transcript Excerpts (September 15, 2020) ..............................................App. 207

USCA11 Case: 20-13695

Date Filed: 10/13/2020

Page: 1 of 2

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_________________________
No. 20-13695-B
_________________________

PEOPLE FIRST OF ALABAMA,
ERIC PEEBLES,
HOWARD PORTER, JR., et al.,
Plaintiffs - Appellees,

versus
SECRETARY OF STATE FOR THE STATE OF ALABAMA,
In his official capacity,
STATE OF ALABAMA (The),
JOJO SCHWARZAUER,
DON DAVIS,
Defendants - Appellants,
__________________________
On Appeal from the United States District Court
for the Northern District of Alabama
__________________________
BEFORE: JORDAN, JILL PRYOR and LAGOA, Circuit Judges.
BY THE COURT:
Appellants’ motion for stay of the District Court’s injunction is GRANTED

App. 1

USCA11 Case: 20-13695

Date Filed: 10/13/2020

Page: 2 of 2

IN PART as to the witness and photo ID requirements.1
Appellants’ motion for stay of the District Court’s injunction is DENIED IN
PART as to the curbside voting ban.2
The motions for leave to file amici curiae briefs with respect to Appellants’
motion for stay of the injunction are GRANTED.

1

JILL PRYOR, J., dissents from the grant of the motion as to these two parts.

2

LAGOA, J., dissents from the denial of the motion as to this part.
2

App. 2

FILED

Case 2:20-cv-00619-AKK Document 251 Filed 09/30/20 Page 1 of 5

2020 Sep-30 PM 12:20
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
PEOPLE FIRST OF ALABAMA, et
al.,
Plaintiffs,
v.
JOHN MERRILL, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action Number
2:20-cv-00619-AKK

)

FINAL JUDGMENT AND INJUNCTON ORDER
Consistent with the contemporaneously-entered findings of fact and
conclusions of law, doc. 250, the plaintiffs’ motion for reconsideration, doc. 229, is
DENIED, and Judge Don Davis’s and JoJo Schwarzauer’s motions for judgment on
partial findings, docs. 231, 233, are MOOT. Based upon the court’s findings of fact
and conclusions of law, doc. 250:
A.

JUDGMENT is ENTERED in favor of the defendants on the

following claims:
1.

The claims asserted against Judge Davis challenging the photo
ID requirement and the curbside voting ban;

2.

Eric Peebles’s, Howard Porter, Jr.’s, Annie Carolyn
Thompson’s, and Teresa Bettis’s claims challenging the curbside
voting ban;

3.

Black Voters Matter Capacity Building Institute’s (“BVM’s”)
claims in Count II challenging the photo ID requirement and the
curbside voting ban under the Americans with Disabilities Act
(“ADA”);
App. 3

Case 2:20-cv-00619-AKK Document 251 Filed 09/30/20 Page 2 of 5

4.

The plaintiffs’ claims in Count II presenting a facial challenge to
the curbside voting ban under the ADA;

5.

Ms. Thompson’s claim in Count II challenging the photo ID
requirement under the ADA;

6.

The plaintiffs’ claims in Count III challenging the curbside
voting ban under Section 2 of the Voting Rights Act; and

7.

The plaintiffs’ claims in Count V.

B.

JUDGMENT is ENTERED in favor of the plaintiffs on the following

claims:
1.

Dr. Peebles’s, Ms. Bettis’s, Ms. Thompson’s, BVM’s, People
First of Alabama, the Alabama Conference of the NAACP’s, and
Greater Birmingham Ministries’ 1 claims asserted in Count I
against Judge Davis and Ms. Schwarzauer challenging the
witness requirement as applied in the COVID-19 pandemic;

2.

Ms. Thompson’s and the organizational plaintiffs’ claims
asserted in Count I against Ms. Schwarzauer challenging the
photo ID requirement as applied in the COVID-19 pandemic;

3.

Ms. Threadgill-Matthews’s and the organizational plaintiffs’
claims asserted in Count I against Secretary Merrill challenging
the curbside voting ban as applied in the COVID-19 pandemic;

4.

People First’s, the Alabama NAACP’s, and GBM’s claims
asserted in Count II against Ms. Schwarzauer and the State
challenging the photo ID requirement under the ADA;

5.

Ms. Threadgill-Matthews’s, the Alabama NAACP’s, and GBM’s
claims asserted in Count II against Secretary of State John
Merrill challenging the curbside voting ban under the ADA; and

6.

Ms. Bettis’s, Ms. Thompson’s, and the organizational plaintiffs’
claims asserted in Count III against Judge Davis, Ms.

1

The court refers to BVM, the Alabama NAACP, People First, and GBM collectively as the
“organizational plaintiffs.”

2
App. 4

Case 2:20-cv-00619-AKK Document 251 Filed 09/30/20 Page 3 of 5

Schwarzauer, and the State challenging the witness requirement
under Section 2 of the Voting Rights Act.
Consistent with the judgment in favor of the plaintiffs, the court
DECLARES:
1.

As applied during the COVID-19 pandemic to voters who are
particularly susceptible to COVID-19, the requirement under
Ala. Code §§ 17-11-7, 17-11-9, and 17-11-10 that absentee
ballot affidavits be witnessed and signed by a notary public or
two adult witnesses violates the First and Fourteenth
Amendments.

2.

As applied during the COVID-19 pandemic to voters who are
particularly susceptible to COVID-19 complications because
they are either age 65 or older or disabled or have underlying
medical conditions that make them susceptible to COVID-19
complications, the requirement under Ala. Code §§ 17-9-30(b),
(d), and 17-11-9 that absentee voters provide a copy of their
photo identification with their absentee ballot applications
violates the First and Fourteenth Amendments.

3.

As applied during the COVID-19 pandemic to voters who are
particularly susceptible to COVID-19 complications, the
curbside voting ban violates the First and Fourteenth
Amendments.

4.

As applied during the COVID-19 pandemic to voters with
disabilities who cannot safely obtain a copy of their photo ID, the
requirement under Ala. Code §§ 17-9-30(b), (d), and 17-11-9
that absentee voters provide a copy of their photo identification
with their absentee ballot applications violates the ADA.

5.

As applied during the COVID-19 pandemic to voters with
disabilities, the curbside voting ban violates the ADA.

6.

As applied during the COVID-19 pandemic, the requirement
under Ala. Code §§ 17-11-7, 17-11-9, and 17-11-10 that
absentee ballot affidavits be witnessed and signed by a notary
public or two adult witnesses violates the Voting Rights Act.

3
App. 5

Case 2:20-cv-00619-AKK Document 251 Filed 09/30/20 Page 4 of 5

Therefore, the court ORDERS that, as to the November 3, 2020 general
election:
1.

Judge Don Davis, JoJo Schwarzauer, and the State of Alabama
are ENJOINED 2 from enforcing the requirement under Ala.
Code §§ 17-11-7, 17-11-9, and 17-11-10 that absentee ballot
affidavits be witnessed and signed by a notary public or two adult
witnesses for any qualified voters who provide a written
statement that they have an underlying medical condition that
puts them at a heightened risk from COVID-19, and, thus, they
cannot safely satisfy that requirement due to the COVID-19
pandemic;

2.

Ms. Schwarzauer and the State are ENJOINED from enforcing
the requirement under Ala. Code §§ 17-9-30(b), (d), and 17-119 that absentee voters provide a copy of their photo identification
with their absentee ballot applications for absentee voters over
65, or those under 65 who cannot safely obtain a copy of their
photo ID during the COVID-19 pandemic due to an underlying
medical condition that makes them particularly susceptible to
COVID-19 complications, and who provide other required
identifiers with their absentee ballot applications, such as their
driver’s license number and last four digits of their social security
number; and

3.

Secretary Merrill is ENJOINED from prohibiting counties from
establishing curbside voting procedures that otherwise comply
with state and federal election law.

The court ORDERS the State and Secretary Merrill to take all reasonable
steps to inform county probate judges, circuit clerks, and absentee elections
managers about this injunction as quickly as possible.

2

For defendants Judge Davis and Ms. Schwarzauer, the probate judge and circuit clerk of Mobile
County, respectively, this injunction order applies only in Mobile County.

4
App. 6

Case 2:20-cv-00619-AKK Document 251 Filed 09/30/20 Page 5 of 5

As the prevailing parties, the plaintiffs are entitled to costs and attorneys’ fees.
The court will defer this issue until after the resolution of any appeal of this judgment
and order.
DONE the 30th day of September, 2020.

_________________________________
ABDUL K. KALLON
UNITED STATES DISTRICT JUDGE

5
App. 7

FILED

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 1 of 197

2020 Sep-30 PM 12:09
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
PEOPLE FIRST OF ALABAMA, et
al.,
Plaintiffs,
v.
JOHN MERRILL, et al.,

)
)
)
)
)
)
)
)
)

Civil Action Number
2:20-cv-00619-AKK

)

Defendants.

FINDINGS OF FACT AND CONCLUSIONS OF LAW
Voting is an inviolable right, occupying a sacred place in the lives of those
who fought to secure the right and in our democracy, because it is “preservative of
all rights.” 1 The parties do not dispute those fundamental truths. The parties’ dispute
centers instead on whether three provisions of Alabama’s election laws—the
requirement that a notary or two witnesses sign absentee ballot affidavits, the
requirement that absentee voters submit a copy of their photo ID with an absentee
ballot application, and the de facto ban on curbside voting 2—violate the right to vote
in light of the COVID-19 pandemic.
The plaintiffs assert that the defendants’ enforcement of the Challenged
Provisions during the pandemic compels voters to risk exposure to COVID-19 in

1

Yick Wo v. Hopkins, 118 U.S. 356, 370 (1886).

2

The court refers to these three provisions as the “Challenged Provisions.”

App. 8

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 2 of 197

order to exercise their right to vote, leading to potentially deadly consequences for
vulnerable voters whose age, race, disabilities, or health conditions place them at
heightened risk from the virus. The plaintiffs contend that forcing voters to bear that
risk runs afoul of their fundamental right to vote and violates federal law, and they
seek an order barring the defendants from enforcing the Challenged Provisions for
the general election in November. Without this relief, the plaintiffs believe voters
will face an impossible choice between jeopardizing their health by engaging in
person-to-person contact they would not otherwise have or sacrificing their right to
vote during the COVID-19 pandemic.
These issues are important to all people, but the plaintiffs find them
particularly significant. Their testimony speaks for itself. Plaintiff Eric Peebles, an
Alabama voter who uses a wheelchair and suffers from spastic cerebral palsy,
described what voting means for people with disabilities: “Voting is important to
me because as a person with a disability and for people with disabilities, voting is
the one way that we can participate . . . . Voting is blind. Everybody’s ballot looks
the same when you’re counting them.” 3 Susan Ellis, the executive director of
plaintiff People First, echoed that sentiment: “[Voting is] a way to have a visible
participation in policy making, and decision making, and law making. . . . [O]ur

3

9/8/20 at 132. This citation reflects the date of the testimony and the page of that day’s transcript.
Due to the time-sensitive nature of this case, the court cites to the Court Reporter’s uncertified
rough transcript of the trial.

2
App. 9

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 3 of 197

members are proud to . . . be examples to our community that people with intellectual
and developmental disabilities are valued citizens and want to express and be seen
expressing the right to vote.”4 Many Black Alabamians, another group with a
historically fraught relationship with the franchise, feel the same. As plaintiff
Howard Porter, Jr., a Black man in his seventies, earnestly expressed: “[S]o many
of my [ancestors] even died to vote. And while I don’t mind dying to vote, I think
we’re past that – we’re past that time.”5 Mr. Porter believes that voting should be as
easy and secure as possible because Election Day “is the only day that rich, the poor,
sick, the healthy, all should be counted as one and just as easy.”6 Similarly, plaintiff
Annie Carolyn Thompson, a sixty-eight-year-old Black woman, explained that the
importance of voting “has been instilled in [her] from a young person because of . .
. how hard it was for us to get the right to vote, the things that some of my ancestors
had to go through in order to get the right to vote . . . .” 7 Thus, she concluded, “[T]he
right to vote is very important to me, and I do not take it lightly.” 8
Neither do the defendants. Alabama Secretary of State John Merrill, for
example, testified that he wants every eligible voter who wishes to vote in November

4

9/11/20 at 115-16.

5

9/14/20 at 80.

6

Id.

7

9/8/20 at 180.

8

Id.

3
App. 10

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 4 of 197

to do so “[w]ithout any obstacle being placed in their way.” 9 However, he and the
other defendants maintain that the Challenged Provisions are necessary to preserve
the legitimacy of the general election by preventing voter fraud and safeguarding
voter confidence. The defendants also contend that the Challenged Provisions do
not impose any undue burdens on the plaintiffs, especially when balanced against
the State’s interests, and that enjoining the Challenged Provisions so close to the
election will result in voter confusion and unduly burden the defendants.
Based on the evidence presented during the trial the court held from
September 8 to 18, the plaintiffs have proved that their fears are justified. As applied
during the COVID-19 pandemic, the Challenged Provisions unduly burden the
fundamental Constitutional rights of Alabama’s most vulnerable voters and violate
federal laws designed to protect America’s most marginalized citizens. That is for
three reasons. First, because the Challenged Provisions only marginally advance the
State’s interests in maintaining them while significantly burdening the right to vote,
all three provisions violate the First and Fourteenth Amendments during the
pandemic. Second, because the photo ID requirement and the de facto curbside
voting ban make voting inaccessible for voters with disabilities, both those
provisions violate the Americans with Disabilities Act during the pandemic. Finally,
because the witness requirement interacts with Alabama’s history of discriminating

9

9/11/20 at 64.

4
App. 11

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 5 of 197

against Black citizens to deny Black voters’ their right to vote, that provision violates
the Voting Rights Act during the pandemic.
Thus, the plaintiffs have met their burden and are entitled to declaratory and
injunctive relief. Consistent with the findings and conclusions detailed below, for
the November 3, 2020 general election, the court will enjoin: (1) the witness
requirement for absentee ballots for voters who provide a statement that they have
an underlying medical condition that puts them at a heightened risk from COVID19 and, thus, they cannot safely obtain the signatures of two witnesses or a notary
public; (2) the photo ID requirement for absentee voters over 65 or those under 65
who cannot safely obtain a copy of their photo ID during the COVID-19 pandemic
due to an underlying medical condition, and, as required by the application, who
provide other identifiers such as their driver’s license number and last four digits of
their social security number; and (3) the de facto ban on curbside voting. To be
clear, lifting the ban on curbside voting permits counties willing to implement the
practice, if any, to do so, but this order does not mandate that counties must provide
curbside voting in Alabama. Moreover, the court emphasizes that its decision does
not undermine the validity of the Challenged Provisions outside of the COVID-19
pandemic or beyond the November 3 election. Rather, the court grants only
narrowly tailored relief to address the additional burdens facing a limited class of
voters who are particularly susceptible to complications from contracting COVID19.
5
App. 12

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 6 of 197

I. FINDINGS OF FACT
A.

The COVID-19 Pandemic
1.

Our nation is now in the midst of a public health emergency due to the

spread of COVID-19, the respiratory disease caused by the novel coronavirus SARSCoV-2. Since April, the United States has led the world in the total number of
COVID-19 cases. Agreed Facts at ¶ 24.10 As of September 29, 2020, the United
States has confirmed 7,129,383 cases of COVID-19 and reported 204,598 deaths
and counting due to COVID-19.11 See id. at ¶ 25 (citing CDC data). The COVID19 pandemic has deeply affected Alabama, and as of September 29, Alabama
reported 137,564 confirmed COVID-19 cases and 2,399 confirmed COVID-19
deaths,12 including family members and a friend of some of the individual plaintiffs.
See Agreed Facts at ¶ 59 (citing ADPH data); 9/14/20 at 9-11, 69-71.
2.

The most common symptoms of COVID-19 are fever, cough, and

shortness of breath, and other symptoms include chest pain, muscle pain, vomiting,
10

In accordance with the court’s scheduling order, doc. 93 at 7-9, the parties submitted proposed
findings of fact and conclusions of law to the court by email on September 4, 2020, see doc. 178.
The submission includes agreed facts that the parties do not dispute in 176 separately numbered
paragraphs, numbered sequentially from 1-15 in section one, and from 1-161 in the remaining
sections. The court cites to the page and paragraph number for the agreed facts identified in the
first section of proposed facts and to only the paragraph number for the agreed facts identified in
the remaining sections.
11

CDC, Cases in the U.S., https://www.cdc.gov/coronavirus/2019-ncov/cases-updates/cases-inus.html (last visited Sept. 30, 2020).
12

Ala. Dep’t of Pub. Health, Alabama’s COVID-19 Data and Surveillance Dashboard,
https://alpublichealth.maps.arcgis.com/apps/opsdashboard/index.html#/6d2771faa9da4a2786a50
9d82c8cf0f7 (last visited Sept. 30, 2020).

6
App. 13

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 7 of 197

anorexia, confusion, and lack of senses of taste and smell. See Pl. Ex. 269 at ¶ 8.
Even mild cases of COVID-19 can be more severe than the flu and involve about
two weeks of fevers and dry coughs. Agreed Facts at ¶ 27. Severe cases of COVID19 cause acute respiratory distress syndrome (“ARDS”) in which fluid displaces air
in the lungs, leaving patients to “essentially drown[] in their own blood and fluids
because their lungs are so full.” 13 See id.; Pl. Ex. 269 at ¶ 8. Due to the respiratory
impacts of the disease, individuals with severe cases may need supplemental oxygen
or to be intubated and put on a ventilator, or suffer a permanent loss of respiratory
capacity. Pl. Ex. 269 at ¶ 8; Agreed Facts at ¶ 29. Along with damaging lung tissue,
severe cases of COVID-19 can damage the kidneys, or lead to strokes and heart
attacks. 9/8/20 at 13; Agreed Facts at ¶ 29.
3.

In Alabama, as of September 3, approximately 11.5 percent of those

infected by COVID-19 have been hospitalized. Pl. Ex. 294 at 1. Thus, surges of
COVID-19 cases can strain healthcare systems, leading to critical shortages of
doctors, nurses, hospital beds, medical equipment, and personal protective
equipment. See Agreed Facts at ¶ 29. For that reason and others, health officials
recommend that all individuals take steps to prevent the spread of the disease, not
just for their own health but for the health of the community. Id. at ¶ 35. As the

13

Lizzie Presser, A Medical Worker Describes Terrifying Lung Failure From COVID-19 — Even
in His Young Patients, ProPublica (Mar. 21, 2020), https://www.propublica.org/article/a-medicalworker-describes--terrifying-lung-failure-from-covid19-even-in-his-young-patients.

7
App. 14

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 8 of 197

CDC put it, “[e]veryone has a role to play in slowing the spread and protecting
themselves, their family, and their community.” 14 Id.
4.

COVID-19 is highly infectious and spreads through respiratory droplets

from infected individuals. See Pl. Ex. 269 at ¶¶ 10, 20; Pl. Ex. 271 at ¶ 13. Strong
evidence now suggests that SARS-CoV-2 is aerosolized, such that tiny droplets
containing the virus remain in the air for a period of time, and the virus can be
transmitted to others who inhale that air. Pl. Ex. 269 at ¶¶ 10, 20; 9/8/20 at 15.
Further evidence indicates that aerosolized droplets with SARS-CoV-2 can linger in
closed, stagnant air environments for up to fourteen minutes. Pl. Ex. 269 at ¶ 10.
Consequently, transmission of the virus is more likely to occur indoors when people
share space in a room for an extended period of time. 9/8/20 at 17-18; see also Pl.
Ex. 269 at ¶ 20. COVID-19 may also spread through contaminated surfaces, i.e.,
“when an infected individual touches a surface with a hand they have coughed into
and then another person touches that same surface before it has been disinfected and
then touches their face.” Pl. Ex. 269 at ¶ 10. Finally, COVID-19 is particularly
dangerous because it can be spread by individuals who are a- or pre-symptomatic,
and who may not know they have the disease and can spread it to others. Pl. Ex. 269
at ¶ 13; Pl. Ex. 271 at ¶ 13.

14

CDC, Social Distancing, https://www.cdc.gov/coronavirus/2019-ncov/prevent-gettingsick/social-distancing.html (last visited Sept. 17, 2020).

8
App. 15

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 9 of 197

5.

No vaccine for COVID-19 currently exists, and it is unlikely a vaccine

will become widely available until well into 2021. See Pl. Ex. 269 at ¶¶ 12, 15;
9/8/20 at 26, 29. Accordingly, to slow the spread of COVID-19, public health
officials have been left to urge the public to practice “social distancing,” i.e.,
avoidance of close contact with others. Pl. Ex. 269 at ¶ 12; Pl. Ex. 352 at 3-8; see
also 9/8/20 at 31. For purposes of social distancing, the CDC recommends that
individuals stay at least six feet away from others who do not live in their households
and avoid crowded places. Agreed Facts at ¶ 33. Following that recommendation,
Governor Kay Ivey recognizes that “[m]aintaining a 6-foot distance between one
another is paramount,” 15 and the Alabama Department of Public Health (“ADPH”)
has instructed the public to “spend as much time as possible at home to prevent an
increase in new infections.”16 Id. at ¶ 34; State Ex. 15. The CDC and ADPH also
recommend that all individuals wear masks or face coverings, which decrease the
spread of COVID-19 by helping to prevent an infected individual from spreading
droplets containing the virus that can infect others. 17 9/9/20 at 53; Pl. Ex. 269 at
¶ 12; State Ex. 85.

15

Press Release, Governor Ivey Announces New Primary Runoff Election Date, March 18, 2020,
https://governor.alabama.gov/newsroom/2020/03/governor-ivey-announces-new-primary-runoffelection-date/ (last visited Sept. 23, 2020).
16

ADPH, It’s safer at home; protect yourself and your community from COVID-19 (Mar. 27,
2020), https://alabamapublichealth.gov/news/2020/03/27.html (last visited Sept. 21, 2020).

17

CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019ncov/need-extra-precautions/people-with-medical-conditions.html (last visited Sept. 21, 2020).

9
App. 16

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 10 of 197

6.

Though people of all ages have contracted COVID-19 and suffered

severe manifestations of the disease, the illness poses special risks for older people,
and the risk of COVID-19 increases steadily with age. 9/8/20 at 64; 9/9/20 at 44; Pl.
Ex. 269 at ¶ 8; Agreed Facts at ¶ 30. As of September 1, 77.3 percent of COVID19 related deaths in Alabama have been people 65 or older,18 and 80 percent of
deaths in the United States have been people over 65. 19 Agreed Facts at ¶ 30; Pl.
Ex. 270 at 8. Thus, the CDC warns that older people should avoid interacting with
people outside of their households and people who have been exposed to the virus.20
Pl. Ex. 270 at 8.
7.

COVID-19 also presents special risks for people with disabilities. “The

CDC [] warns that people with disabilities may be at increased risk of becoming
infected with COVID-19 to the extent that they “(1) ‘have limited mobility or cannot
avoid coming into close contact with others who may be infected;’ (2) ‘have trouble
understanding information or practicing preventative measures;’ or (3) are ‘not able
to communicate symptoms of illness.’” Pl. Ex. 270 at 10. As Susan Ellis, the
Executive Director of People First of Alabama, explained, people with intellectual
disabilities are not able to identify risky behavior in the same way as other people
18

See ADPH, Characteristics of Laboratory Confirmed Cases of
https://www.alabamapublichealth.gov/covid19/assets/cov-al-cases-090120.pdf.
19

COVID-19

CDC,
Older
Adults,
https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/people-with-medical-conditions.html (last visited Sept. 21, 2020).
20

Id.

10
App. 17

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 11 of 197

can. 9/11/20 at 130. For example, they may pick up and throw away a tissue on the
floor without wearing gloves in an effort to be helpful to others without thinking of
the germs on the tissue. Id. In addition, adults with disabilities are three times more
likely than adults without disabilities to have underlying chronic medical conditions
that put them at higher risk from COVID-19. 21 Pl. Ex. 270 at 10.
8.

People with certain preexisting medical conditions, including

immunological conditions, hypertension, certain heart conditions, lung diseases
(asthma and chronic obstructive pulmonary disease), diabetes mellitus, obesity,
chronic kidney disease, and sickle cell anemia also have an elevated risk of severe
complications or death from COVID-19. 9/9/20 at 44; Pl. Ex. 269 at ¶ 8; Pl. Ex. 270
at 8; Pl. Ex. 352 at 1-2, 12.

In fact, statistics from the ADPH reveal that

approximately 96.2 percent of Alabamians who have died from COVID-19 had
underlying health conditions.22 Agreed Facts at ¶¶ 30, 62. Due to their heightened
risk from COVID-19, the CDC advises people with underlying conditions to limit
interactions with people outside of their households as much as possible and to avoid
others who are not wearing masks. 23 See Agreed Facts at ¶ 62; Pl. Ex. 270 at 8.

21

See CDC, People with Disabilities, https://www.cdc.gov/coronavirus/2019-ncov/need-extraprecautions/people-with-disabilities.html (last visited Sept. 22, 2020).
22

See ADPH, Characteristics of Laboratory Confirmed Cases of
https://www.alabamapublichealth.gov/covid19/assets/cov-al-cases-090120.pdf.
23

COVID-19

CDC, People with Certain Medical Conditions, https://www.cdc.gov/coronavirus/2019ncov/need-extra-precautions/people-with-medical-conditions.html (last visited Sept. 21, 2020).

11
App. 18

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 12 of 197

9.

Alabamians suffer from high rates of the underlying health conditions

that increase their risk for COVID-19 complications: more than 14 percent have
diabetes, 41.9 percent have high blood pressure, 10.4 percent have asthma,
approximately 33 percent are obese, and about 1 in 11 have kidney disease. Agreed
Facts at ¶ 43; Pl. Ex. 270 at 25; 9/14/20 at 198. As Alabama State Health Officer
Dr. Scott Harris stated, “[c]hronic disease factors are a real risk for dying from this
disease, and chronic diseases are found in about a third of our citizens.” 24 Id. The
prevalence of underlying diseases is even more profound for older Alabamians, who
are already at a higher risk from COVID-19. For example, the COVID-impact
survey revealed that in the Birmingham metro region, 76.1 percent of White people
and 80.3 percent of Black people over the age of 60 had at least one underlying
condition that put them at an increased risk from COVID-19. Pl. Ex. 270 at 30;
9/14/20 at 201.
10.

Racial minorities, particularly Black people, are more likely to suffer

from underlying conditions that increase the risks from COVID-19, such as diabetes,
heart disease, and lung disease. See Pl. Exs. 268 at ¶ 6; 269 at ¶ 9; 271 at ¶ 12; 9/8/20
at 66-67; 9/9/20 at 42-43. That trend is reflected in Mobile, Alabama, where areas
of the city with the highest percentage of Black residents have markedly higher

24

Leada Gore, Alabama’s Coronavirus Peak: ‘Clearly the State Can’t Stay Shut Down’, ADPH’s
Dr. Scott Harris Says, https://www.al.com/news/2020/04/alabamas-coronavirus-peak-clearly-thestate-cant-stay-shut-down-adphs-dr-scott-harris-says.html (last visited Sept. 16, 2020).

12
App. 19

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 13 of 197

prevalence of asthma, high blood pressure, kidney disease, COPD, and diabetes, than
predominately White areas of the city. Compare doc. 228-5 at 8, 10, 12-14, with
doc. 228-6. Moreover, about 42.2 percent of Black people over the age of 65 have
a disability, compared to 38.1 percent of their White cohorts. Doc. 228 at ¶ 36.
11.

People who are Black, Latinx, or Native American suffer higher rates

of COVID-19 infections than non-Hispanic White individuals, and they are more
likely to suffer severe outcomes and be hospitalized or die if they are infected with
COVID-19. 9/8/20 at 20-21, 66-67; 9/9/20 at 47-49; Pl. Exs. 268 at ¶ 11; 269 at ¶ 9;
271 at ¶¶ 13-14. Indeed, a CDC report published April 8, 2020, which included data
from patients hospitalized across 14 states, found that Black COVID-19 patients
made up 33 percent of those for whom race or ethnicity information was available,
despite representing only 18 percent of the states’ populations. 25 Agreed Facts at
¶ 64. This disparity has continued. As of September 21, the CDC reports that Black
people represent 18.5 percent of COVID-19 cases and 21 percent of COVID-19
deaths in individuals for whom race or ethnicity is known, despite representing only
12.5 percent of the U.S. population.26 See Agreed Facts at ¶¶ 25, 68 (citing CDC

25

Shikha Garg, MD, et. al., Hospitalization Rates and Characteristics of Patients Hospitalized with
Laboratory-Confirmed Coronavirus Disease 2019—COVID-NET, 14 States, March 1-30, 2020,
CDC Morbidity and Mortality Weekly Report (Apr. 17, 2020), at 459,
https://www.cdc.gov/mmwr/volumes/69/wr/pdfs/mm6915e3-H.pdf.
26

Demographic Trends of COVID-19 cases and deaths in the US reported to the CDC,
https://covid.cdc.gov/covid-datatracker/?CDC_AA_refVal=https%3A%2F%2Fwww.cdc.gov%2Fcoronavirus%2F2019ncov%2Fcases-updates%2Fcases-in-us.html#demographics (last visited Sept. 22, 2020); The U.S.

13
App. 20

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 14 of 197

and U.S. Census Bureau Data). And, Latinx people represent 29.5 percent of
COVID-19 cases, though they represent only 18.4 percent of the population. 27 Id.
12.

Like the rest of the country, Alabama has reported alarming racial

disparities in serious illness and mortality due to COVID-19. Agreed Facts at ¶ 68;
Pl. Ex. 268 at ¶ 13; 9/14/20 at 197. As of August 13, the ADPH reported that Black
people in Alabama account for 41.1 percent of COVID-19 related deaths, despite
making up just 27 percent of the population. Agreed Facts at ¶ 68; see also Pl. Ex.
271 at ¶ 16; 9/9/20 at 49. And, in Mobile County, as of August 13, Black people
accounted for 51.1 percent of COVID-19 deaths, despite representing only 36
percent of the population. Agreed Facts at ¶ 68. In addition, counties in the Black
Belt 28 in Alabama that are predominately African American, including Lowndes and
Wilcox, have higher COVID-19 related death rates compared to predominantly
White counties, and Lowndes County has the State’s highest case fatality rate. Pl.
Ex. 271 ¶ 14; 9/9/20 at 50-51, 82, 99. Dr. Latesha Elopre, the plaintiffs’ expert on
internal medicine, infectious diseases, and disparities in access to health care and
health outcomes in Alabama, explained, “there is strong data that supports . . .

Census Bureau, https://data.census.gov/cedsci/profile?q=United%20States&g=0100000US (last
visited Sept. 22, 2020).
27

Id.

28

The Black Belt is named for the region’s fertile black soil. See, e.g., Pl. Ex. 271 at ¶ 8.

14
App. 21

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 15 of 197

looking [across] age groups, that Black people, regardless of health conditions, have
higher rates of death compared to Whites.” 9/9/20 at 91-92.
13.

The higher risk of COVID-19 infection for African Americans is tied

to pre-existing and evolving inequities in structural systems and social conditions.
See Pl. Exs. 268 at ¶¶ 6-10; 271 at ¶ 14; 9/9/20 at 38; 9/10/20 at 12; Agreed Facts at
¶ 66. To begin, people who are Black, Latinx, or Native American are more likely
to hold jobs that do not provide paid leave, cannot be performed remotely, and
require more exposure to the public and, therefore, to COVID-19. Pl. Exs. 268 at ¶
14; 269 at ¶ 9; 271 at ¶ 14; 9/8/20 at 20, 66-67; 9/10/20 at 17. Also, due to patterns
resulting from a history of housing discrimination, Black and Latinx individuals are
more likely to live in areas impacted by environmental pollutants, or in densely
populated areas, making it harder for those individuals to practice social distancing.
See Agreed Facts at ¶ 66; Pl. Exs. 268 at ¶¶ 8-9, 14; 271 at ¶ 14; 9/8/20 at 21; 9/10/20
at 13-14, 16. In addition, evidence reveals that testing resources for COVID-19 are
scarcer in Black communities and that Black people are less likely to be referred for
testing than White people when presenting comparable signs of infection. Pl. Ex.
268 at ¶ 15. Indeed, for these and other reasons, the CDC identified discrimination
in housing, education, finance, and health care as a factor that puts racial and ethnic

15
App. 22

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 16 of 197

minorities at increased risk of getting sick and dying from COVID-19.29 See Agreed
Facts at ¶ 66; 9/10/20 at 9; Pl. Ex. 270 at 9.
14.

The discrimination and systemic racism that contribute to elevated

COVID-19 risk for Black people and other minorities nationally are evident in
Alabama. Agreed Facts at ¶ 66. For example, in Alabama’s Black Belt counties,
residents face multiple stressors that lead to a relatively poor quality of life: high
levels of poverty and unemployment, inadequate education, high rates of illiteracy,
lack of jobs, many single-parent households, and food insecurity. 9/9/20 at 41; Pl.
Ex. 271 at ¶¶ 8-9. On top of that, Black Belt counties have fewer primary care
physicians per resident than other counties, and, despite the high rates of infection,
people living in these counties receive fewer COVID-19 tests than elsewhere in
Alabama. Agreed Facts at ¶¶ 67, 69; Pl. Ex. 271 at ¶ 16. Disparities in access to
transportation exacerbate those obstacles and make COVID-19 testing and health
care even less accessible for Black people in those counties, which in turn makes it
even more difficult for communities in the Black Belt to manage and slow the spread
of the disease. See Pl. Ex. 271 at ¶¶ 10, 14; Agreed Facts at ¶ 70.

29

CDC, Health Equity Considerations & Racial & Ethnic Minority Groups,
https://www.cdc.gov/coronavirus/2019-ncov/community/health-equity/race-ethnicity.html (last
visited Sept. 22, 2020).

16
App. 23

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 17 of 197

B.

Alabama’s Response to the Pandemic
15.

Governor Ivey and the ADPH have taken steps to combat the spread of

COVID-19 in Alabama, including by issuing a series of orders since March 13, when
Governor Ivey declared a State of Emergency. See Pl. Exs. 299-303; State. Ex. 7.
First, on March 19, Dr. Harris issued a statewide health order implementing several
mandatory measures, including: prohibiting “[a]ll gatherings of 25 persons or more,
or gatherings of any size that cannot maintain a consistent six-foot distance between
persons[;]” closing all public and private schools, colleges, and universities and
Senior Citizen Center gatherings; requiring hospitals and nursing homes to prohibit
visitation except for certain compassionate care situations; and prohibiting
restaurants, bars, and breweries, from permitting “on-premise consumption of food
or drink.” Pl. Ex. 301.
16.

On March 26, Governor Ivey issued a proclamation ordering “all public

K-12 schools” to “implement a plan to complete the 2019-2020 school year using
alternative methods of instruction,” and, because “person-to-person contact
increases the risk of transmitting COVID-19,” authorizing notaries who work under
the supervision of an attorney to notarize signatures through videoconferencing to
“reduce the necessity of in-person meetings.” State Ex. 21 at 1-2. Governor Ivey
issued another proclamation on April 2 expanding the remote notary authorization
to all notaries in the State. State Ex. 25 at 4. Governor Ivey’s April 2 proclamation
also authorized governmental entities to postpone or cancel public meetings and
17
App. 24

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 18 of 197

enabled corporations to hold remote shareholder meetings to further reduce the need
for in-person meetings in light of COVID-19. See id. at 4-5.
17.

Then, on April 3, Governor Ivey and Dr. Harris issued a mandatory

statewide order requiring “every person . . . to stay at his or her place of residence
except as necessary to perform” an enumerated list of “essential activities.” Pl. Ex.
300 at 2. The order also mandated the closure of entertainment venues, athletic
facilities, and close-contact service providers, such as barber shops. Id. at 8-9. And,
the order required “essential retailers” to implement a reduced “emergency
maximum occupancy rate,” enforce social distancing, and take reasonable steps to
comply with CDC and ADPH sanitation guidelines to remain open. Id. at 9. In
addition, the “Stay at Home” order required any non-institutionalized person who
has tested positive for COVID-19 to “be quarantined to their place of residence for
a period of 14 days after receiving positive test results,” and prohibited persons in
quarantine from “leav[ing] their place of residence for any reason other than to seek
necessary medical treatment.” Id. at 9-10.
18.

On April 28, Governor Ivey announced a “Safer at Home” order,

effective from April 30 through May 15, which lifted some of the restrictions in the
“Stay at Home” order. Pl. Ex. 303. Since then, she has extended the order several
times, see Pl. Exs. 299; 302, and on August 27, Governor Ivey extended the “Safer

18
App. 25

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 19 of 197

at Home” order through October 2, 2020, Agreed Facts at ¶ 58. 30 Under this most
recent order, all individuals—especially vulnerable persons—are encouraged to stay
home and follow good sanitation practices, and all non-work related gatherings of
any size that cannot maintain a consistent six-foot distance between persons from
different households are prohibited. Id. at ¶¶ 57-58 The order requires that “any
person who has tested positive for COVID-19—other than institutionalized
persons—shall be quarantined to their place of residence for a period of 14 days”
and mandates that “[a]ny person quarantined . . . shall not leave their place of
residence for any reason other than to seek necessary medical treatment.” Id. at ¶ 57.
Finally, effective July 16, the “Safer at Home” order requires people over the age of
six to wear facial coverings or masks in public to prevent the spread of COVID-19.
Id. The mask requirement does not apply to certain people or in certain situations,
including to “[a]ny person who is voting, though wearing a face covering is strongly
encouraged . . . .” Id. Alabama has seen a downward trend in the number of COVID19 cases and hospitalizations since Governor Ivey implemented the mask order in
mid-July. 9/9/20 at 46, 52, 58, 76-77.
19.

Evidence indicates that many people in Alabama, including the

individual plaintiffs, have been adhering to the Safer at Home order and following

30

See Order of the State Health Officer Suspending Certain Public Gatherings Due to Risk of
Infections by COVID-19 (Aug. 27, 2020), https://governor.alabama.gov/assets/2020/08/Safer-atHome-Order-Final-8.27.20.pdf.

19
App. 26

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 20 of 197

CDC guidelines. See 9/8/20 at 116-22, 133-34, 169-70; 9/9/20 at 11-12; 9/14/20 at
10-11, 35-36, 71-72, 75, 193; Pl. Ex. 270 at 30-33. Almost two-thirds of Alabamians
report following CDC guidance closely, and just over half report following CDC
guidance very closely. 9/14/20 at 212. And, the COVID-Impact Survey, which
asked questions about precautions respondents are taking to avoid exposure to
COVID-19, indicates that the vast majority of adults under the age of 60 in the
Birmingham area who have at least one underlying medical condition are avoiding
crowded or public places, maintaining six-feet of distance with others, and wearing
masks outside of their homes. 9/14/20 at 201-02; Pl. Ex. 270 at 30-31. Specifically,
for those adults that are high risk due to a medical condition, 74.4 percent report
avoiding crowded or public places, 86 percent stay six feet from others, and 88.8
percent report wearing masks outside their home. Pl. Ex. 270 at 30. A statewide
Auburn University at Montgomery poll showed that people who are not high risk
are following COVID-19 safety precautions as well. “78.1 percent of Alabama
registered voters said that they were ‘very’ or ‘somewhat likely . . . to voluntarily
wear a mask or face covering in public if the COVID-19 pandemic continues through
the end of the year.’” Id. at 31 n.82. For Black voters under 60 who are at high risk
due to a medical condition, 74.8 percent report avoiding public or crowded places
that are not job-related, and even higher percentages of Black voters in that category
maintain six feet of distance and wear a mask when they go in public. Id. at 30-31.

20
App. 27

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 21 of 197

C.

Voting and Alabama’s Elections in the Pandemic
20.

Despite all efforts to control the pandemic, the number of COVID-19

cases continues to increase in the United States and Alabama, and there have been
up-ticks in case numbers since schools and colleges reopened this fall. 9/9/20 at 46,
53. Dr. Robert R. Redfield, Director of the CDC, indicated that he believes “the fall
and winter of 2020 and 2021 are going to be probably one of the most difficult times
that we’ve experienced in American public health.” 31 Agreed Facts at ¶ 32. The
plaintiffs’ expert on epidemiology, Dr. Arthur Reingold, M.D., echoed that
sentiment, testifying that we will continue to have COVID-19 in Alabama and
throughout the United States for the foreseeable future, though he cannot predict if
the number of new cases will increase, decrease, or stay the same through the end of
the year. 9/8/20 at 37, 54; see also Pl. Ex. 269 at ¶¶ 17-18. Thus, the COVID-19
pandemic will likely have a profound impact on voting in the November 3, 2020
general election. See Pl. Ex. Ex. 271 at ¶ 18; 9/9/20 at 38.
21.

With respect to voting in the pandemic, Dr. Anthony Fauci, head of the

National Institute of Allergy and Infectious Diseases and a member of the White
House’s coronavirus taskforce, stated:

31

Aria Bendix, CDC director predicts this fall and winter will be ‘one of the most difficult times
we’ve experienced in American public health’, Business Insider (July 14, 2020),
https://www.businessinsider.com/cdc-director-robert-redfield-deadly-coronavirus-surge-fallwinter-2020-7.

21
App. 28

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 22 of 197

I don’t see any reason why, if people maintain [six-foot] distancing,
wearing a mask and washing hands—why you cannot, at least where I
vote, go to a place and vote. 32
And you can do that, if you go and wear a mask, if you observe the
physical distancing, and don’t have a crowded situation, there’s no
reason why you shouldn’t be able to do that. I mean, obviously if you’re
a person who is compromised physically or otherwise, you don’t want
to take the chance. There’s the situation of mail-in voting that has been
done for years in many places. So there’s no reason why we shouldn’t
be able to vote in person or otherwise. 33
Agreed Facts at ¶ 31. Still, according to Dr. Reingold, traditional in-person voting
exposes voters to a risk of contracting COVID-19 due to the proximity of a large
number of individuals in a limited space and the large number of common surfaces
that many people may touch. 9/8/20 at 46-47; Pl Ex. 269 at ¶ 19. And, the risk of
infections increases for people who have to use public transportation or ride in a car
with people outside of their household to get to the polls. 9/8/20 at 46-47; Pl Ex.
269 at ¶ 19. Moreover, Dr. Reingold indicated that, in Alabama, the risk of in-person
voting is compounded because the State’s mask order does not apply to “[a]ny
person who is voting,” 34 which means that not everyone voting will wear a mask in

32

Jacqueline Alemany, Power Up: Anthony Fauci Cautiously Supports Sending Kids Back to
School, Aug., 7, 2020, https://www.washingtonpost.com/politics/2020/08/07/power-up-anthonyfauci-cautiously-supports-sending-kids-back-school/.
33

Nsikan Akpan, What Fauci Says the U.S. Really Needs to Repoen Safely, Aug. 13, 2020,
https://www.nationalgeographic.com/science/2020/08/what-anthony-fauci-says-united-statesreally-needs-to-reopen-safely-cvd/.
34

While the State’s order does not require voters to wear masks, it states that “wearing a face
covering is strongly encouraged” for voters. Pl. Ex. 299 at 3.

22
App. 29

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 23 of 197

polling places, leading to greater risk of COVID-19 transmission. See 9/8/20 at 49;
Pl. Ex. 299 at 3; see also 9/11/20 at 26-27, 30. Similarly, in part because of the
chance that people at polling sites will not be wearing masks, Dr. Elopre
recommends that people at-risk from COVID-19 vote absentee rather than in-person.
9/9/20 at 56-57.
22.

Evidence exists of transmission of COVID-19 from in-person voting.

Indeed, after the April 7 primary election in Wisconsin, that state’s contact tracing
efforts identified 71 individuals who had COVID-19 cases linked to working at the
polls or voting in person at the polls. 9/10/20 at 163; Pl. Ex. 267 at 2. The plaintiffs’
expert, Dr. Chad Cotti, a health economist at the University of Wisconsin-Oshkosh,
concluded that counties that had higher numbers of in-person votes per polling
location in the Wisconsin primary had a higher rate of COVID-19 spread at a
community level after the election than counties with relatively fewer in-person
votes. 9/10/20 at 156, 174; Pl. Ex. 267 at 3. In particular, he found that a 10 percent
increase in in-person voter density, i.e., in-person votes per polling location,
corresponds to about a 17 – 18 percent increase in the positive test rate. 9/10/20 at
158; Pl. Ex. 267 at 3, 15. Ultimately, Dr. Cotti concluded from his analysis that
approximately 700 cases of COVID-19 in the five-week period after the April 7
Wisconsin primary were associated with in-person voting. 9/10/20 at 149, 158; Pl.
Ex. 267 at 3. Based on his conclusion, Dr. Cotti opined that to reduce COVID-19
risk, “it would be prudent for election officials and state leaders to engage in as many
23
App. 30

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 24 of 197

practices to ‘de-densify’[] polling locations as possible,” including by offering more
hours at the polls, early voting, and curbside voting, and by encouraging absentee
voting. 9/10/20 at 151, 174.
23.

In contrast to Dr. Cotti, the State defendants’ expert, Dr. Quentin Kidd,

a political scientist at Christopher Newport University, found that there was no
increase in COVID-19 infection rates in the 14-day period following elections in
Wisconsin, Virginia, West Virginia, Georgia, and Kentucky, based on his review of
data from Johns Hopkins University. 9/16/20 at 150, 154-59, 214. Dr. Kidd’s
review, however, analyzed only the 7-day moving average for COVID-19 cases
reported in databases for the 14 days after the elections. See id.; State Ex. 133 at 813. Noticeably, he admitted he did not account for the acknowledged lag times
between exposure, the onset of symptoms, testing, and results. 9/16/20 at 150-51,
165-66, 177-78, 177-182. And, on cross examination, Dr. Kidd admitted that during
the time-period between 15 and 30 days after the elections, which accounted for the
lag time, a noticeable increase in COVID-19 cases could be seen in all of those
jurisdictions, except Virginia. Id. at 185-95. Virginia, however, allows curbside
voting for individuals over 65 and for individuals with a disability, and only 57,500
people voted in person. Id. at 195. Thus, Dr. Kidd’s analysis, even if the court were
to accept it, 35 does not refute Dr. Cotti’s testimony that there is a link between higher
35

The court sustained the plaintiffs’ objections to Dr. Kidd’s opinions as to the first fourteen pages
of Dr. Kidd’s expert report, see State Ex. 133, pursuant to Rule 702 of the Federal Rules of
Evidence. See 9/16/20 at 211-12, 221-22. As the court explained, Dr. Kidd’s field of expertise

24
App. 31

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 25 of 197

numbers of in-person votes per polling location and increased COVID-19 spread in
communities.
24.

The CDC has issued specific guidelines to address concerns about

voting during the COVID-19 pandemic. Pl. Ex. 451. Among other things, the CDC
recommends that states “offer alternative voting methods that minimize direct
contact and reduce crowd size at polling locations,” including early voting, and it
asked states to consider “drive-up voting for eligible voters if allowed in the
jurisdiction” as a means of complying with social distancing rules and limiting
personal contact during in-person voting. Id. The plaintiffs’ experts, Dr. Reingold
and Dr. Elopre, agree with the CDC’s recommendations, including the
recommendation for curbside or drive-up voting, though Dr. Reingold admits that
curbside voting is not necessarily safer than absentee voting. 9/8/20 at 45, 52, 7677; 9/9/20 at 56-57, 62; see also Pl. Ex. 269 at ¶¶ 23-24.
25.

Alabama does not offer early, traditional in-person voting 36 or curbside

voting. Agreed Facts at ¶ 36. Still, Alabama has taken specific steps to make voting

does not qualify him to reach the areas he offers opinions on, and Dr. Kidd admits that he has no
expertise in the area of public health and has not done any research on the topic that would help
the court increase its understanding of the areas he is opining on. Id. at 221-22. In addition, unlike
Dr. Cotti, Dr. Kidd did not undertake any regression analysis or control for any public health
factors, such as the lag times discussed above, in his analysis. Id. Put simply, Dr. Kidd’s analysis
is no different than what a lay person could report on through a simplistic and straightforward look
at the relevant John Hopkins data, and offers no real benefit from an expertise point of view to aid
the court in its understanding of the underlying data. Id. at 221.
36

As discussed below, the State does offer early in-person absentee voting.

25
App. 32

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 26 of 197

safer during the COVID-19 pandemic. To begin, on March 13, Secretary Merrill
sent a letter to probate judges to suggest that they should sanitize polling machines
and equipment frequently during voting, provide hand sanitizer to voters, and
provide gloves to poll workers. State Ex. 5. Then, on March 18, Governor Ivey
rescheduled the March 31 primary runoff election to July 14. State Exs. 15, 16;
Agreed Facts at ¶ 80. That same day, Secretary Merrill promulgated an emergency
rule titled “Absentee Voting During State of Emergency,” providing in part as
follows:
[A]ny qualified voter who determines it is impossible or unreasonable
to vote at their voting place for the Primary Runoff Election of 2020
due to the declared states of emergency, shall be eligible to check the
box on the absentee ballot application which reads as follows: “I have
a physical illness or infirmity which prevents my attendance at the
polls. [ID REQUIRED].”
State Ex. 17; Agreed Facts at ¶ 81. In effect, this rule meant that any voter concerned
about potential exposure to COVID-19 at a polling place could vote absentee in the
July 14 primary runoff election. See 9/11/20 at 3. Secretary Merrill issued a press
release in March informing voters about the emergency absentee voting rule for the
July election. State Ex. 18.
26.

In April, Congress appropriated funds for Alabama to prepare for

voting during the pandemic in the July and November elections, and the Secretary
of State’s office also dedicated increased funding to this effort. 9/15/20 at 149; State
Ex. 35. The Secretary of State will use some of those funds to reimburse counties
26
App. 33

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 27 of 197

for masks, gloves, and cleaning supplies for polling places. Id. And, Secretary
Merrill testified that his office will provide a mask to any voter at a polling place
who would like one. 9/11/20 at 61. Still, Secretary Merrill’s office received letters
from some probate judges expressing concern about their ability to comply with
CDC recommendations and State and Federal election laws during the July runoff
election. State Exs. 36; 38. And, the Secretary received a report that in Mobile
County, the polling sites that would have the biggest issues complying with CDC
guidelines serve predominately minority communities. See 9/11/20 at 35.
27.

Alabama saw a record turnout of voters for a runoff election on July 14,

with 17.6 percent of eligible voters voting. 9/11/20 at 45. During and after the July
14 election, Secretary Merrill received complaints that poll workers and voters did
not wear masks at polling sites. Id. at 26-27, 30. When he learned that voters in
certain precincts were not wearing masks, Secretary Merrill took steps to ensure
those voters were still allowed to vote in the runoff. Id. at 30. According to Secretary
Merrill, “[n]o voter can be turned away [from a polling site] for any reason if they
are a qualified elector[,]” even if they are visibly ill or have a known case of COVID19. Id.; see also 9/15/20 at 202; 9/17/20 at 193.
28.

Secretary Merrill extended the emergency absentee voting rule to apply

to the November 3, 2020 general election. 9/11/20 at 3; 9/15/20 at 152. Thus, any
voter in Alabama who wishes to vote absentee in the November election due to
concerns about COVID-19 may do so, subject to the witness and photo ID
27
App. 34

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 28 of 197

requirements. Secretary Merrill expects voter turnout in November to exceed the
2016 presidential election, and although most Alabama voters have traditionally
voted in person on Election Day, he expects voters to cast a record number of
absentee ballots in the November election. 9/11/20 at 47, 80; Agreed Facts at ¶ 89.
On at least 14 occasions, Secretary Merrill’s office issued a press release
encouraging voters concerned about exposure to COVID-19 to vote absentee and
providing information on how to apply for an absentee ballot and the applicable
deadlines. State Exs. 21; 30; 33; 34; 37; 44; 46; 39; 59; 61; 62; 66; 69; 71.
29.

Absentee voting for the general election began on September 9, and as

of September 11, more than 30,000 people had applied for absentee ballots across
the State. 9/11/20 at 47, 58; 9/15/20 at 142. In addition, several hundred people
have completed absentee ballots in person in their county AEM’s office. 9/11/20 at
47, 58; see also 9/15/20 at 92; 9/16/20 at 55-56; 9/17/20 at 137, 195. To cast an
absentee ballot, a voter must complete an absentee ballot application, and return the
application to the AEM by mail or in person with a copy of her photo ID at least five
days before the election. 9/15/20 at 139, 151. Then, after the voter receives the
absentee ballot packet, she must seal the completed ballot inside an affidavit
envelope, and sign the affidavit in the presence of two witnesses or a notary. 9/15/20
at 139-40. Finally, the voter must return the completed ballot and affidavit to the
AEM in person up until the day before Election Day, or by mail in time to be received
by noon on Election Day. 9/15/20 at 151.
28
App. 35

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 29 of 197

30.

Voters may go in person to an AEM’s office to vote before the election,

and they can complete the absentee voting process in a single trip. 9/11/20 at 47-48;
9/17/20 at 130-31. Alleen Barnett, the Absentee Election Coordinator for Mobile
County, estimates that her office has been serving between 40-50 voters a day since
absentee voting began on September 9, and she anticipates that the number will
increase. 9/17/20 at 102-03, 130. In addition to serving voters at the AEM’s office,
Secretary Merrill encourages AEMs and Circuit Clerks to hold events outside of
their offices, such as outdoors on college campuses, in parking lots, or in nursing
homes, to allow voters additional opportunities to cast absentee ballots in person
before the election. 9/11/20 at 48-50.
31.

In the Mobile County AEM’s office, Ms. Barnett and her staff wear

masks, have hand sanitizer and rubber gloves available, and wipe their work areas
and the voter areas with disinfectant spray. 9/17/20 at 134. They also practice social
distancing in the office and have spaced chairs for voters at least six-feet apart. Id.
But, Ms. Barnett’s office cannot turn away a voter who does not wear a mask. Id. at
153. At least in part for that reason, Mr. Howard Porter, Jr., one of the individual
plaintiffs from Mobile County, testified that he would not consider voting in person
in the AEM’s office. 9/14/20 at 88. Mr. Porter explained his decision for not voting
in person: “I don’t want any vote that I cast to be my last vote. And in Alabama, a
person can vote even if they don’t have on a face mask. And that’s just too much
for me. [] [A]s important as the right to vote is, I just can’t endure that.” Id. at 7829
App. 36

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 30 of 197

79. Mr. Porter, a Black man in his seventies, further explained: “[S]o many of my
[ancestors] even died to vote. And while I don’t mind dying to vote, I think we’re
past that – we’re past that time. And that should not be a requirement . . . . Because
voting is the only day that rich, the poor, sick, the healthy, all should be counted as
one and just as easy. And any obstacle placed in the way of the opportunity to vote
places an effect on the process itself.” Id. at 80.
D.

Alabama’s History of Disenfranchisement of Black Voters
32.

For the individual plaintiffs who are Black and the organizations who

advocate for the voting rights of Blacks, voting is fundamental and sacred in light of
the many thousands who died to secure the right. They view any restrictions to
voting as part of the centuries-old effort to deprive Blacks from accessing the ballot.
As the plaintiffs testified, Black Alabamians have consistently overcome barriers to
exercising their fundamental right to vote, only to later have that right curtailed. See
9/14/20 at 118. The relevant historical facts are largely undisputed. Briefly, after
the bloodshed of the Civil War, the nation finally deemed African Americans worthy
of the franchise. See Pl. Ex. 264 at 6. The “radical” northern Republicans, emerging
triumphant from the War, sought to cement their hard-fought victory with three
Constitutional amendments. Id. The Thirteenth Amendment, the first of this trio,
granted millions of formerly enslaved persons their freedom, abolishing a system
that deprived them of their humanity. Const. Amend. XIII. Second, the Fourteenth
Amendment transformed these freed men and women into citizens, guaranteeing
30
App. 37

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 31 of 197

them due process and equal protection of the laws. Const. Amend. XIV. Finally,
the Fifteenth Amendment granted the franchise to the men among our nation’s
newest citizens. Const. Amendment XV. Backed by the federal government, the
formerly enslaved exercised their newfound rights to elect Black candidates to
statewide office in Alabama and across the South. Pl. Ex. 264 at 6.
33.

But their political power proved fleeting. Pl. Ex. 264 at 6. Favoring

unity with the former Confederacy over equality for Black Americans, the
Republican Congress withdrew federal troops from the South. Id. Terrorists and
southern Democrats replaced them. Id. These groups, known as “Redeemers,” used
racial violence to erase the advances Black people made during Reconstruction. Id.
Notwithstanding the Fourteenth and Fifteenth Amendments, Redeemers in Alabama
“burned houses, churches, and schools; raided party meetings; and lynched” those
Black citizens who dared to vote. Id. In Mobile, Alabama, Democrats once
murdered prospective Black voters and fired a cannon near their polling place,
scattering hundreds of other Black voters. Id.
34.

By 1874, Redeemers had recaptured the Alabama legislature and

governorship. Agreed Facts at ¶ 144. Once in power, these officials paired violence
with policy, imposing legislative barriers to further undermine the Black vote. Id.
They redrew voting districts to exclude Black voters, implemented at-large elections
across the state to dilute Black voting blocs and maintain all-White local

31
App. 38

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 32 of 197

governments, and, in Alabama’s Black Belt, they eliminated elections altogether so
that the Governor could appoint White leaders. Id.
35.

Their later efforts included enacting new laws nominally geared toward

curbing voter fraud. Agreed Facts at ¶ 145. The Alabama legislature passed the
Sayre Law in 1893, which entrenched “a more respectable and cunning way of
controlling or disenfranchising black voters.” Harris v. Siegelman, 695 F. Supp.
517, 522 (M.D. Ala. 1988). This “reform” measure followed reports of rampant
voter fraud among Democrats seeking to disrupt a fledgling alliance between poor
populists and poorer Black voters. 9/14/20 at 115. Under the Sayre Law, Democrats
no longer needed to engage in fraud to weaken this biracial coalition. The law
strategically set voter registration deadlines in the busiest months for farmers,
instituted time limits for voting, and adopted a “secret ballot” designed to make it
difficult for illiterate voters to vote along party lines. Agreed Facts at ¶ 145. As a
result, Black voter turnout plummeted twenty-two percent. Id.
36.

Not even the Alabama Constitution was safe from White supremacy.

In 1901, Redeemers revised the state constitution to more explicitly disenfranchise
Black voters. Agreed Facts at ¶ 146. These revisions sought to address the “grave
problem” of “Negro domination” and to “establish white supremacy.” Pl. Ex. 264
at 7. Redeemers constitutionalized a poll tax, conditioned voting rights on property
ownership and employment status, imposed a literacy test, and prohibited from
voting anyone convicted of certain crimes “thought to be more commonly
32
App. 39

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 33 of 197

committed by [Black residents].”

Agreed Facts at ¶ 146 (quoting Hunter v.

Underwood, 471 U.S. 222, 232 (1985)). The number of registered Black voters in
Alabama dropped from 180,000 to 3,000 under the 1901 Constitution. Id.
37.

As the federal courts awakened to southern efforts to disenfranchise

Black citizens, Alabama innovated. When the Supreme Court invalidated the allWhite primary in 1944, the state legislature responded by enacting the “Boswell
Amendment” to its 1901 Constitution. Agreed Facts at ¶ 147. The Boswell
Amendment required that citizens prove their ability to “understand and explain”
articles of the U.S. Constitution to a local registrar before registering to vote. Id.
Registrars wielded significant discretion under this system, making it nearly
“impossible for a [Black voter] to qualify.” Id. That was by design. An author of
the Amendment declared this discretion integral to excluding from registration
“those elements in our community which have not yet fitted themselves for selfgovernment.” Pl. Ex. 264 at 8. And when a federal court in 1949 invalidated the
Boswell Amendment as racially discriminatory, the legislature replaced it with a
more elaborate scheme to prevent Black voter registration. Agreed Facts at ¶ 147.
This new scheme imposed a literacy test on potential registrants, disqualified
registrants charged with a crime of “moral turpitude,” and required registrants to
produce a supporting witness willing to confirm the registrant’s good standing. Id.
Because the legacy of slavery made Black citizens disproportionately illiterate and

33
App. 40

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 34 of 197

made most White citizens unwilling to vouch for Black registrants, these provisions
disparately impacted Black would-be registrants. Id.
38.

At midcentury, Black attorneys in Alabama began using newly enacted

federal civil rights legislation to challenge voter discrimination in federal courts.
Agreed Facts at ¶ 148.

They scored key victories while working with the

Department of Justice’s Civil Rights Division. See Pl. Ex. 264 at 10. The Civil
Rights Division in turn began filing lawsuits against local registrars across Alabama,
challenging the discriminatory use of the State’s voter questionnaire, witness
requirement, and other registration requirements. Agreed Facts at ¶ 148.
39.

In 1965, Congress passed the Voting Rights Act (“VRA”), which

outlawed lingering devices for disenfranchising African Americans including
literacy tests, witness requirements, and Alabama’s poll tax. Agreed Facts at ¶ 149.
Sections 4 and 5 of the VRA also required that changes affecting voting in Alabama
receive preclearance from the federal government before enactment. Id.; see also
Pl. Ex. 264 at 23.
40.

Although Black voter registration in Alabama soared from 25 percent

to 56 percent in the three years following enactment of the VRA, the state legislature
used racial gerrymandering to subsequently dilute Black voting power. Agreed
Facts at ¶ 150. Throughout the 1960s and 1970s, Alabama politicians proposed
several districting plans that would have fragmented predominantly Black

34
App. 41

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 35 of 197

communities. Id.; see also 9/14/20 at 122. Federal courts consistently blocked their
implementation. See Pl. Ex. 264 at 15.
41.

In the 1990s, the Alabama legislature again enacted so-called reform

measures that disproportionately impacted Black voters in the name of rooting out
voter fraud. 9/14/20 at 126. These laws formally mandated that citizens interested
in voting absentee include with their ballots either two witness signatures or the
signature of a notary public. Id. at 127; see also Pl. Ex. 264 at 20-21. This legislation
had a “laser focus on Black political activists” who had used Alabama’s absentee
ballot process to increase Black voter turnout. 9/14/20 at 126. At the time, only four
state senators opposed these new restrictions; all were Black. Id. at 128; Pl. Ex. 264
at 21. Some White senators, in contrast, insisted that only Black voters engaged in
voter fraud. Pl. Ex. 264 at 21.
42.

To be sure, other reformers in the 1990s had nonracial motivations. For

example, former Justice Glenn Murdock of the Alabama Supreme Court, then a
litigator, championed reform to the state legislature after investigating irregularities
in Alabama’s 1994 Supreme Court election. 9/17/20 at 8. Justice Murdock agrees,
however, that voter fraud was not instrumental to that election. Id. at 16. Instead,
purported fraud was “conflated with” the real issue in that debacle—“technical”
questions “about changing the rules of the election” after the fact. Id.; see also Pl.
Ex. 264 at 20–22. Meanwhile, Pamela Montgomery, a private citizen, advocated
election reform only after she became “convinced” that fraud existed in Greene
35
App. 42

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 36 of 197

County, Alabama, based, in part on an unofficial audit of absentee ballot returns she
helped conduct. 9/18/20 at 18. Ms. Montgomery formed a local citizens’ group,
which she testified was not designed to suppress the Black vote but was instead a
biracial effort to improve the lives of the Black citizens of Greene County. Id. at
30–32, 42–43. But, in a county she said was 90 percent Black, White residents were
overrepresented by 500 percent among the leadership of Ms. Montgomery’s
citizens’ group, id. at 46–47, and the court has other reasons to discount her
testimony.37
43.

Evidence at trial produced by the defendants showed instances of voter

fraud, mostly occurring two decades ago. Gregory Biggs prosecuted a handful of
fraud cases in the 1990s while working in the state Attorney General’s office.
9/16/20 at 7. In Winston County, for example, Mr. Biggs helped convict several
elected officials who conspired with local bootleggers to bribe voters into
exchanging absentee ballots for beer. Id. at 13. The other convictions Mr. Biggs
secured also involved local officials abusing their power to facilitate fraud. Mr.
Biggs admitted on cross-examination, however, that the Challenged Provisions
would not prevent the fraud he prosecuted from occurring today. Id. at 21–22. The

37

On cross-examination, Ms. Montgomery acknowledged that she has previously complained that
Black officials routinely play the “race card” to maintain power, but she denied having ever
observed a White politician use race to divide people. 9/18/20 at 48–49. There were other
admissions Ms. Montgomery made related to her social media postings, id. at 57-58, which the
court will not include here to protect her privacy. The court will add only that as the trier of fact,
these postings undermine her credibility and cause the court to give little weight to her testimony.

36
App. 43

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 37 of 197

record shows that voter fraud rarely occurs today, and the defendants point to only
two instances of voter fraud convictions secured in Alabama since the 1990s. See
9/16/20 at 67–70.
44.

Regardless of whether they were designed to address fraud or to

suppress the Black vote, the absentee ballot reforms enacted in the 1990s
disproportionately disadvantaged the rural Black citizens who historically relied on
absentee voting. 9/14/20 at 129; see also Pl. Ex. 264 at 21–22. Because these
citizens regularly worked long hours outside their counties and often lacked access
to vehicles, they struggled to reach “far-flung polling places” on Election Day.
9/14/20 at 129. Alabama’s rural Black Belt, which is predominately Black, thus saw
sharp declines in the number of absentee ballots cast. Id. Some state officials
heralded this as a success. Id.; see also Pl. Ex. 264 at 21–22.
45.

Alabama’s history of voter discrimination interacts with systemic

disparities that currently affect Black residents’ education, employment, and
healthcare outcomes to negatively impact Black political participation. Pl. Ex. 264
at 24.
46.

For example, in addition to voting discrimination, racial discrimination

in Alabama’s public schools is also well-documented. Pl. Ex. 264 at 24–25. State
and local officials fought to maintain segregation in Alabama schools long after the
Supreme Court ruled the practice unconstitutional in Brown v. Board of Education,
347 U.S. 483 (1954). Pl. Ex. 264 at 24–25. Efforts to desegregate school systems
37
App. 44

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 38 of 197

in Alabama have continued, with dozens remaining under desegregation orders
today. 9/14/20 at 137.
47.

To no surprise, consistent with CitiBank’s study released last week that

found that the U.S. Economy has lost $16 trillion since 2000 because of
discrimination against Blacks,38 educational discrimination has had a lasting effect
in Alabama. See 9/14/20 at 139. Of adults aged 25 years and over, 16.6 percent of
Black Alabamians have not completed high school compared to 11.4 percent of their
White counterparts. Doc. 228 at ¶ 3. For the same age range, only 17.3 percent of
African Americans in the State earned a bachelor’s degree or higher compared to
28.3 percent of White adults. Id. at ¶ 4.
48.

Complementing Alabama’s historical racial disparities in education are

entrenched disparities in employment and economic opportunities. Pl. Ex. 264 at
30–31. Over the past half-century, litigation has uncovered many examples of state
entities adopting racially discriminatory employment practices. 9/14/20 at 140; Pl.
Ex. 264 at 31. And private employers too have faced countless allegations of racial
discrimination. In 2019, for example Alabama had a higher percentage of raciallybased employment discrimination claims than any other state. Pl. Ex. 264 at 31.

38

See NPR, Cost of Racism, https://www.npr.org/sections/live-updates-protests-for-racialjustice/2020/09/23/916022472/cost-of-racism-u-s-economy-lost-16-trillion-because-ofdiscrimination-bank-says (last visited Sept. 25, 2020).

38
App. 45

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 39 of 197

Alabama was also overrepresented nationally in racially-based employment
discrimination claims based on its population. Id.
49.

Relatedly, Black communities in Alabama suffer from higher

concentrations of unemployment and under-employment. See Doc. 228 at ¶¶ 5–6.
The unemployment rate among Black Alabamians over age 16 is more than double
the rate among White residents of the same age. Id. at ¶ 5. Those Black Alabamians
who are employed are more likely to work lower paying jobs than White workers.
Of employed Black adults in the State, 20.7 percent work in service occupations
compared to just 14.8 percent of Whites. Id. at ¶ 7; see also Pl. Ex. 268 at ¶ 14.
Only 26.2 percent of employed Black Alabamians hold management or professional
roles; 39.1 percent of White Alabamians hold such positions. Doc. 228 at ¶ 6.
50.

In Alabama, Black households also have fewer economic resources.

The median household income for Black Alabamians is $33,503 compared to
$58,257 for White households. Doc. 228 at ¶ 9. More than one quarter of Black
Alabamians live in poverty compared to only 11.3 percent of White Alabamians. Id.
at ¶ 10. This economic inequality has consequences. Roughly 13 percent of Black
families in Alabama lack access to a vehicle compared to only 3.9 percent of White
families. Id. at ¶ 14. Black households are eight percent less likely than White
households to own a computer, smartphone, or tablet. Id. at ¶ 13. Black households
are also less likely to have broadband internet access—29.6 percent compared to
17.2 percent of White households. Id. at ¶ 12.
39
App. 46

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 40 of 197

51.

These economic conditions intersect with other legacies of racial

discrimination in Alabama to make the State’s Black residents more likely to suffer
negative health outcomes. Pl. Ex. 268 at ¶ 6. Historic racial residential segregation
is a principal driver. 9/10/20 at 13–14. State and federal laws and practices
“produced and maintained” racial residential segregation in Alabama by
incentivizing discriminatory zoning, redlining, and predatory lending. Pl. Ex. 268
at ¶ 8. Racial residential segregation has devalued neighborhoods, reduced access
to quality and affordable food, and produced disproportionately high concentrations
of poverty in Black communities. 9/10/20 at 15–16; Pl. Ex. 268 at ¶ 8. It is “one of
the strongest indicators of chronic illness patterns in the Black community.” 9/10/20
at 13. Because of racial residential segregation, Black individuals are more likely
than White individuals to suffer from chronic conditions such as obesity, cancer, and
asthma. See id. at 16; Pl. Ex. 268 at ¶ 8.
52.

This is particularly true in Alabama’s Black Belt counties, where “a

shortage of infrastructure to support economic stability and growth compounds the
inability of [residents] to move upward economically, contributing to generational
poverty, especially among rural Black people who are less likely to be able to
mobilize out of rural areas.” Pl. Ex. 271 at ¶ 8. Health outcomes for Black
Alabamians in rural counties are much worse than for White Alabamians in those
counties. 9/9/20 at 43; Pl. Ex. 271 at ¶ 9. Although impoverished people of all races
face structural obstacles that adversely impact their health, a Black person living in
40
App. 47

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 41 of 197

poverty “typically [] would have a worse outcome compared to their counterparts.”
9/9/20 at 69, 72.
53.

These health disparities reflect, in part, callousness among elected

officials in Alabama to the needs of Black residents. For example, Alabama’s
legislature has rejected requests to expand Medicaid under the Affordable Care Act
notwithstanding the urging of Black leaders and a racial gap in insurance coverage.
9/14/20 at 147–48. Expanding Medicaid would have insured an additional 220,000
Alabamians, particularly benefiting Black residents. 9/10/20 at 23; Pl. Ex. 268 at ¶
13. This healthcare and insurance inequality helped to make Black Alabamians
especially vulnerable when a novel coronavirus surfaced in early 2020. See Pl. Ex.
264 at 39
E.

The Parties in this Lawsuit
(1)

Individual Plaintiffs
(a)

54.

Howard Porter, Jr.

Mr. Porter is a Black man in his seventies, and a registered voter in

Mobile County, Alabama who lives with his wife and adult son. 9/14/20 at 65-67,
76. Mr. Porter has asthma and Parkinson’s Disease, which causes him to have
difficulty walking, and he uses a cane to walk. Id. at 64-68. Mr. Porter is at higher
risk for complications or death from COVID-19 because of his age and underlying
medical conditions. Agreed Facts at 3, ¶ 3. He takes the COVID-19 pandemic
seriously and follows the CDC’s guidance closely. See id. Sadly, his sister and
41
App. 48

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 42 of 197

uncle both died from COVID-19, and Mr. Porter is very fearful about becoming
infected. 9/14/20 at 69-72.
55.

Since Governor Ivey’s Stay at Home order on March 13th, Mr. Porter

has left his home to attend his doctor’s appointments. Id. at 71-72; Agreed Facts at
3, ¶ 3. He also attended one of his wife’s medical appointments to provide support
for her while she was receiving treatment for a serious medical condition. 9/14/20
at 71-72. Every time Mr. Porter leaves his home, he wears a mask, and he practices
social distancing. Id. at 75. In addition, the medical providers he saw also wore
masks. Id. Upon arriving home, Mr. Porter washes his clothes and showers. Id.
56.

Mr. Porter’s wife and son leave the house to obtain groceries, and they

wear a mask and follow social distancing protocols while out. Id. at 75. Upon their
return home, they also wash their clothes and take a shower. Id. Since the pandemic
hit, Mr. Porter’s daughter and grandchildren have visited him once in his home. Id.
at 76. His daughter and grandchildren had also adhered to social distancing
protocols before their visit. Id.
57.

Mr. Porter has always voted in-person, but now he does not want to risk

a COVID-19 infection. Agreed Facts at 3, ¶ 3. Mr. Porter chose not to vote in the
July 14 primary runoff election when he did not receive his absentee ballot. 9/14/20
at 78. He did not vote in-person in the election because he did not want to risk being
infected with COVID-19. Id. When Mr. Porter votes in person at his polling place,
he is required to walk 100 to 150 feet from his disabled parking space to the
42
App. 49

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 43 of 197

entrance. Id. at 77. Walking this distance is challenging for Mr. Porter due to his
Parkinson’s. Id. Mr. Porter would prefer to vote curbside as opposed to voting
absentee or in-person. 9/14/20 at 79-81. He believes it would be “less strenuous”
given his disability, provide less contact than going inside the polling place, and
reduce the time he spends now to vote. Id.
(b)
58.

Dr. Eric Peebles

Dr. Peebles is 39-years-old, White, and lives alone in Auburn,

Alabama. 9/8/20 at 114; Agreed Facts at 1, ¶ 1. He is a lawfully registered voter
who has never lost his right to vote by reason of a felony conviction or court order.
Id. Dr. Peebles has cerebral palsy, which puts him at heightened risk from COVID19 because respiratory illnesses carry high risks of severe complications and can be
fatal for people with his condition. 9/8/20 at 114, 116. Dr. Peebles uses a wheelchair
and requires “full assistance with activities of daily living . . . .” Id. at 115.
59.

He has not left his apartment complex since early March, except to

attend medically necessary appointments and to travel to Birmingham in June for
retrieval of data from his phone for discovery in an unrelated legal case. 9/8/20 at
120-22. Although Dr. Peebles attempted to have the retrieval of the data conducted
remotely, counsel for the opposing party required that their own expert obtain the
data directly from Dr. Peebles’s phone. Id. at 123. Because Dr. Peebles relies on
his phone to not only communicate, but also to activate the automatic door opener
at his home, he would not be able to leave his home in the event of an emergency if
43
App. 50

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 44 of 197

he did not have his phone. Id. at 123. Therefore, he reasonably did not believe he
could safely remain in his home without his phone, and he determined that he needed
to be present when the expert examined his phone. See id. at 123-24, 150. At least
six other people, all of whom wore a mask, attended the discovery meeting, and they
all remained more than six feet apart during the meeting. Id. at 126-37. Dr. Peebles
did not wear a mask because it was a high-stress situation, and he wanted access to
water. Id. at 149.
60.

Except for those appointments, Dr. Peebles has restricted all in-person

contact since March 13, with the exception of his five caregivers who provide 60
hours of in-home care each week, and nurses who visit him three days a week to
treat a persistent wound. 9/8/20 at 116-22,133-34. Each caregiver works separate
shifts of a few hours each, and Medicaid billing practices require that their shifts are
separated by at least two hours. See id. at 118. Although the nurses come on the
same days each week and will continue to do so through September and October,
the timing of their visits varies, and Dr. Peebles cannot predict when their visit may
coincide with one of his caregiver’s shifts. Id. at 119, 134, 148.
61.

Because Dr. Peebles’s caregivers necessarily come into close contact

with him, he must be sure that they strictly follow the CDC’s social distancing
guidelines at all times. See id. at 116-17, 120. As a precaution, each of Dr. Peebles’s
caregivers has been tested for COVID-19, and all of his caregivers wear masks in
his home. Id. at 120-21.
44
App. 51

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 45 of 197

62.

Dr. Peebles typically votes in person and did so during the March 3,

2020 primary election. Id. at 124, 129. Dr. Peebles cannot operate the voting
machines unassisted and thus brings an individual into the voting booth to assist him
in filling out the ballot. See id. at 124-25. He has had trouble navigating the physical
space in his polling place, which is located inside a hotel, and requires help with
operating the elevator. Id. at 130-31. Dr. Peebles explained that “[t]here are some
issues [] with whether this is enough room for me to activate the button on the
elevator and then, turn, back out or pull out of the elevator without risking being hit
by the door . . . .” Id. at 131. Nevertheless, he reports that he has “always [been]
able to vote” at his polling site with assistance. Id. at 153.
(c)
63.

Annie Carolyn Thompson

Ms. Thompson is a 68-year-old retiree who lives alone at her home in

Mobile, Alabama. 9/8/20 at 168. She is Black, a U.S. citizen, has never lost her
right to vote by reason of a felony conviction or court order, and is a lawfully
registered voter in Alabama. Id.; Agreed Facts at 3, ¶ 4. Ms. Thompson is at higher
risk of contracting and having severe complications from COVID-19 because of her
age and preexisting conditions, including diabetes and high blood pressure. See
9/8/20 at 168-69. Ms. Thompson takes medication for both conditions. Id. at 169.
64.

Ms. Thompson’s vulnerability to COVID-19 has caused her to severely

limit her social contact, and she has basically “self-quarantine[d]” since the
beginning of April. 9/8/20 at 169-70. After she retired as a cosmetologist, Ms.
45
App. 52

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 46 of 197

Thompson began working as a caretaker, but she left that job at the beginning of the
pandemic to protect her health. Id. at 170; Agreed Facts at 4, ¶ 4. Since the start of
the pandemic, the only person Ms. Thompson allows regularly in her home is her
daughter, who delivers groceries and other necessities approximately once or twice
a week. 9/8/20 at 169-70. One of Ms. Thompson’s granddaughters tested positive
for COVID-19, and both she and Ms. Thompson’s daughter had to quarantine at
home. Id. at 228-29. Accordingly, Ms. Thompson recently has had to do her own
grocery shopping instead of relying on her daughter.
65.

Ms. Thompson only leaves her home for necessary errands, such as

going to the bank, grocery store, pharmacy, medical appointments, and to take her
dog to the veterinarian and groomer to treat his skin condition. See 9/8/20 at 169,
171, 173, 199. When Ms. Thompson leaves her home, she protects herself “to the
fullest extent” possible. Id. at 193. This means she always wears a mask and
practices social distancing, and she also wears gloves and uses sanitizers, wipes, and
sprays. See id. at 170, 172. When Ms. Thompson has to go to the grocery store, she
limits her shopping to senior hours. Id. at 228, 231. In addition, Ms. Thompson uses
the bank’s drive-thru window, and someone at the vet’s office and groomer retrieves
Ms. Thompson’s dog from her car and brings him back, so Ms. Thompson does not
leave her car for either type of appointment. Id. at 172-73, 217.
66.

Ms. Thompson testified that she would have difficulty meeting the

photo ID requirement to vote absentee because she does not have the necessary
46
App. 53

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 47 of 197

technology or equipment to make a copy of her photo ID at home and would,
therefore, have to venture out of her home to obtain the copy. Id. at 176-77. She
also indicated that she would have difficulty meeting the witness requirement
because she does not regularly interact with two people at the same time. Id. at 177.
She further testified, however, that, having learned about the Mobile Public
Library’s curbside notary services in this litigation, she would use them to notarize
her absentee ballot for the November election. Id. at 196-97, 203-04.
67.

Ms. Thompson requested an absentee ballot for the July runoff election

because of COVID-19, but her ballot did not arrive until the day of the election.
9/8/20 at 174-75. Accordingly, because Ms. Thompson could not vote absentee, she
called a friend who works at her polling site to find out a time when few people
would be at the site. Id. at 174-75. She felt safe voting in person on that occasion
because all of the poll workers wore masks and gloves, there were sanitizing stations
all over, they had sneeze guards, and people practiced social distancing. Id. at 197.
Ms. Thompson testified that she would not feel safe voting in person in November
because her polling site, which is not a large facility, will be very crowded since it
is a major election that will have a larger turnout. See id. at 197-98, 201, 218. Ms.
Thompson also would not be comfortable voting in person in November because
people are not required to wear masks when voting. See id. at 219, 226.

47
App. 54

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 48 of 197

(d)
68.

Teresa Bettis

Ms. Bettis is a 51-year-old U.S. citizen who is Black, lives at her home

in Mobile County, Alabama with her husband and two minor children. 9/14/20 at 4;
Agreed Facts at 6, ¶ 10. She is registered to vote in Alabama and has never lost her
right to vote by reason of a felony conviction or court order. Agreed Facts at 6, ¶ 10.
Ms. Bettis is also the executive director of the Center for Fair Housing and in that
role frequently works as an organizational partner with plaintiff Black Voters Matter
(“BVM”) on their voter registration and voter education efforts. 9/14/20 at 4-5. Ms.
Bettis also serves as the housing chair for Mobile chapter of the NAACP. Id. at 5.
69.

Ms. Bettis faces a higher risk of contracting and having severe

complications from COVID-19 because of two preexisting conditions, diabetes and
hypertension, which she treats with over-the-counter supplements from local health
stores. 9/14/20 at 6-7. She has not taken prescription medications for either
condition in approximately eight years and is currently looking for a doctor who is
open to utilizing alternative medicine to help her manage the conditions. Id. at 8,
26. Ms. Bettis does not regularly check her blood sugar levels or her blood pressure,
but she can feel when she has a problem with them. Id. at 25-26.
70.

As Ms. Bettis is an at-risk individual, she has avoided crowds and

limited visitors in her home and trips outside of her home. See 9/14/20 at 10-11.
During the pandemic, Ms. Bettis has left her home to go to her dentist, the pharmacy,
the bank’s drive-thru window, the grocery store, and to pick up to-go meals at local
48
App. 55

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 49 of 197

restaurants and fast food drive-thru windows. Id. at 17, 33-34. Ms. Bettis shops at
the grocery store once or twice a week, and she has also been to Lowe’s, Marshall’s,
and the Shoe Station. Id. at 35. When Ms. Bettis ventures out for such errands, she
wears a mask and practices social distancing, and she keeps gloves, hand sanitizer,
and disinfectant in her car. Id. at 10-11, 35-36.
71.

Since mid-March, Ms. Bettis has had visitors at her home on limited

occasions. See id. at 11-12. First, in early or mid-March, her sister-in-law visited to
obtain help setting up a laptop to work remotely. Id. at 12. Then, Ms. Bettis allowed
her husband’s siblings to visit for Father’s Day, but required them to stay outside in
the yard where they could remain socially distant. See id. Ms. Bettis also had her
nephew enter her home on one occasion to witness her absentee ballot for the July
election. Id. at 12, 39-40, 56. Ms. Bettis has not had anyone over to her home since
her nephew’s visit, and she does not plan to have any visitors at her home, either
inside or outside, because each visitor increases the risk “of bringing the COVID
into your home, and [she’s] just not comfortable with that.” Id. at 12-13, 20, 57.
And, this includes her nephew because he now has a relative living with him who
has an illness that the nephew and other relatives refuse to disclose. Id. at 19-20.
72.

Ms. Bettis has worked primarily from home since March 19, but she

goes to the office to meet her bookkeeper every two weeks. See 9/14/20 at 14, 18,
27, 29. And, on a few occasions, Ms. Bettis has met with two people at a time at
work, including her administrative assistant, an IT employee, and board members.
49
App. 56

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 50 of 197

Id. at 14, 30-31, 52, 61. On those occasions, everyone wore masks and stayed
socially distant in a large conference room. Id. at 31. In addition to those meetings,
Ms. Bettis met the board president in a parking lot in order for him to sign documents
required to open a new bank account. Id. at 28-29, 53. Ms. Bettis testified that her
office will remain closed for the foreseeable future to minimize the risk of exposure
to COVID-19. See id. at 16.
73.

Ms. Bettis is especially concerned about avoiding exposure to COVID-

19 because she has known several people who have had the disease, including a
close friend who became very sick and two women in their 80s who are like second
mothers to her. 9/14/20 at 9, 58. One of the older women had to be hospitalized,
and one of the women’s son also contracted COVID-19 and died from the disease.
Id. at 9-11. Although Ms. Bettis normally would have attended the funeral to support
her friend, she did not go to avoid potentially exposing herself to COVID-19. See
id. at 11. In addition, her bookkeeper’s daughter recently tested positive for COVID19, and as a result, she is requiring her bookkeeper to work solely from home for
thirty days, or until mid-October. Id. at 9-10, 14, 32-33.
74.

Due to her concern about COVID-19, Ms. Bettis intended to vote

absentee in the July runoff election. 9/14/20 at 18, 46. But, she sealed the envelopes
for the absentee ballot incorrectly and did not have time to request another absentee
ballot. Id. at 18, 40-41. Accordingly, she voted in person at her polling site in a
large auditorium. Id. When Ms. Betis arrived at the site mid-morning, only one or
50
App. 57

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 51 of 197

two people were inside the site voting and they were wearing masks along with the
poll workers. Id. at 21, 41. However, not all of the poll workers wore gloves, and
Ms. Bettis did not observe any cleaning or disinfecting at the site. Id. at 21-22, 41.
75.

Ms. Bettis does not believe she can vote in person in November because

her polling site is typically extremely crowded for a presidential election. Id. at 22.
Since she is at high-risk from COVID-19, she is not willing to expose herself to the
risk of being around so many people at one time. Id. at 22-23. If she cannot vote
absentee, she probably will not vote, and that would be the first time since turning
18 that she did not vote in a presidential election. Id. at 23. Not voting would be
devastating for Ms. Bettis, but exposing herself to COVID-19 is not an option for
her. See id. at 24. When informed about the Mobile Public Library’s curbside notary
services at trial, Ms. Bettis agreed that utilizing the services to notarize her absentee
ballot would be an option for her. Id. at 45.
(e)
76.

Sheryl Threadgill-Matthews

Ms. Threadgill-Matthews is a Black, 67-year-old U.S. citizen who lives

in Wilcox County, Alabama with her husband. 9/9/20 at 4, 10; Agreed Facts at 7, ¶
13. She is a registered voter at her current address in Alabama, and has never lost
her right to vote by reason of a felony conviction or court order. Agreed Facts at 7,
¶ 13. Ms. Threadgill-Matthews is a retired social worker and is currently the
executive director of a youth program, BAMA Kids. 9/9/20 at 5. In that role she
has partnered with BVM on their voter registration and education efforts. Id. at 6.
51
App. 58

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 52 of 197

Ms. Threadgill-Matthews also served as an absentee election official in Wilcox
County for over 20 years, and in that role she reported to the county’s probate judge,
circuit clerk, and AEM. Id. at 6-7. Ms. Threadgill-Matthews testified that the
absentee election officials check the absentee ballot envelopes for compliance with
the witness requirement and that the probate judge provided some training for the
polling officials. Id. at 7-10. During her years as an absentee polling official, Ms.
Threadgill-Matthews never personally noted anything suspicious that she felt should
be flagged as fraudulent. Id. at 9.
77.

Ms. Threadgill-Matthews faces a higher risk of contracting and having

severe complications from COVID-19 because of her age and hypertension, which
she treats with prescription medication. Id. at 10. She knows several people in
Wilcox County who have had COVID-19, including two neighbors who were
hospitalized. Id. at 11. For that reason and because she is at-risk, Ms. ThreadgillMatthews has been very diligent about social distancing and wearing a mask, and
she has stopped traveling to visit her family. See id. at 11-12.
78.

Ms. Threadgill-Matthews has also limited her trips outside her home.

See id. She goes to the grocery store during senior hours, the pharmacy, and her
bank’s drive-thru window, or to the BAMA Kids office to pick up files she needs
for work. Id. at 11-12, 26-27. Ms. Threadgill-Matthews has also helped with food
bank distribution outside and an outdoor back-to-school rally for BAMA Kids where
everyone wore masks and practiced social distancing, and she has attended two
52
App. 59

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 53 of 197

drive-up church services in a parking lot. Id. at 12-13. Ms. Threadgill-Matthews
has also stopped having visitors to her home, with the exception of a niece who visits
occasionally, an exterminator, and a person who delivered a new washer and dryer
after the original washer stopped working. See id. at 11-12.
79.

Ms. Threadgill-Matthews is a dedicated voter, who votes in every

election, and she voted in person on March 3, 2020. 9/9/20 at 14. She plans on
voting absentee in November and in any future elections when COVID-19 remains
a risk in order to avoid exposure to other people at the polling site, but testified that
“curbside voting would be a very attractive option for me because it would take away
some of the – steps of having to secure an absentee ballot.” Id. at 14-15. Ms.
Threadgill-Matthews has helped others exercise their right to vote since she moved
to Wilcox County in 1978. Id. at 16. For example, Ms. Threadgill-Matthews helped
an elderly gentleman with ambulatory difficulties by contacting Carolyn DavisPosey, the circuit clerk in Wilcox County, to arrange for the man to vote absentee.
See 9/9/20 at 9, 27. Ms. Threadgill-Matthews then drove the gentleman to the
courthouse, and Ms. Davis-Posey met him at the car so he could cast an absentee
ballot. Id. Ms. Threadgill-Matthews has observed that people, especially Black
people, have had difficulty exercising their right to vote due to lack of transportation
and living far from the polling site, and because some people do not understand the
process or are unable to read the ballot. Id. at 17-18, 23-24. Since the pandemic
began, more people than usual have reached out to Ms. Threadgill-Matthews for
53
App. 60

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 54 of 197

advice as to how to satisfy the requirements for absentee voting. Agreed Facts at 8
¶ 15.
(2)

Organizational Plaintiffs
(a)

80.

People First of Alabama

People First is a state-wide nonprofit dedicated to elevating the living

experience of people with intellectual and developmental disabilities, such that they
can be valued members of their community. Agreed Facts ¶ 1; 9/11/20 at 100-101.
People First is funded by a single grant of $97,000. 9/11/20 at 118. It employs one
full-time executive director, a part-time outreach coordinator, a part-time financial
director, and a part-time grant writer. Id. at 119. People First is made up of 150 to
200 members with developmental disabilities located throughout the State. 9/11/20
at 100-101, 108, 110. It has 25 chapters across the State, including in Jefferson,
Madison, and Mobile Counties. Id. at 110-11, 126. People First members include
people from all racial and ethnic backgrounds, and roughly 25 percent of its
members are Black. 9/11/20 at 130-131.
81.

People First educates its members on voting during election years. Id.

at 141. But, in the past, it has not spent time educating members about voting
absentee. Id. at 120. After the pandemic hit, People First developed training on how
to correctly apply and cast an absentee ballot. Id. at 116-117. The organization
dedicated 18 hours of the executive director’s time to developing this training and
35 hours of the outreach coordinator’s time. Id. at 122, 125. People First held an
54
App. 61

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 55 of 197

absentee voter training on August 7, 2020 with 20 members from the statewide
leadership board in attendance. Id. at 123-124. It also held another training in
Jefferson County a week later with 18 people in attendance. Id. at 125-146. The
organization also held trainings in Shelby County and Huntsville and plans to hold
sessions in Tuscaloosa and Mobile. Id. at 126. Additionally, a committee of People
First members in Madison County donated volunteer time to create a public service
announcement which included information about absentee voting. Id. at 122-123.
82.

People First members’ disabilities have impacted how they vote, and,

at times, resulted in the members facing additional challenges when voting. For
example, based on her interactions with them, Ms. Ellis testified that some of the
members have vision impairments that would preclude them from casting their ballot
without assistance. 9/11/20 at 137-138. Such assistance would involve them
verbally telling their helper what candidate they would like to vote for so that the
helper can fill out the ballot for them. Id. Another example is Jenny Lux, a member
who has a disability requiring her to use an Automark machine to vote. Id. at 172.
Using the Automark machine takes longer than the typical voting process, and would
require Ms. Lux to spend more time at the polling place than other voters if she were
to vote in person. Id. at 174. This would in turn increase her exposure to SARSCoV-2. See id. Another challenge that results from Ms. Lux’s disability is an issue
with balance that makes standing in line for long periods dangerous. Id. at 175. Ms.
Lux uses a cane while walking and waiting in line, and, if needed, she will ask a poll
55
App. 62

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 56 of 197

worker to provide a chair for her. Id. at 174. However, on at least one occasion
previously, no chair was available for her to use at her polling place. See id.
83.

People First members have conditions placing them at higher risk for

COVID-19 complications or death. 9/11/20 at 106-107. They have cardiovascular
issues, breathing issues, obesity, and diabetes. Id. Further, People First’s members
with intellectual disabilities are not able to identify risks of infection in the same
way as other people can. Id. at 130. One member of People First has severe asthma
and difficulty breathing, placing her at elevated risk of complications and death from
COVID-19. Agreed Facts at ¶ 1. Another member, Ms. Lux, suffers from Adult
Respiratory Distress Syndrome and has permanent scarring on her lungs as a result
of her previous battle with the swine flu. 9/11/20 at 164. These conditions put her
at higher risk of complications or death according to the CDC. Id. Ms. Lux fears
that she “would probably wind up on a ventilator” if she contracted COVID-19. Id.
at 167.
84.

Some People First members have been following the CDC’s guidance

on social distancing and other COVID-19 prevention measures. Ms. Lux testified
that she lives alone and generally stays at home unless she is obtaining coins from
the bank to use in her apartment complex’s laundry facilities or picking up groceries
from a Walmart with curbside pickup services. 9/11/20 at 161, 167. Ms. Lux’s
father drives her to get groceries, but they both wear masks and maintain social
distance. Id. at 168. She distances herself from her masked father not only for her
56
App. 63

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 57 of 197

own protection, but also because he is 66 and at higher risk for COVID-19
complications or death. Id. at 167. Ms. Lux also left her home to film a video with
other members of People First that discussed the importance of voting. Id. at 170.
During this excursion, all individuals wore masks and maintained social distance.
Id. Further, Ms. Lux interacts with relatively few people, and she does not interact
with her neighbors. Id. at 168-169. She sees her minor son, a church friend, her
stepdaughter, and her stepdaughter’s children and husband. Id. at 161, 168-169.
However, during these interactions, everyone, aside from the children, wears a mask
and adheres to social distancing guidelines. Id.
85.

Some members of People First cannot fulfill the witness absentee

voting requirement without increasing their risk for COVID-19 complications or
death. Ms. Lux cannot comply with the witness requirement because she cannot
easily get two adults together at the same time to witness her complete the ballot.
9/11/20 at 180. The people who Ms. Lux interacts with do not typically come to her
house at the same time. Id. at 180, 184-85. Ms. Lux is also unwilling to go to the
bank to have her absentee ballot notarized as it would involve waiting in line for the
notary. Id. at 181. Ms. Lux, who contracted swine flu in 2009 and spent 28 days in
a medically-induced coma, expressed her concern of engaging in activities, such as
waiting in line, that would increase her exposure to SARS-CoV-2 this way: “But is
it worth it? Is it worth that risk? That’s something that you really have to weigh.”

57
App. 64

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 58 of 197

Id. at 164, 181. Because of these reasons, and her concerns about her vote being lost
in the mail, Ms. Lux is not sure if she would vote absentee. Id. at 180.
86.

Some members of People First do not have access to the necessary

technology to comply with the Witness and Photo ID absentee voting requirements
without leaving their homes. Many members have disabilities that make it difficult
for them to maintain employment, and they rely on social security and disability
benefits. Agreed Facts ¶ 1; 9/11/20 at 104-105. In general, members of People First
do not have access to copiers, scanners, computers, and internet in their homes, and
most members do not drive. 9/11/20 at 115, 128-129, 157. Further, based on her
interactions with them and their disabilities, Ms. Ellis testified that some members
would likely have difficulty navigating and solving the technological issues that
come with using video conference technology. Id. at 129-30. And, the parties agree
that at least one People First member has a developmental disability that makes it
difficult for her to use technology. Agreed Facts at ¶ 1.
87.

Curbside voting better reflects People First’s members’ prior

experiences with voting in person. 9/11/20 at 136. Curbside voting would be easier
for People First’s members because they would not have to problem solve how to
get a copy made, how to find two witness signatures, and how to complete the
application for voting absentee. Id. Further, for those who require assistance in
casting their ballot, allowing their oral communication about who they want to vote

58
App. 65

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 59 of 197

for to take place in a vehicle would help ensure the secrecy of their ballot. Id. at
138.
88.

Though Ms. Lux does not drive herself, she would like to vote curbside

this year. 9/11/20 at 167, 171. If available, she would arrange for her father to drive
her to the polling place, and she is willing to call ahead to her polling place or
schedule a time to vote curbside. Id. at 176. She is also willing to allow a poll
worker to take her ballot and ID out of her sight to facilitate the curbside voting. Id.
at 177. She believes this would be no more intrusive than her current in-person
voting option of using the Automark machine, which gives poll workers an
opportunity to supervise her voting. Id. at 179. For example, in 2008, a poll worker
watched her vote for future President Obama using the Automark machine, and
expressed disapproval by saying, “Oh, I can’t believe you made that choice.” Id.
(b)
89.

Greater Birmingham Ministries (“GBM”)

GBM is a multi-faith, multi-racial membership organization that

provides emergency services for members and constituents in need. Agreed Facts
at ¶ 2. It engages in community efforts to create systemic change with the goal of
building a strong, supportive, and politically active society that pursues justice for
all people. Id. A central goal of GBM is the pursuit of social justice in the
governance of Alabama.

See id. at ¶ 3.

Toward that end, GBM regularly

communicates with its members and engages in efforts to register, educate, and

59
App. 66

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 60 of 197

increase voter turnout, particularly among Black, Latinx, disabled, and low-income
registered voters. See id.
90.

GBM has about 5,000 largely low-income members who are primarily,

but not exclusively, located in or near Jefferson and Shelby counties. See id. at ¶ 4;
9/9/20 at 104. It also has donor members across Alabama including in Mobile,
Tuscaloosa, Madison, and Montgomery counties.

9/9/20 at 105.

GBM has

sponsoring members that are state-wide organizations. Id. at 103-104. Eighty-five
percent of GBM’s individual members are registered voters. Id.
91.

When the pandemic confronted Alabama, GBM began several efforts

to make voting safer for its members. GBM drafted a petition advocating that the
State allow for curbside voting and remove the absentee ballot photo ID and witness
requirements. Id. at 135-146. The petition was written in Spanish and English. Id.;
Plaintiff Ex. 377. The petition cost GBM staff time, the volunteer services of a
graphic designer, and volunteer time. 9/9/20 at 138. GBM circulated the petition
statewide, received 4,000 signatories, and sent the petition to Secretary Merrill.
9/9/20 at 135-136.
92.

GBM also sent two letters to Secretary Merrill advocating for him to

allow curbside voting and remove the absentee voting witness and photo ID
requirements. Id. at 141-142; Pl. Exs. 392 and 393. GBM diverted staff time to
draft these letters. 9/9/20 at 141-142.

60
App. 67

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 61 of 197

93.

GBM developed educational materials on absentee voting, see 9/9/20

at 132 and Pl. Ex. 373, and organized absentee voter clinics, see 9/9/20 at 125. The
clinics were outdoors, and GBM required social distancing. 9/9/20 at 125. “[P]eople
could come and get absentee voter assistance in which [GBM] would provide onsite
witnesses as well as notaries.”

Id.

GBM also provided free photocopies of

participants’ identification. Id. Thus far, GBM has held six absentee voter clinics
and plans to do more before the election. Id. GBM expended various resources to
develop and hold the clinics. It devoted advertising resources by sending an email
newsletter and phone banking, and purchased tents to use for the clinics. Id. at 13132. The clinic materials cost about $2,000. Id. GBM also used resources like
folding tables, a photocopier, tablets, laptops, and Wi-Fi. Id. Further, two GBM
staff members and up to twelve volunteers spent time working at each clinic. Id.
94.

If the absentee voting witness and photo ID requirements were not in

place, GBM would have devoted these resources to census outreach. Id. at 131, 138.
The Executive Director of GBM explained, “[i]f there were no witness or photo ID
requirements, we would not have to do those clinics because we could do the voter
education work over the phone.” Id. at 132. GBM has not helped people with
absentee voting “much previously.” Id. at 113. While it is true that GBM distributed
a census flier at the clinics, GBM would not have needed as many volunteers to serve
as witnesses, printers, paper, and ink if it was only doing census work. Id. at 153,
163-164. And, without the need to educate voters on absentee and photo ID
61
App. 68

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 62 of 197

requirements, GBM would have instead focused its funding and staff and volunteer
time on the census. Id. at 131, 138.
95.

GBM has members who are at higher risk for COVID-19 complications

or death due to their race or age. Of GBM’s individual members, roughly 85 percent
are Black, approximately 15 percent are White, and about 5 percent are Latinx. Id.
at 107-110. Forty percent of GBM’s members are over 60 or 65 years old. 9/9/20
at 107-110. Ninety percent of GBM’s members are low income annually, and 10
percent of its members are low income based on a recent loss of a job. Id. at 107110. Some of GBM’s members have mobility issues. Id. at 134-135.
96.

Some of GBM’s members are following social distancing rules. 9/9/20

at 111-112, 126. Members of GBM are staying home due to their elevated risk of
death or serious illness from COVID-19. Agreed Fact ¶ 6. GBM had members
decline to leave their home to pick up free groceries even though GBM offered the
groceries curbside. 9/9/20 at 111-112, 126. There were also members who declined
to attend absentee voter clinics in order to protect themselves from COVID-19. Id.
at 126.
97.

Some of GBM’s members cannot fulfill the witness absentee voting

requirement without increasing their risk for COVID-19 complications or death.
Forty percent of GBM members live alone, with nearly all of those individuals being
over 60. 9/9/20 at 107-110. There is overlap between members who live alone, are
over 60, are low-income, and are a minority race. Id. One GBM member, James
62
App. 69

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 63 of 197

Sokol, reported during a board meeting that he was unable to meet the witness
requirement without exposing himself to an additional individual outside of his
household. Id. at 129-130, 166-167. Mr. Sokol has a neurological disease and
informed GBM that he had COVID-19 when he voted in July. Id. Mr. Sokol
expressed to the Executive Director of GBM that he would prefer curbside voting
over absentee voting. Id. at 167-178.
98.

Some members of GBM do not have access to the necessary technology

to adhere to the witness and photo ID requirements without leaving their homes.
Around 60-65 percent of GBM members polled lack internet and computer access.
9/9/20 at 107-110. These members overlap with those who live alone. Id.
99.

Some members of GBM cannot adhere to the photo ID requirement

without increasing their exposure to COVID-19. Some of GBM’s members do not
have a photo ID. 9/9/20 at 107-110. There is overlap between members who are a
minority race and who have no photo ID.

Id. There is also overlap between

members who have no photo ID and who are low income. Id. Further, there is
overlap between those who have no photo ID and who are over the age of 65.
100. GBM is seeking a remedy for their claims that continues after
November 3, 2020. 9/9/20 at 133. There are elections in Tuscaloosa and Alabaster
in late November, and GBM has members in those areas. Id. GBM plans to continue

63
App. 70

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 64 of 197

to educate its members and the public about absentee voting after the November
general election during the pandemic. Id. at 133-134. 39
(c)

Alabama NAACP

101. The Alabama NAACP is a state subsidiary of the National Association
for the Advancement of Colored People, Inc. Agreed Facts at ¶ 7. The Alabama
NAACP is the oldest and one of the most significant civil rights organizations in
Alabama. Id. It is comprised of more than forty local units with active branches and
chapters across the state including in Jefferson, Madison, Mobile, and Montgomery
counties. 9/10/20 at 37–38; Pl. Ex. 329.
102. Two central goals of the Alabama NAACP are to eliminate racial
discrimination in the democratic process, and to enforce federal laws and
constitutional provisions securing voting rights. Agreed Facts at ¶ 8. The Alabama
NAACP believes that “all people should have the right to express their political
desires” and that this is done most effectively through voting. 9/10/20 at 52. Voting
is thus “fundamental to the NAACP.” Id. Toward those ends, the Alabama NAACP
regularly engages in efforts to register and educate Black voters and encourages
them to engage in the political process by turning out to vote on Election Day.
Agreed Facts at ¶ 8; see also 9/10/20 at 52, 55, 57–58.

39

At trial, the plaintiffs did not present additional evidence regarding the Tuscaloosa and Alabaster
elections, including whether any members of GBM actually plan to vote in those elections. Thus,
the plaintiffs have not shown they are entitled to any relief related to the Tuscaloosa and Alabaster
elections, and the court confines its analysis to the November 3 general election.

64
App. 71

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 65 of 197

103. Since the pandemic began, the Alabama NAACP has diverted resources
to helping voters comply with the Challenged Provisions. 9/10/20 at 53–54. It has
hosted outdoor clinics during which it offered photocopying services to help voters
satisfy the photo ID requirement. Id. The Alabama NAACP held these clinics in
Limestone, Lawrence, Jefferson, Shelby, and Montgomery counties, and it plans to
host another in Montgomery County and one in Baldwin County. Id. at 55–57.
Future clinics will offer witness and notary services, but the Alabama NAACP
cannot reach everyone who needs these services because of the high demand, and
some voters are unaware of the clinics. Id. at 56–57. For past clinics, the Alabama
NAACP purchased ink and paper to photocopy IDs, and hand sanitizer and masks
to protect its members and prospective voters. Id. at 56. Additionally, the Alabama
NAACP is increasing its efforts to educate vulnerable Alabamians about the
absentee balloting process. Id. at 58, 76. The organization has also increased its
advocacy for the adoption of less restrictive voting methods. Id. at 72; see also Pl.
Ex. 392; Pl. Ex. 393. If the Alabama NAACP was not engaged in this work, it would
be “strictly” working on “registering people to vote and educating people about the
issues that are at hand.” 9/10/20 at 57.
104. Many Alabama NAACP members are particularly vulnerable during
this public health crisis. See Agreed Facts at ¶ 9. Although the NAACP is a diverse
organization, most of its members are Black. 9/10/20 at 43; Agreed Facts at ¶ 9.
Most members are also senior citizens, many of whom have chronic medical
65
App. 72

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 66 of 197

conditions, like diabetes or hypertension, that make them more likely to suffer
serious complications from contracting COVID-19. Agreed Facts at ¶ 9. Many
members also live alone or with only one other adult. Id. Some members of the
Alabama NAACP have or have had COVID-19. Id.
105. Some of the Alabama NAACP’s most vulnerable members cannot
comply with the Challenged Provisions without exposing themselves to a potentially
deadly case of COVID-19. See 9/10/20 at 77–78, 80–81. Lillian Jefferson, the
Alabama NAACP’s former president, lives alone, which could make it more difficult
for her to satisfy the witness requirement. 40 Id. at 80-81. The president of the
Alabama NAACP’s Montgomery County branch, Della Bryant, is older than 65,
lives alone, and has difficulty walking. Id. at 81, 111. Because Ms. Bryant does not
own a copier, obtaining a copy of her ID requires her to interact with another person
who may have the coronavirus. Id. at 81. Ms. Bryant, however, may be exempt
from the photo ID requirement due a physical disorder that affects her ability to
walk. Id. at 111-12. Keisha Hendricks is a medically retired veteran who currently
serves as the Alabama NAACP’s economic chair. Id. at 81. She cannot walk due to
her health conditions. Id. Ms. Hendricks also lives alone, making it more difficult
for her to satisfy the witness requirement. Id. But, Ms. Hendricks has a woman over

40

Mr. Benard Simelton, the current president of the Alabama NAACP, admitted on cross-exam
that he does not know if Ms. Jefferson has close family members, friends, or neighbors she could
ask for help. 9/10/20 at 110.

66
App. 73

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 67 of 197

the age of 18 who visits her home to help care for her, and Ms. Hendricks’ caregiver
was present when Mr. Simelton visited Ms. Hendricks in her home. Id. at 114-15.
106. The Alabama NAACP favors curbside voting because some of its
members, like Ms. Hendricks, have ambulatory issues. Id. at 59. Without curbside
voting as an option, some of those members would struggle to navigate steps at some
polling places. Id. Curbside voting would also benefit the organization’s members
who face higher risks associated with COVID-19 due to their age. Id. For these
members, curbside voting is preferred because it would allow them to “remain in
their car without exposing themselves” to the coronavirus. Id
(d)

Black Voters Matter

107. BVM is a nonprofit organization that works primarily with communitybased groups to increase voter turnout and involvement in civic life among members
of the Black community. 9/9/20 at 174. BVM supports those groups, which it calls
“partners,” by providing financial resources and access to tools such as texting and
phone banking technology. Id. at 175. It also advocates for policies to expand voting
rights and access. Agreed Facts at ¶ 13.
108. BVM had an active presence in Alabama before the pandemic. It has
partners in Alabama at the state and local levels. 9/9/20 at 175. The organization is
particularly active in Alabama’s Black Belt counties, including Wilcox and Lowndes
counties, because those counties have generally been deprived of resources and have
higher rates of poverty and unemployment than other areas. Id. at 176–77. BVM
67
App. 74

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 68 of 197

has an Alabama state coordinator, who manages its relationships with its partners
and travels throughout the State to support them. Id. at 179–84. Since 2018, BVM
has sponsored “bus tours” in Alabama to further promote its partners and generate
excitement among voters. Id. at 183. BVM has also held an annual conference in
the State. Id. at 179–80.
109. During the pandemic, BVM has had to divert resources from its
traditional Alabama initiatives to educate voters about the Challenged Provisions.
BVM has sponsored several text campaigns targeting Black voters who may need
assistance navigating Alabama’s absentee voting scheme. Id. at 190–91. In its July
text campaign, BVM sent text messages inviting roughly 190,000 Black Alabamians
to attend a virtual townhall discussing several topics, including voting in Alabama.
Id. at 192; Pl. Ex. 340. BVM estimates that such campaigns cost around five cents
per text, 9/9/20 at 193, and it plans to sponsor several future waves of texts because
“the current requirements [for absentee voting in Alabama] are so complicated.” Id.
at 194. But for the Challenged Provisions, BVM would be focused on its “core
function” of educating voters about turnout and substantive issues. Id. at 195.
110. BVM has also provided additional grants for its partners to educate
community members about complying with the Challenged Provisions during the
COVID-19 pandemic. See, e.g., id. at 200–03. In some cases, these grants have
been for as much as $10,000 “because of the extra challenges” associated with
satisfying Alabama’s absentee voting requirements. Id. at 204. If the Challenged
68
App. 75

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 69 of 197

Provisions did not exist, BVM would not need to provide these additional and
increased grants. See id. at 205.
111. BVM and its partner organizations favor allowing curbside voting in
Alabama. Id. at 189. Many of BVM’s constituents and the members of its partner
organizations have health conditions that increase their risk of death or severe
complications from contracting COVID-19. Agreed Facts at ¶ 18. Some of these
individuals

lack

access

to

computers,

the

internet,

or

other

reliable

videoconferencing technology, and many live alone or with only one other adult. Id.
BVM believes that curbside voting would be a safer option than voting in person for
these at-risk individuals. 9/9/20 at 189.
(3)

Defendants
(a)

Secretary of State John Merrill and the State of Alabama

112. Secretary Merrill is the Secretary of State of the State of Alabama,
which is itself a defendant in this action, and he has served in this position since
2015. 9/11/20 at 2. As the Secretary of State, he is Alabama’s chief election official,
and is charged with: providing uniform guidance with respect to elections, issuing
related administrative rules, canvassing and certifying election results, and
prescribing and designing the absentee ballot application form that “shall be used
throughout the state.” Agreed Facts at 15, ¶ 20. In addition, Secretary Merrill is
statutorily required to “inform the public” about the photo ID requirement, Ala. Code
§ 17-9-30(n), and is granted “rule making authority for the implementation” of the
69
App. 76

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 70 of 197

photo ID requirement, id. § 17-9-30(o). Agreed Facts at 15, ¶ 20. In the event
Alabama, the federal government, or another state declares a state of emergency that
“renders substantial compliance with” the absentee ballot provisions of Alabama law
“impossible or unreasonable for a group of qualified voters who respond to the
emergency,” the Secretary of State “may promulgate an emergency rule to allow
those qualified voters to vote by absentee ballot.” Ala. Code § 17-11-3(e); Agreed
Facts at 15, ¶ 20.
(b)

County Circuit Clerks and Absentee Election Managers

113. The Circuit Clerks and AEMs are charged with processing and
distributing absentee ballot applications; appointing poll workers; training absentee
office workers; issuing, tracking, and safeguarding absentee ballots; and canvassing
provisional absentee ballots. Agreed Fact ¶ 22; 9/16/20 at 48-49, 51. In Alabama,
the county circuit clerk serves as the AEM, though a circuit clerk can decline that
role. 9/15/20 at 41. Circuit clerks and AEMs defer to the Secretary of State’s office
on what the law is with regard to voting in Alabama. 9/15/20 at 168.
114. Plaintiffs filed this suit against many circuit clerks and AEMs
throughout Alabama. Doc. 75. Many of these defendants have settled and are no
longer in the case. Those remaining are: Jacqueline Anderson-Smith, the Circuit
Clerk and AEM for the Birmingham Division of Jefferson County; Karen Dunn
Burks, the Deputy Circuit Clerk and AEM of the Bessemer Division of Jefferson
County; Gina Jobe Ishman, the Circuit Clerk and AEM of Montgomery County; and
70
App. 77

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 71 of 197

JoJo Schwarzauer, the Circuit Clerk of Mobile. Ms. Anderson-Smith, Ms. Burks,
and Ms. Ishman have all “agree[d] to abide by any injunctions or orders of the Court”
with regard to this case, docs. 181 and 182, and, consequently, did not present any
evidence at trial.
(c)

County Probate Judges

115. Probate judges are the chief election officials in their county. 9/15/20
at 166-67. Probate judges defer to the Secretary of State’s office on what the law is
with regard to voting in Alabama. Id. at 168. Generally, probate judges determine
the number of poll workers assigned to a polling place. Id. at 136. They are charged
with appointing and training poll workers. Agreed Fact ¶ 23. They also ensure there
are tabulation machines at the polling places. 9/15/20 at 137. They work with the
county commissions to determine polling places. Id. at 167. They are also in charge
of validating and canvassing election returns and ballots. Agreed Fact ¶ 23.
116. As with the circuit clerk and AEM defendants, the plaintiffs named
many probate judges across Alabama as defendants in this lawsuit. Doc. 75. Many
of these defendants have settled and are no longer in the case. Those remaining are:
Judges Sherri Friday and James Naftel of Jefferson County, Judge J.C. Love III of
Montgomery County, and Judge Don Davis of Mobile. Judge Friday, Judge Naftel,
and Judge Love have “agree[d] to abide by any injunctions or orders of the Court”
with regard to this case, docs. 181 and 182, and as such, did not present any evidence
at trial.
71
App. 78

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 72 of 197

117. Judge Davis has served as Probate Judge for Mobile County for twenty
years. 9/15/20 at 37. Many of his election administration duties are shared with the
Mobile County Commission, which is responsible for creating election precincts,
determining poll locations, securing election machines, and providing adequate
funding for elections. Id. at 41. Judge Davis helps nominate poll workers, although
the ultimate appointment is done by the County Commission. Id. at 44-46. He also
helps train poll workers using a printed guide and video presentations. Id. at 47.
118. Although Judge Davis is the chief election official for Mobile County,
he does not have control over all aspects of the election. 9/15 20 at 40. According
to Judge Davis, Ms. Schwarzauer (the Circuit Clerk) and Ms. Barnett (the Absentee
Election Coordinator) are responsible for all aspects of absentee voting, including
processing absentee ballot applications. Id. at 41-43. Ms. Barnett’s testimony backs
this up. She reported that she and the employees in her office enforce the photo ID
requirement by checking that returned absentee ballot applications are complete and
include a copy of a photo ID for all voters who are not exempt from the photo ID
requirement. See 9/17/20 at 112, 116, 137.
F.

The Challenged Provisions of Alabama Law
119. The plaintiffs in this case challenge three provisions of Alabama

election law: (1) the requirement that a notary or two witnesses sign absentee ballot
affidavits (“the witness requirement”); (2) the requirement that voters submit a copy

72
App. 79

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 73 of 197

of their photo ID with absentee ballot application (“the photo ID requirement”); and
(3) the state’s de facto ban on curbside voting. 41 Doc. 75.
120. Dr. Tracy Burch, the plaintiffs’ expert on political science and political
participation, testified that “Black Alabama adults at high-risk for severe illness from
COVID-19 are far less able to satisfy these requirements for absentee voting than
high-risk White Alabama adults while following CDC guidance to avoid contact
with people from outside their household.” Ex. 270 at 7; 9/14/20 at 191-192. Dr.
Burch explained that this is because high risk Black voters are more likely to live
alone or with just one other adult. Pl. Ex. 270 at 34 (“22.0 percent of Black adults
age 18 to 64 who report being in fair or poor health live in a household with no other
adults, meaning that they would need to contact two additional witnesses from
outside their household. This rate is five times higher than that for White adults with
health issues; only 3.9 percent of White adults with health issues do not live with
any adults.”); see also 9/14/20 at 203-04. For Black individuals over 65, this
disparity is more dramatic, “nearly 90 percent of Black people age 65 and older
would need to risk contacting at least one other person outside their household to
meet the witness requirement” compared with “77.2 percent of White people and
47.1 percent of Latino people.” Pl. Ex. 270 at 37.

41

The plaintiffs previously challenged the requirement that voters provide an excuse to vote
absentee in Alabama elections, doc. 75, but the court dismissed that claim as moot after Secretary
Merrill extended the emergency rule allowing all voters to vote absentee in the November election,
doc. 161 at 26.

73
App. 80

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 74 of 197

121. In Alabama, high-risk Black voters are also less likely to have resources
allowing them to safely vote absentee. Only 3.9 percent of White households do not
have a vehicle compared to 12.7 percent of Black households. Doc. 228 at ¶ 13;
9/9/20 at 89-90. Fifty percent of elderly Black adults in Alabama do not have
internet access compared to thirty percent of elderly White adults. 9/14/20 at 207;
see also Doc. 270 at 40. High risk Black voters are also more likely to be
experiencing poverty than their White counterparts. 9/14/20 at 204-205. For adults
who are high risk due to a medical condition, 35.6 percent of Black individuals have
an income below $25,000, compared to 6.6 percent of White individuals. Pl. Ex.
270 at 39; 9/14/20 at 204-05. For that same group, 53.3 percent of Black adults are
food insecure compared to only 20.5 percent of White adults. Id. Black Alabamians
who are high risk due their age are also more likely to be poor than their White
counterparts. Id. 39.8 percent of Black adults at high risk due to age have an income
below $25,000, whereas, only 14.9 percent of White adults in that category have an
income below $25,000. Id. Similarly, 59 percent of elderly Black adults are food
insecure compared to only 27.1 percent of elderly White adults. Id
(1)

The Witness Requirement

122. Voters are required to sign an absentee ballot affidavit in the presence
of two witnesses or a notary. 9/15/20 at 139-40, 178; Ala. Code § 17-11-10(b).
Alabama is one of only two states that has this requirement. 9/11/20 at 10. Notaries
may use video conference to watch the voter sign the affidavit, but they must still
74
App. 81

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 75 of 197

sign the same ballot affidavit as the voter. 9/15/20 at 178. That means that the voter
must still arrange to meet the notary in person. See 9/8/20 at 165. As for the two
witnesses, they are not required to know the voter or identify the voter. 9/15/20 at
178. Employees at a county AEM’s offices will witness a voter’s absentee ballot
affidavit for voters who complete the ballot in-person at the AEM’s office. 9/17/20
at 130-31. However, there is no guarantee other voters in the office will be wearing
masks because they are not required to do so. 9/15/20 at 201-202
123. Witnesses and parties at trial presented conflicting testimony about
which local election official checks to ensure that a ballot affidavit that complies
with the witness requirement. Secretary Merrill testified that the AEM or her staff
examine the ballot affidavit envelope to ascertain whether it meets the witness
requirement at the time the AEM receives the ballot. See 9/11/20 at 88. But, the
Absentee Election Coordinator for Mobile County, Ms. Barnett, testified she and her
staff do not check the ballot affidavit for witness signatures or a notary stamp when
they receive the ballots, and they do not notify the voter if the required signatures
are missing. 9/17/20 at 127. Instead, her office files the affidavit envelopes
containing the ballots in locked cabinets until Election Day. Id. at 127-28. Ms.
Barnett then delivers the ballots to Probate Judge Davis’s designee on Election Day.
Id. at 141. Judge Davis, in turn, testified that before opening an absentee ballot, poll
workers first verify that the ballot is either notarized or witnessed. 9/15/20 at 59. If

75
App. 82

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 76 of 197

the ballot affidavits do not have the signatures or notary seal, they are not counted.
Id. Houston County, Alabama utilizes a similar process. 9/16/20 at 48-50.
124. The facts do not show that the witness requirement prevents voter fraud.
While Secretary Merrill testified that “there are experts who believe that the security
standards that are in place, which include the signature provisions, are beneficial to
the security and integrity of the election process,” see 9/11/20 at 62, his office wrote
SB 77, which, if enacted, would have removed the witness requirement for absentee
voting, see id. at 7-8, 10-11. Secretary Merrill also testified that witnesses do not
have to know the voter, and no one confirms the identity of the witnesses or that they
saw the voter execute the affidavit. Id. at 11. Similarly, Justice Murdock testified
that the witness requirement would not prevent the types of fraud he investigated as
a private lawyer and advocate for election reform, or other antifraud measures
unrelated to the witness requirement have minimized those types of fraud. 9/17/20
at 81-88. Also, Mr. Biggs, a former prosecutor of voter fraud in the mid-1990s,
testified that the witness requirement would not have prevented any of the four cases
of voter fraud he prosecuted. 9/16/20 at 28, 31-32, 38-39.
125. The parties and witnesses offered conflicting evidence about whether
the witness requirement assists the State in investigating voter fraud. Secretary
Merrill testified that none of the voter fraud convictions in the State “have been the
result of investigations that have utilized the signature requirement when they have
completed their investigation or during the investigative process.” 9/11/20 at 62.
76
App. 83

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 77 of 197

But, Mr. Biggs testified that the witness signatures provided a lead for identifying
ballots that may have been fraudulent in the voter fraud convictions he obtained in
the 1990s. 9/16/20 at 11-12. However, his full testimony suggested that he may
have conflated the issue with the requirement for the voter to sign their voting
documents. See 9/16/20 at 10. And, he indicated that the witness signature
requirement’s main benefit was to flag multiple ballots, if any, signed by the same
witnesses. Id. However, Alabama law does not prohibit a witness from signing
multiple absentee ballots. 9/15/20 at 181.
126. The defendants presented evidence of voter fraud convictions in
Houston County in 2014. 9/16/20 at 67. The witness signatures on the absentee
ballots helped the circuit clerk of Houston County, Carla Woodall, flag potentially
fraudulent ballots. 9/16/20 at 67; see also id. at 72. But, she was also able to identify
potential fraud from the similar handwriting and pen color the fraudsters used and
the consecutive street addresses they listed on the absentee ballot applications.
9/16/20 at 66. And, like Mr. Biggs, Ms. Woodall’s testimony also appeared to
sometimes conflate the witness signature requirement with the separate requirement
that voters sign the absentee ballot affidavit. See 9/16/20 at 71-72.
127. The plaintiffs presented evidence that the witness requirement is
burdensome for Alabama voters during the pandemic. Dr. Elopre, a plaintiffs’
expert on internal medicine, infectious diseases, and disparities in access to health
care and health outcomes in Alabama, opined based on her direct experience
77
App. 84

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 78 of 197

researching social determinants of health in the Black Belt that, “witness signatures
and other requirements for absentee ballots may be unattainable for those who
historically fought for the right to vote in [Black Belt] counties.” Pl. Ex. 271 at ¶
18. Many voters do not have two other adults living in their home to serve as
witnesses. 9/9/20 at 61; Pl. Ex. 270 at 34-37. This means they need to find
individuals outside of their home to serve as witnesses or a notary. 9/9/20 at 61;
9/9/20 at 115; Pl. Ex. 270 at 39. And interacting with witnesses outside of their
home, increases their potential exposure to COVID-19. 9/9/20 at 115; 9/9/20 at 61.
128. Alabama’s Safer at Home order mandates that anyone with COVID-19
must quarantine at home for fourteen days and can only leave home for medical
reasons. State Ex. 85. This means, obviously, that a voter who has COVID-19 is
prohibited from having contact with others outside their home to obtain the required
witness signatures for their ballot. 9/9/20 at 61. And yet, because of the witness
requirement, Mr. James Sokol, a board member of GBM, alleged at a board meeting
that he had to find one witness outside of his household in order to vote absentee in
the July primary run-off even though he had COVID-19 at the time. 9/9/20 at 129130. Whether Mr. Sokol’s report is true is irrelevant to the court’s findings and
analysis. It is undisputed, however, that a COVID-19 diagnosis alone does not
exempt a voter from the witness requirement.
129. Resources that aid voters in safely adhering to the witness requirement
are not available to all voters. For example, while it is possible for a vulnerable voter
78
App. 85

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 79 of 197

to have a ballot witnessed through a car window, a voter who is highly impoverished
may not have the resources to do so. 9/9/20 at 89-90. The Director of Elections and
Deputy Chief of Staff to the Secretary of State, Clay Helms, testified that his staff
would go to a voter’s home to witness the voter’s absentee ballot. 9/15/20 at 163.
But, the defendants did not present evidence that this service has been advertised to
voters, provided to any voter, or that voters are aware of this service
130. As stated previously, in lieu of the two witnesses, Alabama also allows
voters the option of having their absentee ballot affidavit notarized. Similar to the
two witnesses, using a notary risks exposure to COVID-19 if the interaction is inperson. See 9/9/20 at 116; 9/11/20 at 181, Agreed Facts at ¶ 62, and Pl. Ex. 270 at
8. And while the State now allows the videoconferencing option, voters may not
have access to technological devices or the internet to use the remote notary services,
and if they do, they still need to meet the notary in person or find some other way to
obtain her signature or seal on the absentee ballot affidavit. Pl. Ex. 270 at 39; 9/16/20
at 178; 9/8/20 at 165. Lastly, the voters may not have the funds to pay for the
notary’s services. Pl. Ex. 270 at 39; 9/9/20 at 116.
131. The only evidence regarding the cost of notary services in Alabama
involved a study of forty-two notaries presented by the plaintiffs. The study showed
that only five offered their services for free to notarize a ballot, eighteen charged $5,
six charged $10, and thirteen charged more than $10. 9/14/20 at 206. In addition,
“[s]ome also charged if they were required to travel to meet people in order to
79
App. 86

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 80 of 197

notarize signatures.” Id. Finally, “only six notaries said that they had any virtual
kind of capabilities.” Id.
132. Dr. Elopre believes that curbside notary services and copying services
would be a reasonably safe way for voters to comply with those requirements if they
are in a car by themselves. 9/9/20 at 94. The Mobile County Public Library offers
free curbside notary services at five of its branches. 9/16/20 at 118-119. The normal
procedure requires patrons to exit their vehicles to utilize the curbside services, but
the head of the library system testified that she is “pretty sure” her staff would go to
a vehicle to retrieve documents if a patron “could not get out of their car.” 9/16/20
at 129. The Library’s notary services work best when patrons call ahead because
there is no guarantee that a notary will be present otherwise at one of the five
locations. 9/16/20 at 128. The Library has advertised this curbside service on its
website, its Facebook page, flyers, and in the local, free, and widely available
newspaper, The Lagniappe. 9/16/20 at 120-122, 135. The head of the library system
testified that the use of this service has been sparse because citizens may not know
about it. 9/16/20 at 133. The defendants have no control over the curbside services
offered by the Library. 9/16/20 at 123-124.
(2)

The Photo ID Requirement

133. Alabama requires voters to include a photo ID with their absentee ballot
application depending on the reason that they are voting absentee. Pl. Ex. 22. If a
voter is found to have “falsifie[d] [an] absentee ballot application or verification[,]”
80
App. 87

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 81 of 197

the State can convict them of a Class C felony. Id. Those voting absentee due to a
fear of increased exposure to COVID-19 must use the excuse, “I have a physical
illness or infirmity which prevents my attendance at the polls,” and comply with the
photo ID requirement. State Ex. 17; Pl. Ex. 22.
134. Alabama does not require voters to submit a copy of their photo ID
when they are voting absentee either (1) under the Uniformed and Overseas Citizens
Absentee Voting Act, or (2) because they have “a physical illness or infirmity which
prevents [their] attendance at the polls. . . . due to a neurological, musculoskeletal,
respiratory (including speech organs), cardiovascular, or other life-altering disorder
that affects [their] ability to perform manual tasks, stand for any length of time, walk
unassisted, see, hear, or speak . . . .” Pl. Ex. 22. Voters qualify for the second
exception to the photo ID requirement only if they are “(a) an elderly voter aged 65
or older; or b) [] a voter with a disability.” Id.
135. AEMs may also require a voter to provide a copy of their identification
with their absentee ballot. Agreed Facts at ¶ 118. Some absentee voters, therefore,
may need to furnish photo ID twice; once with the absentee ballot application and
again with the actual absentee ballot. Id.
136. Circuit clerks and AEMs are charged with enforcing the photo ID
requirement. 9/11/20 at 16 and 9/17/20 at 116, 139. When the circuit clerk or AEM
receives an absentee ballot application, they check to see if the voter is required to
submit a copy of their photo ID. 9/17/20 at 116. If a photo ID is required, the AEM
81
App. 88

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 82 of 197

or circuit clerk checks whether the voter included the ID with the application.
9/17/20 at 116. The AEM or circuit clerk will not send the voter a ballot if they fail
to include a required photo ID. 9/17/20 at 116.
137. Ms. Barnett, Absentee Election Coordinator for Mobile County,
testified that if a voter who is not exempt from the photo ID requirement sends an
absentee ballot application without a copy of her ID, her office will send a letter to
the voter to let the voter know they cannot process the application and to request a
copy of the photo ID. 9/17/20 at 116. Ms. Barnett testified that her staff returns “a
good many” applications to voters due to missing information. Id. at 120. There
was no evidence presented that other AEMs follow Ms. Barnett’s lead and notify the
voters when their absentee ballot applications are rejected.
138. The photo ID requirement is available, if necessary, as a tool to
investigate allegations of voter fraud, see 9/11/20 at 45 and 9/16/20 at 72, but it is
not clear the photo ID prevents voter fraud. Based on the evidence at trial, the photo
ID is not necessary to verifying the identity of the absentee voter. Ms. Barnett
testified that with a voter’s name, address, and date of birth, she feels she has “a
good amount of data to be able to identify the voter.” 9/17/20 at 113. Her office
also verifies the voter’s driver’s license number or the last four digits of their social
security number that the voter is required to provide on her application. Id. at 114.
While Ms. Barnett testified that she compares the voter’s signature on the absentee
ballot application with the signature on the photo ID, she also testified that she uses
82
App. 89

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 83 of 197

the signature on the voter’s registration document when available in her office’s
computer system to verify an applicant’s identity. 9/17/20 at 118. Further, no
evidence was presented that other AEMs also use the photo ID to verify signatures.
And there is evidence that the photo ID requirement would not prevent the type of
fraud the defendants identified at trial. For example, Justice Murdock testified that
as to the absentee ballot challenge in the 1994 Chief Justice race he worked on as a
lawyer, which launched his anti-corruption advocacy, the dispute centered on the
counting of absentee ballots with no witness signatures rather than the photo ID
provision. 9/17/20 at 83-88. Mr. Gregory Biggs, a former prosecutor who worked
on four voter fraud cases in the mid-1990s, also testified that the photo ID
requirement would not have prevented the cases he prosecuted. 9/16/20 at 28, 3132, 36, 39.
139. Secretary Merrill’s office has received calls from voters who need help
obtaining a copy of their IDs. 9/11/20 at 16-17. And, Secretary Merrill has offered
to mail some voters a copy of their photo ID if they text or email a picture of the ID
to him. 9/11/20 at 17. He has also encouraged county officials to offer the same
service. Id. After receiving the text or email request, Secretary Merrill’s office
confirms that the information on the photo ID sent to them matches the information
on a voter registration record before making the copy for the voter. Id. at 17-19.
Still, he acknowledged that his office does not know if it is sending the copy of the

83
App. 90

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 84 of 197

ID to the corresponding voter. Id. at 18-19. The Secretary of State’s website does
not advertise this service. Id. at 20.
140. The Secretary of State’s office also has a mobile unit that travels around
the State to provide voters with a free photo ID. 9/15/20 at 154; State Ex. 73. This
mobile unit was in Birmingham on July 7 and July 11, and the Secretary’s office
advertised the events on their webpage and with a printable flier. State Ex. 73. The
mobile unit has held at least 40 events during the pandemic. 9/15/20 at 165.
141. The plaintiffs presented evidence that the photo ID requirement is a
barrier to voting for some voters during the pandemic. To begin, the varying photo
ID requirements on the absentee ballot application can confuse voters causing them
to believe they do not need to send a photo ID with their application. The Executive
Director of GBM, Scott Douglas, believes the language of the absentee ballot
application is confusing due to its lengthy paragraphs, the terms used, and the
penalty of felony charges. 9/9/20 at 124. That confusion has generated questions
from GBM members. Id. at 125. Ms. Barnett’s testimony supports the conclusion
about voter confusion as she testified that there are times when people should have
included a photo ID in their application and did not, or included a photo ID when
they were exempt from the requirement. 9/17/20 at 117, 120. Further, the Secretary
of State’s office has received questions regarding when voters are required to send
an ID with an absentee ballot application. 9/15/20 at 162-63.

84
App. 91

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 85 of 197

142. Obtaining a photo ID itself can be a barrier to those who do not have
one. 9/11/20 at 14-15. As Secretary Merrill acknowledges, see 9/11/20 at 16-17,
some eligible voters do not have access to the necessary equipment to make a copy
of their photo ID at home. 9/9/20 at 60, 9/9/20 at 22.
143. Voters who do not own photocopying equipment may not have access
to transportation to obtain a copy of their ID. 9/9/20 at 60, 9/9/20 at 22. Many
people who are more vulnerable to COVID-19 complications or death do not have
access to personal transportation and must rely on riding with a friend or taking
public transportation. 9/9/20 at 60. This increases the risk such individuals will
become infected. Id.; see also 9/8/20 at 46-47.
144. Due to the pandemic, a voter may have more difficulty gaining access
to places where they normally could make copies like their church or library. As
Ms. Threadgill-Matthews testified, churches, for example, have been closed making
it difficult for some to obtain a free copy of their photo ID. 9/9/20 at 23. Even when
voters have access to a photocopier outside their homes or can go to the AEM’s
office to vote in person and thereby bypass copying their ID, utilizing the outside
copier or the AEM’s office increases their potential exposure to COVID-19. For
example, going in person to the AEM’s office to vote absentee (and in that case only
having to show an ID in person, see 9/16/20 at 51) can result in that voter potentially
exposing herself to COVID-19 by interacting with the other voters or county

85
App. 92

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 86 of 197

employees. The fact that voters are not required to wear masks while voting
exacerbates this risk. State Ex. 85; 9/17/20 at 153.
145. If a voter has tested positive for COVID-19, then they are required by
the State Health Officer’s emergency order to quarantine themselves. State Ex. 58.
During this 14-day period, the voter is prohibited from leaving her home to obtain a
copy of her photo ID. Id. Further, even in the absence of the emergency order, an
infected voter should not leave her home to obtain a copy of her photo ID for public
health reasons. 9/9/20 at 60.
(3)

The Curbside Voting Ban

146. No provision of Alabama law expressly prohibits curbside or drive-thru
voting. 9/11/20 at 43; 9/15/20 at 184; Agreed Facts at ¶ 110; see generally Ala.
Code §§ 17-9-1 – 17-9-15. Likewise, no provision of Alabama law expressly
provides for the practice. 9/11/20 at 38, 41, 43; see generally Ala. Code §§ 17-9-1
– 17-9-15. Therefore, according to Secretary Merrill, curbside voting violates state
law. 9/11/20 at 38, 41.
147. Secretary Merrill is aware of instances of curbside voting in Perry,
Hale, and Houston counties. 9/11/20 at 37, 65. When Secretary Merrill or his staff
learned of those instances, they intervened to stop them. Id. at 37-38, 40-41. For
example, after receiving a report of curbside voting in Hale County in 2016,
Secretary Merrill immediately called the Hale County probate judge, who told him
that he offered the service as a convenience to voters. Id. at 40. Secretary Merrill
86
App. 93

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 87 of 197

told the probate judge to cease and desist and informed the judge that, if necessary,
he would call the county sheriff to end the practice. Id. at 40-41. Then, in 2018, two
employees from the Secretary’s office learned that poll workers permitted curbside
voting at a polling site in Perry County, and they informed the poll workers that
curbside voting is not allowed in Alabama. Id. at 37-38. Secretary Merrill does not
know the details regarding the curbside voting that occurred in Hale and Perry
counties, such as whether the voters permitted to vote curbside had a disability,
whether the polling sites were accessible, or whether the secrecy of the ballots was
compromised. Id. at 38-39, 40-42. Secretary Merrill testified that it did not matter
whether the voters were disabled because curbside voting is against the law. Id. at
41. Because he believes the practices violates the law, Secretary Merrill would seek
a court order or call law enforcement to enforce the ban on curbside voting. See id.
at 52.
148. Secretary Merrill’s deputy chief of staff and director of elections, Clay
Helms, testified that, in addition to not being allowed by Alabama law, curbside
voting is also not practical in Alabama. 9/15/20 at 134, 157-59. In particular, Mr.
Helms testified that providing curbside voting would require additional poll workers
at a time when poll worker recruitment is already an issue, along with additional
electronic poll books and voting machines that would be difficult to procure. Id. at
157-58. Mr. Helms also expressed concerns about issues that could arise if poll
workers have to remove a completed ballot from a voter’s sight to feed it into a
87
App. 94

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 88 of 197

tabulation machine during the curbside voting process. Id. at 158-59. Secretary
Merrill expressed the same concern when testifying that he understood that when
officials in Perry and Hale counties provided curbside voting, poll workers carried
ballots out to the voters and then returned the ballots back inside the polling place
after the voters completed them, which broke the chain of custody for the ballot in
violation of Alabama law. 9/11/20 at 51, 68. He explained that under Alabama law,
unlike AEMs, poll workers are not authorized to receive a completed ballot, and he
is not aware if an AEM has authority to receive ballots that are not absentee ballots.
See id. at 81-82, 84, 86. But, Alabama law expressly allows voters to receive
assistance from poll officials while casting a ballot. See Ala. Code § 17-9-13(b).
149. In spite of the challenges that curbside voting may present, several
states offer the service, and the CDC recommends that states consider curbside
voting as a means of complying with social distancing rules and limiting personal
contact during in-person voting. Pl. Ex. 451. In addition, Drs. Elopre and Reingold,
the plaintiffs’ experts in infectious diseases and epidemiology, respectively, both
testified that curbside voting would be a safer alternative to in-person voting because
it presents a decreased risk of exposure to COVID-19. 9/8/20 at 45, 52; 9/9/20 at
62-63. Because it is a safer alternative, the individual plaintiffs testified that they
would utilize curbside voting in the November election, especially if they cannot
vote absentee. 9/8/20 at 125, 129, 175, 179; 9/9/20 at 15; 9/14/20 at 23, 59, 79-81.
And, Dr. Peebles testified that he would like to use curbside voting even after the
88
App. 95

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 89 of 197

COVID-19 pandemic in case of potential issues with accessing his polling site.
9/8/20 at 161-62.
150. Montgomery and Jefferson counties agreed to “exercise good faith and
undertake reasonable efforts to provide curbside voting in a manner that complies
with state and federal law and the CDC guidelines for voting” if the ban is lifted.
Docs. 181 at ¶ 16 and 182 at ¶ 14. There are already variances in voting logistics by
county. Each county’s probate judge decides “how to handle voting logistics,” and
not all counties have electronic pollbooks. 9/15/20 at 167, 186. Further, counties
use different types of handicap accessible voting machines. Id. at 137.
151. The organizational plaintiffs also believe that curbside voting would
benefit their members. First, Ms. Ellis testified that curbside voting would be more
similar to People First members’ prior experiences with voting than absentee voting
would be, making it easier for them to vote because it would not require as much
problem solving. 9/11/20 at 137-138. And, some members of People First may need
to vote in person rather than absentee because they require assistance with voting
due to vision impairments. See id. at 137-38. Second, curbside voting is very
important to the Alabama NAACP because many of its members are older,
vulnerable to COVID-19, and want to minimize their exposure to the virus, and
because some members also have ambulatory issues. 9/10/20 at 59. Third, GBM
also has a member who reported he would prefer curbside voting, and it has members
with ambulatory issues who would benefit from the service. 9/9/20 at 134-35, 13989
App. 96

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 90 of 197

40, 167-68. Finally, many members of BVM partner organizations are at high risk
from COVID-19 and would benefit from curbside voting to minimize exposure to
the virus. See 9/9/20 at 189.
152. Plaintiffs also contend the ban on curbside voting disproportionately
burdens Black voters as they are more likely to have a disability. Doc. 247 at 1924. In Alabama, Black adults over 65 are 4.1 percent more likely to have a disability
than White adults over 65. Doc. 228 at ¶¶ 36, 40. Elderly Black adults are also 5.6
percent more likely to have an ambulatory difficulty. Id.
G.

Procedural History of this Litigation
153. On May 1, 2020, the plaintiffs filed their initial complaint in this case

alleging the photo ID requirement, the witness requirement, and the curbside voting
ban infringe on their voting rights as provided by the Constitution, the Americans
with Disabilities Act, and the Voting Rights Act. Doc. 1
154. The plaintiffs moved for a preliminary injunction, docs. 15, 46, which
the defendants opposed, docs. 36, 38, 39, 41, and 45. The court granted the motion
in part on June 15, 2020, ordering the defendants “(1) not to enforce the witness
requirement for the July 14 runoff election for absentee voters who determine it is
impossible or unreasonable to safely satisfy that requirement in light of the COVID19 pandemic, and who provide a written statement signed by the voter under penalty
of perjury that he or she suffers from an underlying medical condition that the
Centers for Disease Control has determined places individuals at a substantially
90
App. 97

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 91 of 197

higher risk of developing severe cases or dying of COVID-19; (2) not to enforce the
photo ID requirement for the July 14 runoff election for absentee voters who are
over the age of 65 or disabled who determine it is impossible or unreasonable to
safely satisfy that requirement in light of the COVID-19 pandemic, and who provide
a written statement signed by the voter under penalty of perjury that he or she is 65
or older or has a disability; and (3) not to enforce the State’s de facto prohibition on
curbside voting.” Doc. 58 at 76-77; Doc. 59.
155. That same day, the court ordered the parties to provide a plan for
expedited discovery with a trial setting in September. Doc. 59
156. The next day, the defendants appealed to the Eleventh Circuit, doc. 60,
and also filed an Emergency Motion for Stay Pending Appeal. People First of Ala.
v. Secretary of State for the State of Alabama, Case 20-12184, at *1 (11th Cir. June
25, 2020). The Eleventh Circuit denied the defendants’ Emergency Motion for Stay
Pending Appeal. Id. The defendants appealed this denial of their emergency motion
to the Supreme Court, and the Supreme Court granted the defendants’ application
for stay of the preliminary injunction. Merrill v. People First of Ala., --S.Ct. ---,
2020 WL 3604049 (July 2, 2020).
157. Trial testimony showed that while the court’s injunction was in effect
from June 15, 2020 to July 1, 2020, Judge English, the probate judge for Lee County,
trained absentee poll workers to handle the different standards that applied before

91
App. 98

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 92 of 197

the preliminary injunction, during the injunction, and after the stay. 9/17/20 at 17880.
158. Ms. Barnett, Mobile County’s Absentee Election Coordinator, testified
that she was able to comply with the June injunction while it was in place without
reprinting ballot applications or ballot affidavit envelopes. 9/16/20 at 146-52. She
simply included a letter noting the change to the absentee application requirements
with the absentee ballot application and a letter noting the change to the witness
requirement with the absentee ballot. Id.
159. On July 7, 2020, the plaintiffs amended their complaint and asserted
five separate legal theories related to the photo ID requirement, the witness
requirement, and the curbside voting ban. Doc. 75.
II. CONCLUSIONS OF LAW
After orders related to motions to dismiss, motions for summary judgment,
and several settlements, the following claims remain and proceeded to a bench trial
from September 8 – 18, 2020:
(1)

Count I—Violations of the fundamental right to vote under the
First and Fourteenth Amendments: Dr. Peebles, Ms. Bettis, Ms.
Thompson, and the organizational plaintiffs assert claims against
Judge Davis and Ms. Schwarzauer challenging the witness
requirement as applied in the pandemic; Ms. Thompson and the
organizational plaintiffs assert claims against Judge Davis and
Ms. Schwarzauer challenging the photo ID requirement as
applied in the pandemic; and all of the plaintiffs bring a claim
against Secretary Merrill and Judge Davis challenging the
curbside voting ban as applied in the pandemic;
92
App. 99

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 93 of 197

(2)

Count II—Violations of the Americans with Disabilities Act:
Ms. Thompson and the organizational plaintiffs assert claims
against the State, Judge Davis, and Ms. Schwarzauer challenging
the photo ID requirement as applied; all of the plaintiffs assert a
claim against Secretary Merrill and Judge Davis challenging the
curbside voting ban both during and outside the pandemic;

(3)

Count III—Violations of Section 2 of the Voting Rights Act: Ms.
Bettis, Ms. Thompson, and the organizational plaintiffs assert
claims against the State, Judge Davis, and Ms. Schwarzauer for
enforcing the witness requirement during the pandemic; all of the
plaintiffs except Dr. Peebles assert claims against Secretary
Merrill and Judge Davis for enforcing the curbside voting ban
both during and outside of the pandemic; and

(4)

Count V—Violations of the Fourteenth Amendments Equal
Protection Clause: Dr. Peebles, Ms. Bettis, Ms. Thompson, and
the organizational plaintiffs assert claims against Judge Davis
and Ms. Schwarzauer challenging the witness requirement’s
notary option.

The court addresses the merits of each of the plaintiffs’ claims after first
analyzing the defendants’ defenses and contentions related to standing, the Purcell
principle, and due process.
A.
“[S]tanding ‘is a threshold question in every federal case, determining the
power of the court to entertain the suit.’” Yellow Pages Photos, Inc. v. Ziplocal, LP,
795 F.3d 1255, 1265 (11th Cir. 2015) (quoting Warth v. Seldin, 422 U.S. 490, 498
(1975)). The plaintiffs bear the burden of establishing standing as the parties
invoking this court’s jurisdiction. Spokeo, Inc. v. Robins, 136 S. Ct. 1540, 1547
(2016) (citation omitted). To do so, “[t]he plaintiff[s] must have (1) suffered an
injury in fact, (2) that is fairly traceable to the challenged conduct of the
93
App. 100

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 94 of 197

defendant[s], and (3) that is likely to be redressed by a favorable judicial decision.”
Id. (citing Lujan v. Defenders of Wildlife, 504 U.S. 555, 560-61 (1992); Friends of
the Earth v. Laidlaw Env. Serv. (TOC), Inc., 528 US. 167, 180-81 (2000)). The
defendants continue to challenge each of these elements.42 See docs. 189 at 2-6; 246
at 2-3; 231; 244 at 14-15.
1.
An injury in fact requires “an invasion of a legally protected interest which is
(a) concrete and particularized, and (b) actual or imminent, not conjectural or
hypothetical.” Lujan, 504 U.S. at 560. The plaintiffs have made this showing.
a.
“[W]hen plaintiffs ‘are required to obtain photo identification before they can
vote, [t]he imposition of that burden is an injury sufficient to confer standing
regardless of whether [the plaintiffs] are able to obtain photo identification.’” Doc.
58 at 14 (quoting Common Cause v. Billups, 554 F.3d 1340, 1351 (11th Cir. 2009)).
Thus, Ms. Thompson, the only individual plaintiff challenging the photo ID
requirement, has shown an injury in fact with respect to that requirement because
she must obtain a copy of her ID before she can vote absentee. See 9/8/20 at 17677; see also doc. 58 at 14-16. Likewise, the individual plaintiffs challenging the

42

The court addressed many of the defendants’ contentions regarding standing in its memorandum
opinions on the plaintiffs’ motion for a preliminary injunction and the defendants’ motions to
dismiss or for summary judgment. See docs. 58 at 13-27; 161 at 8-12; 226 at 3-10.

94
App. 101

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 95 of 197

witness requirement—Dr. Peebles, Ms. Bettis, and Ms. Thompson—have shown an
injury in fact with respect to that requirement because they must satisfy the
requirement to vote absentee. See 9/8/20 at 126, 177; 9/14/20 at 39-40; see also doc.
58 at 16. That the plaintiffs’ injuries are purportedly too slight, as the defendants
contend, see docs. 189 at 3-6; 246 at 3-6, is irrelevant. As the Eleventh Circuit
explained: “The slightness of [the plaintiffs’] burden is [] not dispositive . . . ; a
small injury, ‘an identifiable trifle,’ is sufficient to confer standing.” Common
Cause, 554 F.3d at 1351 (citing United States v. Students Challenging Regulatory
Agency Procedures (SCRAP), 412 U.S. 669, 689 n.14 (1973)).
Next, the curbside voting ban impacts the individual plaintiffs’ ability to
safely vote in person during the COVID-19 pandemic. See Pl. Ex. 269 at ¶¶ 23-24;
9/8/20 at 45, 52, 76-77; 9/9/20 at 56-57, 62; see also 9/14/20 at 79-81; 9/11/20 at
171. With the ban in place, a voter’s only option for casting a ballot in person on
Election Day is to wait in line with others to vote inside a polling site, risking
exposure to COVID-19 through exposure to poll workers and other voters, who may
or may not be wearing masks, and who may or may not be sick and showing signs
of COVID-19. See id.; 9/15/20 at 202; 9/17/20 at 193; Pl. Ex. 237. Forcing a voter
to endure the risk and fear of exposure in order to vote in person is the injury
regardless of whether the plaintiff catches or is actually exposed to COVID-19.
Thus, based on Common Cause, the court finds this injury is sufficient to confer

95
App. 102

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 96 of 197

standing to challenge the ban as applied during the COVID-19 pandemic. See doc.
58 at 17; Common Cause, 554 F.3d at 1351.
Outside of the COVID-19 pandemic, due to the curbside voting ban, all
voters—including those with ambulatory disabilities—must go inside their polling
places to cast a vote. And, the ban prevents county officials from accommodating
voters’ disabilities by allowing them to vote from their cars. In other words, the ban
operates to require voters with disabilities to walk, or otherwise ambulate, to their
polling site to vote in person. For Dr. Peebles and Mr. Porter, who have ambulatory
difficulties that impair their ability to readily access their polling sites, 9/8/20 at 115130-31; 9/14/20 at 64-68, 77, 79-80, the imposition of that requirement is sufficient
to confer standing to challenge the curbside voting ban outside of the COVID-19
pandemic.
b.
The organizational plaintiffs also have standing either associationally or
organizationally through a diversion of resources theory. First, as to associational
standing, an organization may “‘bring suit on behalf of its members when (a) its
members would otherwise have standing to sue in their own right; (b) the interests
it seeks to protect are germane to the organization’s purpose; and (c) neither the
claim asserted nor the relief requested requires the participation of the individual
members in the lawsuit.’” Greater Birmingham Ministries v. Sec’y of State for Ala.,
966 F.3d 1202, 1219-20 (11th Cir. 2020) (quoting Hunt v. Washington State Apple
96
App. 103

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 97 of 197

Advertising Comm’n, 432 U.S. 33, 343 (1977)). Except for BVM, the organizational
plaintiffs satisfy these requirements.
To begin, this lawsuit is germane to all of the organizations, whose purposes
focus at least in part on equal opportunities for Black voters or voters with
disabilities. See 9/9/20 at 107-10, 174; 9/10/20 at 52, 55, 57-58; 9/22/20 at 100;
Agreed Facts at ¶¶ 1-3, 8; see also Greater Birmingham Ministries 966 F.3d at 121920 (recognizing that the Alabama NAACP and GBM have associational standing to
challenge Alabama’s photo ID requirement). Next, the injunctive relief the plaintiffs
seek does not require the individual members to participate in the suit. Finally, at
trial, representatives of People First, GBM, and the Alabama NAACP identified
members of their respective organizations who must comply with the Challenged
Provisions in order to vote and, therefore, are impacted by the provisions. See 9/9/20
at 106-10, 125-30, 145-47, 166-67; 9/10/20 at 80-11, 111; 9/11/20 at 104-05, 12829, 180, 184-85.43 Even if the impact is slight, as the defendants contend, it is still
an injury sufficient to confer standing to those individuals. Common Cause, 554
F.3d at 1351. Accordingly, People First, GBM, and the Alabama NAACP have
associational standing to challenge the election laws at issue.

43

These members include People First member, Ms. Lux; GBM member, Mr. Sokol, and Alabama
NAACP members, Ms. Jefferson and Ms. Bryant. See 9/9/20 at 107-10, 129-30, 166-67; 9/10/20
at 80-11, 111; 9/11/20 at 128-29, 180, 184-85.

97
App. 104

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 98 of 197

The same is not true of BVM. At trial, Mr. Albright, BVM’s executive
director, testified that BVM works primarily through partnerships with community
groups. 9/9/20 at 174. And, while Mr. Albright identified several groups that BVM
partners with and people associated with those groups, such as Plaintiffs ThreadgillMatthews and Bettis, he did not identify any individual members of BVM who have
been harmed by the challenged provisions. See id. at 177-79, 185-87. Moreover,
the plaintiffs have not presented any evidence that members of BVM’s partner
groups, or “partner network,” are also members of BVM. As a result, the plaintiffs
have not shown that BVM has associational standing to assert claims on behalf of
its members. See Jacobson v. Fla. Sec’y of State, -- F.3d --, 2020 WL 5289377, at
* 7 (11th Cir. Sept. 3, 2020) (finding that an organization’s failure to prove that it
has any members is fatal to its associational standing).
But, this does not end the court’s inquiry for BVM. An organization also has
standing to sue on its own behalf “to challenge election laws by showing that [it]
will have to divert personnel and time to educating potential voters on compliance
with the laws and assisting voters who might be [affected by the laws] on Election
Day.” Arcia v. Fla. Sec’y of State, 772 F.3d 1335, 1343 (11th Cir. 2014) (citation
omitted). 44 Mr. Albright testified that BVM generally provides financial resources

44

See also Common Cause, 554 F.3d at 1350 (noting that the NAACP’s “‘reasonabl[e]
anticipat[ion] that they would have to divert personnel and time to educating volunteers and voters
on compliance’ with the new voting requirements . . . was a ‘concrete injury’ sufficient to confer
standing”) (citations and alteration in original omitted).

98
App. 105

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 99 of 197

to its partner organizations with the goal of increasing voter turnout and involvement
in civic life among members of the Black community. 9/9/20 at 174, 195. This year,
however, BVM has had to divert resources from its traditional Alabama initiatives.
BVM has sponsored several text campaigns targeting Black voters who may need
assistance navigating Alabama’s absentee voting scheme. Id. at 190–91. In its July
text campaign, BVM sent text messages inviting roughly 190,000 Black Alabamians
to attend a virtual townhall discussing several topics, including voting in Alabama.
Id. at 192; Pl. Ex. 340. BVM estimates that such campaigns cost around five cents
per text, and it plans to sponsor up to six future waves of texts, spending up to
$60,000 in text messaging, because “the current requirements [for absentee voting
in Alabama] are so complicated.” 9/9/20 at 193-94, 223. But for the need to educate
voters on how to comply with requirements for absentee voting during the pandemic,
BVM would be focused on its “core function” of educating voters about turnout and
substantive issues. Id. at 195. Thus, because BVM will divert resources from its
regular activities, it has shown an injury sufficient to confer standing to challenge
the election laws at issue on its own behalf.45

45

The other organizations presented similar evidence regarding the diversion of resources to
educate their members on the photo ID and witness requirements. See 9/9/20 at 125, 131-32, 13546; 9/10/20 at 53-57, 72; 9/11/20 at 116-17, 120; 122-46. Thus, they also have organizational
standing.

99
App. 106

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 100 of 197

2.
The next part of the standing inquiry is traceability. To establish traceability,
a plaintiff must show “a causal connection between her injury and the challenged
action of the defendant—i.e., the injury must be fairly traceable to the defendant’s
conduct, as opposed to the action of an absent third party.” Lewis v. Governor of
Ala., 944 F.3d 1287, 1296 (11th Cir. 2019) (en banc) (citations omitted).

a.
The plaintiffs assert claims against Judge Davis challenging the photo ID and
witness requirements and the curbside voting ban in Mobile County. See doc. 75.
As to the photo ID requirement, Judge Davis testified that, although he is the chief
election official for Mobile County, he does not have control over all aspects of the
election. 9/15/20 at 40. Instead, the County Circuit Clerk (Ms. Schwarzauer) and
the Absentee Election Coordinator (Ms. Barnett) are responsible for all aspects of
absentee voting, including processing absentee ballot applications. Id. at 41-43.
And, he testified that he has no role in training Ms. Barnett’s employees. Id. at 56.
Indeed, Ms. Barnett testified that she and her staff in the AEM’s office enforce
the photo ID requirement by confirming that an absentee ballot application is
complete before mailing or personally giving a voter an absentee ballot. See 9/17/20
at 112, 116, 137. Among the requirements they check for is that the application must
include a copy of a photo ID for all voters who are not exempt from the photo ID
100
App. 107

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 101 of 197

requirement. See 9/17/20 at 112, 116, 137. If an application does not include a copy
of the voter’s ID and the voter is not exempt, Ms. Barnett or her staff send a letter to
the voter informing him or her that her office cannot process the application without
a copy of the ID. Id. at 116. Ms. Barnett did not indicate that Judge Davis plays any
role in processing absentee ballot applications, enforcing the photo ID requirement,
or directly supervising the relevant staff. See id. Moreover, the plaintiffs did not
adduce any evidence at trial showing that Ms. Barnett’s or her staff’s actions to
enforce the photo ID requirement should be imputed to Judge Davis.
Based on Jacobson, Judge Davis’s position as the chief election official in the
county is not sufficient to show that any injury from enforcement of the photo ID
requirement is traceable to him, see 2020 WL 5289377, at *12,46 and Judge Davis
does not play any role in enforcing the photo ID requirement. Thus, any injury to
the plaintiffs from the photo ID requirement is not traceable to Judge Davis. See
Lewis, 944 F.3d at 1299 (“‘[T]he causation element of standing requires the named
defendants to possess authority to enforce the complained-of provision.’”) (quoting
Dig. Recognition Network, Inc. v. Hutchinson, 803 F.3d 952, 958 (8th Cir. 2015)).
As to the witness requirement, Ms. Barnett testified that neither she nor her
staff confirms compliance with the witness requirement when they receive an
absentee ballot, and they do not notify the voter when the required signatures are

46

See docs. 58 at 25; 161 at 8-9.

101
App. 108

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 102 of 197

missing. 9/17/20 at 127. Instead, they store the absentee ballots in locked cabinets
until Election Day when they deliver them to Judge Davis’s designee. Id. at 141.
Judge Davis testified that before opening an absentee ballot on Election Day, poll
workers first verify that the ballot is either notarized or witnessed, and they do not
count ballots that do not have the signatures or notary seal. 9/15/20 at 59. Moreover,
under Alabama’s election laws, probate judges serve as the chair of the threemember board that appoints the poll workers who count absentee ballots and on the
canvassing board that tabulates absentee ballots. Ala. Code. §§ 17-1-2(6), 17-1-3(b),
17-2-2(1), 17-8-1, 17-10-2(f); 17-11-11(a). Based on this evidence and a probate
judge’s roll in the absentee ballot process, poll workers under Judge Davis’s
authority and control enforce the witness requirement. Thus, the plaintiffs’ injuries
from the witness requirement, if any, are traceable to Judge Davis. 47
b.
The plaintiffs assert claims against Ms. Schwarzauer, the Mobile County
Circuit Clerk, challenging the witness and photo ID requirements. Docs. 75; 161.
Under Alabama law, the circuit clerk is one of the three members of the appointing
board responsible for selecting poll workers who count absentee ballots, and she
serves on the canvassing board that tabulates absentee ballots. Ala. Code. §§ 17-1-

47

The court does not address whether the plaintiffs’ injuries, if any, from the curbside voting ban
are traceable to Judge Davis because the court finds that the injuries would not be redressed by an
order enjoining Judge Davis from enforcing the ban. See section II(A)(3)(b), infra.

102
App. 109

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 103 of 197

2(6); 17-8-1, 17-10-2(f); 17-11-11(a). Moreover, Ms. Barnett testified that she
performs the AEM’s duties at Ms. Schwarzauer’s option and that the canvassing
board, which includes Ms. Schwarzauer, enforces the witness requirement. See
9/17/20 at 139, 145. In addition, Secretary Merrill testified that the circuit clerks are
charged with enforcing the photo ID requirement. 9/11/20 at 16. Because Ms.
Schwarzauer enforces the witness and photo ID requirement, or is responsible for
the relevant poll workers, the plaintiffs’ injuries from those requirements, if any, are
traceable to Ms. Schwarzauer.
c.
Next, the plaintiffs assert claims against the State challenging the witness and
photo ID requirements. Doc. 75. Because these requirements are express provisions
of state law, any injuries the requirements inflict on the plaintiffs are clearly
traceable to the State. See OCA-Great Houston v. Texas, 867 F.3d 604, 613 (5th Cir.
2017) (“The facial invalidity of a Texas election statute is, without question, fairly
traceable to and redressable by the State . . . .”).
d.
Last, the plaintiffs assert claims against Secretary Merrill challenging the ban
on curbside voting. Doc. 37. Secretary Merrill testified that curbside voting does
not comply with Alabama law because no provision in the State’s code or
constitution expressly provides for it, and he or his staff has put a stop to curbside
voting when counties have offered it as a service to voters. 9/11/20 at 38, 41, 65.
103
App. 110

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 104 of 197

Thus, because he enforces the ban on curbside voting or is responsible for those who
do, any injuries from the ban are traceable to Secretary Merrill. 48
3.
The final requirement for standing is redressability.

To establish

redressability, the plaintiffs must show that a decision in their favor “would
‘significantly increase the likelihood’ that [they] ‘would obtain relief that directly
redresses the injury’ that [they] claim[] to have suffered.” Lewis, 944 F.3d at 1301
(quoting Harrell v. Fla. Bar, 608 F.3d 1241, 1260 n.7 (11th Cir. 2010)). In addition,
for a decision to redress the injury, “‘it must be the effect of the court’s judgment on
the defendant’—not an absent third party—‘that redresses the plaintiff’s injury,
whether directly or indirectly.’” Id. (quoting Dig. Recognition, 803 F.3d at 958).

48

The plaintiffs ask the court to reconsider its order dismissing their ADA and VRA claims against
the State challenging the curbside voting ban, arguing that the Secretary Merrill’s testimony
establishes the ban is traceable to the State. Doc. 229 at 1-2. But, as discussed below, Alabama
law does not prohibit curbside voting, see section II(E)(2)(d), infra, and, therefore, the court
declines to reconsider its prior order that any injury from the ban is not traceable to the State, see
doc. 226 at 5-6. The plaintiffs also ask the court to reconsider its holding finding that any injury
from the photo ID and witness requirements are not traceable to Secretary Merrill based on
Jacobson. Doc. 229 at 3-4. According to the plaintiffs, Secretary Merrill’s testimony at trial that
he could compel action from probate judges, and presumably AEMs, by seeking a court order or
calling a county sheriff reveals that any injuries from the probate judge’s and AEM’s enforcement
of the witness and photo ID requirements are traceable to Secretary Merrill. Id. at 4. But, in
Jacobson, the Eleventh Circuit rejected a similar argument, finding: “That the Secretary must
resort to judicial process if the [county] Supervisors [of elections] fail to perform their duties
underscores her lack of authority over them. Because the Supervisors are independent officials
not subject to the Secretary’s control, their actions to implement the ballot statute may not be
imputed to the Secretary for purposes of establishing traceability.” 2020 WL 5289377 at *11.
Thus, Secretary Merrill’s testimony does not show that injuries from the witness and photo ID
requirements are traceable to him, and the plaintiffs’ motion to reconsider, doc. 229, is due to be
denied.

104
App. 111

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 105 of 197

a.
The plaintiffs seek an order enjoining the county defendants and State from
enforcing the witness and photo ID requirements for the general election in
November. See doc. 75 at 78. An order enjoining the State and relevant Mobile
County defendants from enforcing those requirements would redress any injuries the
plaintiffs suffer from the need to comply with the requirements.
b.
The analysis is different for the curbside voting ban. The curbside voting ban
imposes no requirements the plaintiffs must satisfy in order to vote, and the injury
imposed by the ban is the need to face the risk and fear of exposure to COVID-19 to
vote in person on Election Day. The plaintiffs seek an order enjoining Secretary
Merrill and Judge Davis (as to Mobile County only) from enforcing the curbside
voting ban in the November general election. Doc. 75. Such an order, however,
would not require the defendants to take any affirmative action, such as actually
providing curbside voting. Thus, a decision in the plaintiffs’ favor would not redress
their injuries if the county officials who administer the election would not provide
curbside voting even in the absence of a ban. See Lewis, 944 F.3d at 1301.
Here, Judge Davis testified that he cannot offer curbside voting in Mobile
County for both legal and practical reasons. 9/15/20 at 93-96. And, Judge Davis
expressly stated that if the court issues an order allowing for curbside voting by
lifting the ban, he still cannot and would not provide curbside voting at poll locations
105
App. 112

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 106 of 197

in Mobile County. See id. at 96. Thus, an order enjoining Judge Davis from
enforcing the curbside voting ban would not provide any redress for the plaintiffs’
injuries. Consequently, the plaintiffs do not have standing to assert the curbside
voting ban claims against Judge Davis. And, because Judge Davis made clear that
he will not provide curbside voting in Mobile County even if the court enjoins
enforcement of the ban, the individual plaintiffs living in Mobile County (Ms. Bettis,
Ms. Thompson, and Mr. Porter) do not have standing to challenge the ban because
an order in their favor will not redress their injuries.
The redressability analysis is different for the claims against Secretary Merrill.
Although Judge Davis and Judge Bill English, the probate judge of Lee County,
testified that they could not and would not offer curbside voting in their counties,49
see 9/15/20 at 96; 9/17/20 at 166-71, Judge Naftel, Judge Friday, and Judge Love,
the probate judges in Jefferson and Montgomery Counties, have indicated a
willingness to provide curbside voting in the upcoming election, see docs. 181 at 89; 182. In particular, those judges entered into consent orders with the plaintiffs
agreeing to “exercise good faith and undertake reasonable efforts to provide curbside
voting in a manner that complies with state and federal law and the CDC guidelines

49

Because Judge English testified that he could not provide curbside voting in Lee County even if
the court lifts the curbside voting ban, see 9/17/20 at 166-71, an order lifting the ban would not
significantly increase the likelihood that Dr. Peebles would receive relief from any injuries
inflicted by the ban. Thus, Dr. Peebles does not have standing to challenge the curbside voting
ban.

106
App. 113

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 107 of 197

for voting in the COVID-19 pandemic in . . . the November 3, 2020 election” if the
court issues an order that would permit curbside voting. Id. Thus, an order enjoining
Secretary Merrill from enforcing the ban would “‘significantly increase the
likelihood’”50 that curbside voting would be available in Jefferson and Montgomery
counties, and in any other county where officials are willing to offer it.
Consequently, Ms. Threadgill-Matthews’s and the organizational plaintiffs’ injuries
from the ban are redressable by an order in the plaintiffs’ favor on their claims
against Secretary Merrill.
*

*

*

In summary, based on the discussion above and the findings in this case, the
court makes the following conclusions of law with respect to standing:
1.

The plaintiffs have suffered injuries sufficient to confer standing to

challenge the photo ID requirement, witness requirement, and curbside voting ban.
2.

The plaintiffs’ injuries from the photo ID requirement are not traceable

to Judge Davis. Therefore, the plaintiffs do not have standing to assert claims against
Judge Davis challenging the photo ID requirement.
3.

The plaintiffs’ injuries from the witness requirement are traceable to

Judge Davis. And, the plaintiffs’ injuries could be redressed by an order enjoining
Judge Davis from enforcing the requirement. Therefore, the plaintiffs in Mobile

50

Lewis, 944 F.3d at 1301.

107
App. 114

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 108 of 197

County challenging the witness requirement have standing to assert their witness
requirement claims against Judge Davis.
4.

The plaintiffs’ injuries from the photo ID and witness requirement are

traceable to Ms. Schwarzauer and the State of Alabama, and would be redressed by
an order enjoining these defendants from enforcing the requirements. Thus, the
plaintiffs have standing to assert their claims challenging the photo ID and witness
requirements against Ms. Schwarzauer (as to Mobile County only) and the State of
Alabama.
5.

The plaintiffs’ injuries from the curbside voting ban would not be

redressed by an order enjoining Judge Davis from enforcing the ban in Mobile
County. Thus, the plaintiffs do not have standing to assert claims against Judge
Davis challenging the curbside voting ban.
6.

The plaintiffs’ injuries from the curbside voting ban are traceable to

Secretary Merrill. However, Dr. Peebles’s, Mr. Porter’s, Ms. Thompson’s, and Ms.
Bettis’s injuries from the curbside voting ban would not be redressed by an order
enjoining Secretary Merrill from enforcing the ban because the probate judges from
their respective counties have made clear they would not provide curbside voting
even if the court enjoins Secretary Merrill from enforcing the ban. Thus, these
plaintiffs do not have standing to assert claims challenging the curbside voting ban.
7.

An order enjoining Secretary Merrill from enforcing the ban would

significantly increase the likelihood that the plaintiffs would obtain relief redressing
108
App. 115

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 109 of 197

their injuries in counties where officials are willing to provide the service. Thus, the
organizational plaintiffs and Ms. Threadgill-Matthews have standing to assert claims
challenging the curbside voting ban against Secretary Merrill.
B.
Based on their contention “that lower federal courts should ordinarily not alter
the election rules on the eve of an election,” see Defendants’ Proposed Conclusions
of Law, at ¶ 86 (quoting Republican Nat’l Comm. v. Democratic Nat’l Comm., 140
S. Ct. 1205, 1207 (2020)), the defendants argue that it is too late for the court to
provide relief to the plaintiffs. Docs. 186 at 1; 188; 199 at 2. The Purcell principle
the defendants cite is grounded in the idea that “[c]ourt orders affecting elections,
especially conflicting orders, can themselves result in voter confusion and
consequent incentive to remain away from the polls. As an election draws closer,
that risk will increase.” Purcell v. Gonzalez, 127 S. Ct. 1, 4-5 (2006).
But, contrary to the defendants’ contentions, the Supreme Court has not
provided a bright line rule regarding when a federal court must abstain from
interceding in an election. And its actions in this area do not support the defendants’
contention that it is too late for the court to act. For example, the Court has stopped
a lower court from intervening 33 days before an election, see Purcell, 127 S. Ct. at
6, but also allowed a lower court’s injunction issued 26 days before an election to
stand, see Frank v. Walker, 574 U.S. 929 (2014). Also, a recent decision by the
Court partially leaving in place a district court’s order related to absentee ballots
109
App. 116

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 110 of 197

makes the defendants’ argument against hearing this case even weaker.

In

Republican National Committee v. Democratic National Committee, the Supreme
Court did not stay the lower court’s injunction extending the date for the receipt of
absentee ballots—even though absentee voting had already begun and the lower
court issued its order six days before the election. 140 S. Ct. at 1206-07; Democratic
Nat’l Comm. v. Bostelmann, 451 F. Supp. 3d 952, 976-977 (W.D. Wisc. 2020).
The Eleventh Circuit has also declined in two recent cases to stay injunctions
issued immediately before and even after Election Day. See Democratic Executive
Comm. of Fla. v. Lee, 915 F.3d 1312, 1315 (11th Cir. 2019) (denying stay of
injunction issued after Election Day that provided absentee voters time to verify their
flagged signature and have their vote counted); Ga. Muslim Voter Project v. Kemp,
918 F.3d 1262 (11th Cir. 2019) (denying stay of injunction related to absentee voting
rules issued several days before Election Day) (mem.) (Pryor, Jill, J., concurring).
These decisions further undermine the defendants’ position that the court is past the
demarcation line for it to address this dispute. And it makes sense not to have a
bright-line cutoff date. After all, the doors of the courthouses are open to all who
believe their rights have been infringed. To hold that an aggrieved voter cannot
challenge the purported abridgement of her franchise right after a set date before an
election invite some officials to engage in shenanigans knowing that courts will not
hear a challenge to their illegal conduct.

110
App. 117

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 111 of 197

Brightline rule or not, the Purcell principle does not prevent the court from
issuing relief in this case. First, the plaintiffs timely raised this dispute. Second, the
court’s order today will not cause voter confusion or create an incentive for voters
to remain away from the polls. Third, the defendants can adhere to the court’s order
without hardship. Finally, the State defendants are judicially estopped from raising
this issue.
1.
Unlike the Little v. Reclaim Idaho case the defendants cite, the plaintiffs here
have not delayed in seeking relief.51 The plaintiffs filed this case soon after it
became clear the novel coronavirus had reached the level of a global pandemic that
would drastically impact everyone’s life. Doc. 1. More precisely, the plaintiffs
initiated this lawsuit on May 1, 2020, doc. 1, about a month and a half after Governor
Ivey first declared a state of emergency in Alabama. See State Ex. 7. The pandemic
is an unprecedented event in United States and Alabama history, and it would defy
logic to expect lay plaintiffs to predict its impact on citizens well before health
experts and government leaders raised alarm bells.

Further, contrary to the

defendants’ contention that the plaintiffs “amplified” the timing problems, see doc.

51

In Little, the Court noted that its stay of the lower court’s injunction may result in the exclusion
of the plaintiffs’ initiative from the ballot, but that the exclusion was due to the fact the plaintiffs
had waited “more than a month after the deadline for submitting signatures” to bring their claim
challenging the deadline. _ S. Ct. _, 2020 WL 4360897, at *1-2 (Jul. 30, 2020) (mem.) (Roberts,
J., concurring).

111
App. 118

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 112 of 197

186 at 4-5, the plaintiffs undertook efforts to accelerate this case to a timely
resolution, including seeking expedited relief by asking for an August trial and
moving for partial summary judgment. Docs. 77; 169.
The court has also treated this case with the urgency it deserves, while
recognizing that the parties should have an opportunity to conduct discovery.
Throughout this case, the court has been cognizant of the upcoming November
election and has sought to dispose of the case as fairly and quickly as possible. With
input from the parties, see docs. 59, 68, 69, the court set the case for trial at the
beginning of September, doc. 93. The court overruled several of the defendants’
objections to the expedited schedule, explaining “the accelerated timeline is
necessary given that the asserted claims concern the election scheduled for
November 3, 2020.” Doc. 126 at 1. Further, the court self-imposed a deadline to
issue a final ruling within a week of the trial’s conclusion, and while the court missed
the deadline by three business days, it is issuing this opinion thirty-four days before
the November election. 52 Frankly, the court does not know what else it could have
done to bring the matter to trial without seriously impacting the parties’ ability to
prosecute and/or defend their respective contentions.

52

The release date of this opinion further distinguishes it from some of the cases defendants cite
in support of withholding review. The courts in those cases issued orders shortly before or even
after the election. See Defendants’ Proposed Conclusions of Law at p. 263-64, ¶ 92; Clarno v.
People Not Politicians, No. 20A21, 2020 WL 4589742 (U.S. Aug. 11, 2020), staying 2020 WL
3960440 (D. Or. July 13, 2020) and Little v. Reclaim Idaho, _ S. Ct. _, 2020 WL 4360897, at *12 (Jul. 30, 2020).

112
App. 119

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 113 of 197

2.
The court’s ruling in this case will not result in “voter confusion and
consequent incentive to remain away from the polls.” Purcell, 127 S. Ct. at 7. The
evidence from trial shows that Alabama’s absentee voting laws are causing voters
confusion as they stand. 9/17/20 at 117, 120; 9/15/20 at 162-63; 9/9/20 at 124-25;
Pl. Ex. 231. This court’s order may not eliminate all the confusing aspects of the
absentee voter application, but it is unlikely it will make the process more confusing.
Today’s decision simply precludes the defendants from enforcing the Challenged
Provisions against certain individuals. It does not require any additional action of
voters, but, instead, relieves certain voters of the necessity of finding witnesses or a
notary, obtaining a copy of their photo ID, or going inside a polling place on Election
Day. Because the order is taking away requirements placed on Alabama voters, as
opposed to imposing them, it is unlikely to cause voters confusion. But, even if a
voter were to be confused, this confusion would, at most, result in the voter taking
additional unnecessary steps to apply for or complete their absentee ballot.
Further, the order will not cause any voters to forgo voting altogether. The
defendants theorize that a voter may plan to rely on curbside voting, then be
disenfranchised when it is not offered in their county “for one reason or another on
Election Day . . . .” Doc. 244 at 3. The court doubts that the counties, if any, who
opt to provide curbside voting will fail to publicize and inform their citizens that
they are doing so. Likewise, because this order is not ordering counties to provide
113
App. 120

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 114 of 197

curbside voting, the court seriously doubts county officials who decide not to offer
the service will fail to make that point if they receive inquiries from their citizens.
Thus, to the extent that curbside voting is not offered in a voter’s county making the
hypothetical voter misinformed about local voting rules, the onus of such
misinformation is on the individual counties and the Secretary of State, who is tasked
with educating the public about how to vote. Agreed Facts at 15, ¶ 20; 9/15/20 at
166-67.

Alternatively, if the defendants’ point is intended to suggest that a

reviewing court will stay this order and create confusion, no court should withhold
relief it finds the facts and law warrant because of a concern that a higher court will
reverse its decision, especially where, as here, this court has found multiple
violations of the plaintiffs’ and their members’ right to vote. Further, under Alabama
law, a voter may file an absentee ballot up to five days before an election, 9/15/20
at 139, 151, a point which the parties will likely highlight on appeal to urge the
Circuit to issue its ruling before the five-day cutoff.
3.
The defendants also argue the relief requested by the plaintiffs will place a
“tremendous hardship upon all Defendants.” Doc. 186 at 3-4. The evidence
presented at trial does not support this contention. Alleen Barnett, the Absentee
Election Coordinator for Mobile County, testified that after the court issued the
preliminary injunction, she simply sent a letter about the changes implemented by
the injunction with a voter’s absentee application. 9/16/20 at 146-52. Ms. Barnett
114
App. 121

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 115 of 197

did not have to make any changes to the absentee ballot application or print new
versions of the application. Id. Similarly, Ms. Barnett mailed a letter explaining
who no longer needed to meet the witness requirement when she mailed voters their
absentee ballots. Id. The injunction did not require her or the State to reprint any
absentee ballot affidavit envelopes, and other than sending these two letters, she
made no other changes to her absentee ballot review process. Id. Similarly, Judge
English, the Probate Judge of Lee County, testified that he was able to train absentee
poll workers to handle the varying standards that applied with the change in absentee
voter rules under the injunction. 9/17/20 at 178-80. The testimony of Judge English
and Ms. Barnett belie the defendants’ contentions of a “tremendous hardship.”
The defendants also argue that it would be impossible for them to educate
voters and poll workers if relief varies by counties. Doc. 186 at 3-4. This order does
not provide relief that varies by county. However, to the extent that some counties
will choose to implement curbside voting while others do not, variance in voting
options may result. This possibility does not foreclose the court’s ability to grant
relief related to the curbside voting claims. There is precedent in this Circuit for
providing relief in some, but not all counties. See Jones v. DeSantis, 410 F. Supp.
3d 1284, 1310-11 (N.D. Fla. 2017), aff’d 950 F.3d 795, 833 (11th Cir. 2020).
Further, counties in Alabama already employ different procedures and resources for
conducting elections. For example, Clay Helms, the Director of Elections and the
Deputy Chief of Staff to the Secretary of State, testified that not all counties have
115
App. 122

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 116 of 197

electronic pollbooks, that counties use different types of handicap accessible voting
machines, and that each county’s probate judge decides “how to handle voting
logistics . . . .” 9/15/ 20 at 137, 167, 186.
4.
Finally, the State defendants are judicially estopped from raising this
objection. When the plaintiffs moved for a preliminary injunction for the July runoff
election, the State defendants argued “to the extent plaintiffs [sought] an injunction
that applies to November elections, their claims [were too] speculative.” Doc. 36 at
13-14. They further asserted that the plaintiffs could not establish a concrete injury
“50 days” before the primary runoff election. Id. at 13. This court agreed with the
defendants’ speculation argument related to November and limited the preliminary
injunction solely to the July runoff. Doc. 58 at 12. The State defendants cannot
have it both ways by now contending, essentially, that the plaintiffs should have also
moved for a preliminary injunction for the November election in June, at a time
when the pandemic’s impact on November was “speculative.” See New Hampshire
v. Maine, 532 U.S. 742, 750-55 (2001) (party estopped from asserting inconsistent
position in direct conflict with previous position accepted by the court because the
party “would derive an unfair advantage or impose an unfair detriment on the
opposing party if not estopped”).
To close, while “lower federal courts should ordinarily not alter the election
rules on the eve of an election[,]” Republican Nat’l Comm., 140 S. Ct. at 1207, the
116
App. 123

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 117 of 197

court is also bound to uphold the laws of the United States. U.S. Const. art. III. This
includes hearing a dispute centered on an unforeseeable global crisis, which the
plaintiffs maintain interacts with State law to purportedly violate Constitutional and
federal rights. Therefore, because there is nothing the plaintiffs or the court could
have done differently to resolve the case sooner and there is not likely to be much,
if any, confusion, the court finds that the Purcell principle does not preclude the
court from providing a remedy here.
Based on the findings in this case and the discussion above, the court makes
the following conclusion of law:
1.

The Purcell principle does not preclude the court from providing a

remedy to the plaintiffs in this case.
C.
Although the Purcell objection arguably supports an expedited resolution of
this case, the defendants object also to the accelerated schedule set in this case,
contending that the schedule violated their due process rights by impairing their
ability to prepare an adequate defense and retain experts. Docs. 74; 244 at 14-15;
246 at 1-2; 9/16 20 at 220. Needless to say, this case proceeded to trial just over
four months after filing, and it has proceeded on an expedited and challenging
schedule. The court appreciates that the pace has not been ideal for the parties or
the court. But, to state the obvious, this is not a typical case. Rather, as the court
previously explained, “this case has an unusual urgency because the claims concern
117
App. 124

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 118 of 197

the November 3, 2020 election and a State of Emergency Governor Ivey declared
[approximately] six months ago due to the risks presented by COVID-19.” Doc. 211
at 1; see also doc. 126; 9/16/20 at 223-25. Thus, given the important issues this case
presents regarding voting in an upcoming election, the court exercised its “broad
discretion over the management of pre-trial activities, including discovery and
scheduling,” Johnson v. Board of Regents of Univ. of Ga., 263 F.3d 1234, 1269 (11th
Cir. 2001), to enter an accelerated discovery schedule. In particular, the court
provided the parties with approximately seven weeks for discovery, in part to give
the parties adequate opportunity for discovery while allowing them as much time as
possible to respond to any relief the court orders, including filing an appeal, before
the election. See doc. 93.
Based on the urgent nature of this case and the court’s broad discretion to
manage discovery and its docket, the court makes the following conclusion of law:
1.

The court’s expedited discovery schedule, which applied to all parties,

did not violate the defendants’ due process rights.
D.
The court turns now to the plaintiffs’ claims. In Count I, the plaintiffs plead
an alleged violation of the fundamental right to vote. States cannot unreasonably
burden citizens’ fundamental right to vote consistently with the First and Fourteenth
Amendments. See Anderson v. Celebrezze, 460 U.S. 780, 789–90 (1983). When
determining whether an election law passes constitutional muster, courts apply the
118
App. 125

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 119 of 197

balancing test that the Supreme Court first adopted in Anderson and further
developed in Burdick v. Takushi, 504 U.S. 428 (1992). This involves weighing the
“character and magnitude of the asserted injury to” the voters’ constitutional rights
against the “precise interests” the state has offered to justify its rule. Anderson, 460
U.S. at 789. Courts must also evaluate the “legitimacy and strength” of the state’s
interests and the extent to which those interests “make it necessary to burden the
[plaintiffs’] rights.” Id.
Under this flexible Anderson-Burdick test, the “rigorousness” of the court’s
review “depends upon the extent to which a challenged regulation burdens First and
Fourteenth Amendment rights.” Burdick, 504 U.S. at 434. A law that severely
burdens the right to vote triggers strict scrutiny, meaning the law must be “narrowly
drawn to serve a compelling state interest.” Democratic Exec. Comm. of Fla. v. Lee,
915 F.3d 1312, 1318 (2019) (citing Burdick, 504 U.S. at 434). In contrast, “the
state’s important regulatory interests” are generally enough to justify an election law
that imposes only “reasonable, nondiscriminatory restrictions.” Anderson, 460 U.S.
at 788. But, “even when a law imposes only a slight burden on the right to vote,
relevant and legitimate interests of sufficient weight still must justify that burden.”
Lee, 915 F.3d at 1318–19 (citation omitted).
1.
Alabama law requires that voters include with their absentee ballots an
affidavit signed by the voter and witnessed by a notary public or two adult witnesses.
119
App. 126

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 120 of 197

Ala. Code §§ 17-11-7; 17-11-9; 17-11-10. Plaintiffs challenge this requirement as
unduly burdensome, as applied during the COVID-19 pandemic. Doc. 75 at 66–77
¶ 190. They contend that the requirement’s burdens on either their individual right
to vote or their members’ rights are severe enough to trigger strict scrutiny. Doc.
247 at 6. Allegedly, voters who live alone or with only one other adult and who
wish to cast an absentee ballot must choose between increasing their exposure to
COVID-19 and voting. Id. And, the plaintiffs contend that the witness requirement
is not narrowly tailored to serve a compelling state interest. Id. Thus, the plaintiffs
ask the court to enjoin this requirement for all voters. Doc. 75 at 78.
a.
The court must first decide whether the witness requirement imposes a burden
on the right to vote that is severe enough to trigger strict scrutiny. See Lee, 915 F.3d
at 1319. The court has already determined that for most voters, it does not. Doc. 58
at 36. Although the court recognized in its earlier order enjoining the Challenged
Provisions that “[e]xposure to a deadly virus is a burden,” it also acknowledged that
observing public health guidelines “substantially mitigate[s]” one’s risk of
contracting COVID-19. Id. That fact continues to lessen the severity of the burden
that most voters face to comply with the requirement.53

53

The defendants cite Justice Scalia’s concurrence in Crawford v. Marion County Election Board
for the proposition that “[a] burden that is ‘merely inconvenient’ as opposed to ‘virtually
impossible’ is not a severe burden.” Docs. 189 at 7; 245 at 6 (quoting Crawford, 553 U.S. at 206
(Scalia, J., concurring)). Because the Challenged Provisions do not impose a severe burden on the
right to vote in this case, the court finds no reason to opine on what constitutes a severe burden.

120
App. 127

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 121 of 197

Still, satisfying the witness requirement imposes a more significant burden on
some voters who live alone and who are at heightened risk of severe COVID-19
complications due to their age, disability, pre-existing conditions, and race. See
9/14/20 at 191–192. For example, Dr. Peebles lives alone and has been minimizing
his exposure to other people, and therefore the virus, since early March. 9/8/20 at
114, 116, 120. He is at high risk of complications from COVID-19 due to his spastic
cerebral palsy. Id. Dr. Peebles interacts regularly with his four caregivers, but
obtaining signatures from them is not an option because their shifts do not overlap,
and he only sees one caregiver at a time. Id. at 118. Although Dr. Peebles has
encountered two adults simultaneously during previous necessary appointments
with his doctors and lawyers, he has since remained isolated at home.
Similarly, Ms. Thompson lives alone and is at high risk for complications
from COVID-19 due to her underlying medical conditions, age, and race. 9/8/20 at
168–69. Ms. Thompson began self-isolating at home on April 1. Id. at 169–70.
However, she recently began leaving her home to purchase groceries and other
necessaries while her daughter, who was exposed to COVID-19 and had previously
delivered Ms. Thompson’s groceries, is quarantining. Id. at 169–70, 228–29.

The court notes, however, that Justice Scalia’s Crawford concurrence does not control. Justice
Scalia’s concurrence construed the flexible Anderson-Burdick balancing standard into a “two-track
approach” in which only laws imposing a severe burden are invalid; all others would be upheld.
Crawford, 553 U.S. at 205. Notably, Justice Scalia spoke for only three Justices. The six other
Justices, in both the plurality and the dissent, did not question the Anderson-Burdick framework.
They simply disagreed over the outcome of that framework as applied to Indiana’s photo ID law.

121
App. 128

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 122 of 197

Although Ms. Thompson was in frequent contact with her daughter and
granddaughter over the summer, the granddaughter has since moved away for
school. Id. at 178–79. Ms. Thompson thus does not regularly encounter two adults
who can witness her absentee ballot application. Id.
Organizational plaintiffs People First, GBM, and the Alabama NAACP all
have members who live alone, are at high risk from COVID-19 complications, and
prefer to vote by absentee ballot rather than in person to minimize their risk from
exposure to the virus. See, e.g., 9/11/20 at 161, 180–81; 9/9/20 at 107–110, 115;
9/1020 at 77–78, 80–81. These plaintiffs maintain that their affected members
cannot satisfy the witness requirement without risking their health by engaging in
person-to-person contact in contravention of health guidelines. Doc. 247 at 6.
To be sure, these plaintiffs have good reason to be concerned about the risk
of COVID-19 infection, and to minimize their potential exposure to the virus. And
expert trial testimony established that “the best way to avoid contact with the virus
is to not be in contact with other people.” 9/8/20 at 31. However, even if the witness
requirement significantly burdens some individual plaintiffs and members of the
organizational plaintiffs, that does not necessarily establish that strict scrutiny
applies. See Crawford, 553 U.S. at 206 (Scalia, J., concurring) (noting that when
determining whether strict scrutiny applies, the Court has looked at the burden on
voters “categorically and did not consider the peculiar circumstances of individual
voters or candidates”) (citations omitted).
122
App. 129

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 123 of 197

But there is more to consider. The plaintiffs showed at trial that satisfying the
witness requirement presents some risk of COVID-19 exposure to voters who do not
regularly encounter at least two adults simultaneously, even if these voters follow
social-distancing guidelines. The defendants’ contention that the “Plaintiffs failed
to show that they are burdened at all” by the witness requirement, doc. 244 at 9, is
simply untrue. Their argument to this effect is essentially that the individual
plaintiffs have not shown enough “creativity and initiative” to get their absentee
ballots witnesses or notarized. Docs. 186 at 5; 160 at 17. They contend that each
plaintiff has had “opportunities to safely obtain signatures,” including while meeting
others outdoors or perhaps while visiting a doctor. Doc. 244 at 9. Alternatively,
they maintain that the plaintiffs could arrange for someone to witness their ballots
“from a distance or through a car window.” Id. True enough. A “determined and
resourceful voter intent on voting” could certainly “manage to work around” the
witness requirement. Common Cause R.I. v. Gorbea, 970 F.3d 11, 14 (1st Cir. 2020).
“But it is also certain that the burdens are much more unusual and substantial than
those that voters are generally expected to bear. Taking an unusual and in fact
unnecessary chance with your life is a heavy burden to bear simply to vote.” Id. at
14–15.
The availability of free witness or notary services does not diminish the
burden that at-risk individuals face when attempting to comply with the witness
requirement. For example, the defendants point out that the Mobile County Public
123
App. 130

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 124 of 197

Library offers those services to county residents at no charge. Doc. 245 at 7; see
also doc. 244 at 10. Library patrons in Mobile County can travel to any one of five
library branches to have their absentee ballots notarized without going indoors.
9/16/20 at 118–119. Both Ms. Bettis and Ms. Thompson, who live in Mobile
County, testified that they would consider using this program to satisfy the witness
requirement. 9/9/20 at 196–97; 9/14/20 at 44–45. The defendants thus contend that
both those plaintiffs can satisfy the witness requirement with minimal risk. Doc.
245 at 6–7. But the burden on these plaintiffs is not simply having to get their ballot
applications notarized. Rather, it is having to expose themselves to a potentially
deadly virus. Whether they can obtain notarization for free from a county library is
therefore of no moment, particularly when doing so generally requires interacting
with library staff face-to-face outside. See 9/16/20 at 129.
For the same reason, it matters not that some individual plaintiffs have
ventured outside of their homes to run necessary errands. The defendants describe
Ms. Thompson’s safety concerns as “disingenuous” because she has made “regular
away-from-home trips to get her Shih Tzu shampooed.” Doc. 245 at 7. But Ms.
Thompson’s dog has a skin condition that requires recurrent trips to both the
groomer and veterinarian. 9/8/20 at 173. And she dutifully follows public health
guidelines whenever she goes to either service. Id. True, Ms. Thompson also leaves
home to visit her bank, pharmacy, doctor’s office, and grocery store. Id. at 171.
Those trips necessarily entail a level of risk for someone with Ms. Thompson’s
124
App. 131

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 125 of 197

health conditions, despite her rigorous safety precautions. See id. at 170. However,
“[s]uch risks may be necessary to obtain food and other necessities, but the burden
one might be forced to accept to feed oneself differs in kind from the burden that the
First and Fourteenth Amendment tolerate on the right to vote.” League of Women
Voters of Va. v. Va. State Bd. of Elections, No. 6:20-CV-00024, 2020 WL 4927524,
at *9 (W.D. Va. Aug. 21, 2020).
Ultimately, the burden imposed by the witness requirement might not be
severe, but it doubtlessly exists. Other courts have recognized that the burden such
a law imposes is at least significant. See, e.g., Common Cause R.I, 970 F.3d at 14
(concluding that a two-witness or notary requirement imposed a “significant” burden
as applied “in the midst of a pandemic”). Moreover, even if the requirement only
slightly burdened the right to vote, this burden “must be justified by relevant and
legitimate state interests ‘sufficiently weighty to justify the limitation.’” Crawford,
553 U.S. at 191 (citation omitted). Thus, the court turns to the “precise interests put
forward by the State as justifications for the burden imposed by its rule . . . .”
Burdick, 504 U.S. at 434 (citation omitted).
b.
According to state law, the witness requirement “goes to the integrity and
sanctity of the ballot and election.” Ala. Code § 17-11-10(c). The defendants
contend that requiring witnesses curbs voter fraud by ensuring that the voter
completing the ballot is the person identified on the ballot. Doc. 244 at 10. Although
125
App. 132

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 126 of 197

there was no evidence of extensive voter fraud offered at trial, the defendants
established that voter fraud has occurred on occasion. The State has a legitimate and
strong interest in preventing such fraud. Lee, 915 F.3d at 1322 (citing Common
Cause, 554 F.3d at 1353–54); see also Crawford, 553 U.S. at 196. But, while the
State’s determination that the witness requirement deters fraud may be reasonable,
the Anderson-Burdick balancing test nonetheless requires the court to “‘determine
the legitimacy and strength of [] [the State’s] interests,’ while also considering ‘the
extent to which those interests make it necessary to burden the Plaintiff[s’] rights.’”
Stein v. Ala. Sec’y of State, 774 F.3d 689, 694 (11th Cir. 2014) (quoting Anderson,
460 U.S. at 789). 54
Based on the evidence at trial, the necessity of the witness requirement in
combating voter fraud is not as clear as the defendants maintain. The plaintiffs
contend that the requirement is unnecessary because it has no impact on the integrity
of an absentee ballot. Doc. 247 at 9. To start, the witnesses play only a minor role
in helping to prevent voter fraud. Witnesses certify only that they watched the
individual sign the affidavit envelope. See Ala. Code 17-11-7(b). As Secretary

54

For this reason, defendant Judge Davis’s contention that the State is “only required to articulate,
not to prove,” a governmental interest, doc. 246 at 12, is unavailing. It is true that “Anderson does
not require any evidentiary showing or burden of proof to be satisfied by the state government.”
Common Cause, 554 F.3d at 1353 (citing Anderson, 460 U.S. at 796). But the State’s legitimate
interests in fraud prevention still “must be weighed against the burden” the Challenged Provision
imposes “to determine whether the interest is ‘sufficiently weighty to justify the limitation.’” Id.
(quoting Crawford, 553 U.S. at 191). It goes without saying that an interest that can merely be
articulated is not weighty.

126
App. 133

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 127 of 197

Merrill and Mr. Helms testified, witnesses need not even know the voter. 9/11/20 at
11; 9/15/20 at 178. Nor do the witnesses have to watch the voter complete the ballot,
presumably to maintain ballot secrecy. Moreover, even if the witness requirement
is a fraud prevention measure, there appears to be little fraud to prevent. Plaintiff
Threadgill-Matthews, for example, testified that she never encountered fraudulent
activity despite serving as an absentee election official for over two decades. 9/9/20
at 8–9.
The plaintiffs further allege that the requirement is ineffective because
election officials do not verify the identity of the witnesses. Doc. 247 at 9. Secretary
Merrill acknowledged this fact at trial. 9/11/20 at 11. Plaintiff Threadgill-Matthews
also confirmed that, in her experience, the review is cursory. 9/9/20 at 8. However,
the State contends that it can use witness signatures to later investigate potential
voter fraud.

Doc. 244 at 10–11.

investigative tool is unclear.

The witness requirement’s efficacy as an

Mr. Gregory Biggs testified that the witness

requirement helped him investigate and prosecute voter fraud cases, but that was
decades ago. 9/16/20 at 10–14. Moreover, Mr. Biggs at times mentioned voter
signatures rather than witness signatures in his testimony, leading the court to
wonder whether he was conflating the two. 55 Setting that aside, an investigative

55

For example, when asked whether the witness signature requirement furthered investigations in
Greene County, Mr. Biggs replied, “Yes. Yes, it did.” 9/16/20 at 10. He explained that if a
signature appeared “suspicious” after “comparing it with a driver’s license,” then investigators
would approach the “victim voter” and ask, “Is this your signature?” Id. “If it’s no, then it’s a
forged signature. So the signatures are one of the many leads or clues that you would use to help

127
App. 134

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 128 of 197

tool’s value is diminished when there are no crimes to investigate. Ms. Woodall, the
Houston County Circuit Clerk, says she finds witness signatures helpful, but the few
recent instances of voter fraud she testified about did not turn on the requirement.
Id. at 71–72, 87–90. What’s more, Ms. Woodall also seemed to conflate the witness
signature requirement with the requirement that voters sign the ballot and
corresponding affidavit. 56

Yet the requirement might at least “inspire public

confidence” in Alabama’s election scheme. Crawford, 553 U.S. at 197. The witness
requirement thus has some marginal utility as a fraud prevention tool.
Additionally, the plaintiffs argue that other laws adequately safeguard
elections in Alabama. Doc. 247 at 9. State law mandates that a voter casting an
absentee ballot complete an application containing “sufficient information to
identify the applicant.” Ala. Code § 17-11-4. Absentee applicants can use their
driver’s license number or the last four digits of the applicant’s social security
number to satisfy this requirement. See 9/15/20 at 176. The defendants correctly

ferret out what was a legal vote or a stolen vote.” Id. This testimony clearly relates to the
requirement that voters sign the ballot themselves, not the challenged witness requirement.
56

When asked whether the witness signature requirement had “any value” in “helping [her] detect
instances of possible voter fraud,” Ms. Woodall testified that it was “extremely helpful.” 9/16/20
at 71–72. She testified that “because you have the signature on the application whereby the voter
is certifying that they’re voting or they are asking for an absentee ballot,” the “signature on the
affidavit envelope is significant and helpful to ensure that you’ve got two signatures, one on the
application, one on the affidavit, that if there is suspicion or concern or complaints, that you have
something to compare to.” Id. at 72. Thus, “that voter [is] saying and affirming that they are the
ones that cast their vote, not someone else’s vote but their own vote.” Id. This testimony clearly
does not concern the witness signature requirement that is challenged in this case. If anything, it
shows that the State can use the voter’s signature alone to discover fraudulent activity.

128
App. 135

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 129 of 197

point out that an AEM could theoretically process an application without that
specific information, doc. 244 at 11, but the AEM could do so only after
satisfactorily identifying the applicant. See Ala. Code § 17-11-4; 9/15/20 at 176.
Furthermore, with certain limited exceptions, a voter must submit a copy of his or
her photo ID with an absentee ballot application. See Pl. Ex. 22. And because the
State apparently maintains a database containing copies of at least some voter
signatures, the State could verify the authenticity of the ballot using the voter’s
signature alone. 9/17/20 at 118. Trial testimony established that some AEMs
already do this before sending absentee ballots to voters. Id. Finally, the affidavit
submitted with absentee ballots requires absentee voters to swear that the
information in the affidavit is true. Ala. Code § 17-11-7. For added protection, the
State makes falsifying absentee ballot applications or verification documents a
felony. Ala. Code § 17-17-24(a); 9/15/20 at 176–78.
Aside from their contention that the witness requirement supplements
investigative tools, the defendants do not dispute that these other requirements are
effective deterrents to voter fraud. See docs. 244 at 10; 245 at 8–9; 246 at 13. In
fact, Secretary Merrill confirmed that a bill his office authored proposing to swap
the witness requirement for absentee ballots with a photo ID requirement would have
strengthened absentee voting laws in Alabama. 9/11/20 at 10–11. Considering the
State’s current photo ID requirement for absentee voter applications—which will
remain in place for absentee voters who are neither disabled nor over age 65—
129
App. 136

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 130 of 197

Secretary Merrill’s statement undermines the legitimacy of the State’s interest in
maintaining the witness requirement to prevent fraud. The fact that persons who are
essentially unknown to a voter can serve as witnesses, 9/11/20 at 11, also undermines
the legitimacy of the witness requirement as an effective fraud deterrent.
In the end, the witness requirement marginally serves the State’s interest in
preventing voter fraud. The court agrees with the Western District of Virginia that
an individual intent on forging the signature of another voter at the risk of a felony
charge would not likely be discouraged from “writing out an illegible scrawl on an
envelope to satisfy the witness requirement.” League of Women Voters of Va. v. Va.
State Bd. of Elections, 2020 WL 2158249, at *9 (W.D. Va. May 5, 2020). Finally,
the court notes that Secretary Merrill testified that Alabama is one of only two states
that impose a double witness requirement on absentee voters. 9/11/20 at 10.
Moreover, only twelve states require even a single witness signature. Common
Cause R.I., 970 F.3d at 15. This underscores that “the incremental interest in . . . the
two-witness or notary rule . . . is marginal at best.” Id. Although the State has a
legitimate interest in preventing voter fraud, the evidence produced at trial shows
that the State’s interests do not justify the burdens that the witness requirement
imposes on vulnerable voters during the COVID-19 pandemic.
As a result, because some voters at risk of severe complications from COVID19 who do not regularly encounter at least two adults simultaneously will be
dissuaded from voting due to the health risks associated with complying with the
130
App. 137

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 131 of 197

witness requirement and the steps necessary to mitigate those risks, the plaintiffs
have proved that the burdens imposed on those voters outweigh the State’s interest
in enforcing the witness requirement.

The witness requirement is therefore

unconstitutional as applied to vulnerable voters who cannot safely satisfy the
requirement during the COVID-19 pandemic.
2.
With exceptions for voters entitled to vote absentee under federal law,
including the Voting Accessibility for the Elderly and Handicapped Act, Alabama
requires absentee voters to provide a copy of their photo identification with their
absentee ballot application and certain absentee ballots. 57 Ala. Code §§ 17-9-30(b),
(d); 17-11-9. The plaintiffs assert that this requirement is unconstitutional as applied
to Thompson and all organizational plaintiffs and their members during the COVID19 pandemic. Doc. 247 at 17. The plaintiffs therefore seek an order enjoining
enforcement of the photo ID requirement. Doc. 75 at 67.

57

Alabama interprets the Voting Accessibility for the Elderly and Handicapped Act to exempt
from the photo ID requirement any voter who is over the age of 65 or has a disability and who is
“unable to access his or her assigned polling place due to a neurological, musculoskeletal,
respiratory (including speech organs), cardiovascular, or other life-altering disorder that affects the
voter’s ability to perform manual tasks, stand for any length of time, walk unassisted, see, hear, or
speak . . . .” See Ala. Admin. Code R. 820-2-9-.12(3); Pl. Ex. 22. The court notes that any voter
over the age of 65 or with a disability who has a symptomatic case of COVID-19, i.e., a respiratory
disorder, would almost certainly qualify for this exception to the photo ID requirement.

131
App. 138

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 132 of 197

a.
Under Anderson-Burdick, the court must first resolve whether the photo ID
requirement sufficiently burdens the right to vote such that strict scrutiny applies.
The plaintiffs allege that the photo ID requirement severely burdens elderly and
disabled voters who are most susceptible to COVID-19. Doc. 247 at 17. For those
vulnerable voters, complying with the requirement could necessitate leaving their
homes and risking exposure to infected persons. Id. The plaintiffs list Thompson
and several Alabama NAACP and People First members as vulnerable voters for
whom obtaining a photocopy requires risking COVID-19 exposure because they do
not have copiers at home.58 Id.; 9/10/20 at 77–78; 9/11/20 at 129. The defendants
respond that the photo ID requirement does not impose a severe burden—or perhaps
any burden, for that matter—to these individuals for the same reasons that the
witness requirement supposedly did not. Docs. 244 at 9–10; 245 at 6; 246 at 14.
Allegedly, free photocopying services provided by third parties like the Mobile
County Public Library provide the plaintiffs a method of satisfying the requirement
that is no riskier than other everyday tasks like grocery shopping. Doc. 245 at 6–7.
58

During trial, the President of the Alabama NAACP also mentioned Joshua Wall as one such
member. 9/10/20 at 82. But unlike the other members described, it is unclear what relevance Mr.
Wall has to the plaintiffs’ as applied challenge to the photo ID requirement. Although he lacks a
photo ID, Mr. Wall does not appear to be particularly susceptible to COVID-19 complications. He
does not have any known medical conditions and is under age 65. Id. at 115–16. Moreover, Mr.
Wall does not possess a photo ID because his religious beliefs preclude him from doing so, not
because of the pandemic. Id. at 115. Thus, any claim based on Mr. Wall’s inability to vote must
be facial, and a facial challenge would of course be barred by the Eleventh Circuit’s ruling in
Greater Birmingham Ministries v. Sec’y of State for Ala., 966 F.3d 1202 (2020).

132
App. 139

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 133 of 197

But, again, the burdens that people accept to feed themselves differ from the
burdens that the Constitution contemplates on voting.

Moreover, there is no

guarantee that these third parties, or even Secretary Merrill’s mobile units, will be
able to service all of Alabama’s vulnerable voters. The Alabama NAACP, which
has similarly offered photocopying during its absentee ballot clinics, expressly stated
that it cannot meet the high demand for photocopying. 9/10/20 at 55–56. The
Alabama NAACP also struggled to educate all vulnerable voters about this program.
Id. at 56. So too has the Mobile County Public Library. 9/16/20 at 133.
Finally, simply asking vulnerable voters to subject themselves to COVID-19
exposure to make a copy of their ID is itself a significant burden. “[E]very potential
exposure is a risk” for those voters. League of Women Voters, 2020 WL 4927524,
at *9. As explained, that burden does not trigger strict scrutiny. See Crawford, 553
U.S. at 206 (Scalia, J. concurring). But even non-severe burdens must be justified
by “relevant and legitimate interests of sufficient weight.” Lee, 915 F.3d at 1318–
19 (citation omitted).
b.
The defendants’ justifications for the photo ID requirement mirror those
offered in support of the witness requirement. They contend that the photo ID
requirement deters voter fraud and safeguards voter confidence. Doc. 244 at 10–11.
To be clear, the State undoubtedly has a legitimate interest in preventing voter fraud.
And, a photo ID requirement serves that interest. Crawford, 553 U.S. at 196–97;
133
App. 140

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 134 of 197

Common Cause, 554 F.3d at 1353–54. Indeed, the Eleventh Circuit in Greater
Birmingham Ministries recently applied the Anderson-Burdick test to find that
Alabama’s fraud prevention interests are generally enough to justify the burdens
imposed by the photo ID law. 966 F.3d at 1223–24. The defendants therefore
contend that Greater Birmingham Ministries closes this matter. See docs. 245 at 9;
246 at 14.
That was a facial challenge to Alabama’s photo ID law, however, and the
present challenge is as applied. See 966 F.3d at 1221 (observing that the plaintiffs
bore “a heavy burden of persuasion” because they broadly attacked the
constitutionality of the photo ID law “in all its applications”) (quoting Crawford,
553 U.S. at 200). Moreover, circumstances have changed dramatically since the
GBM plaintiffs filed that case five years ago. See 966 F.3d at 1208. The photo ID
law is more burdensome as applied to vulnerable voters during a pandemic.
Therefore, the court must consider again whether the significant burden these voters
face is “justified by relevant and legitimate state interests ‘sufficiently weighty to
justify the limitation.’” Crawford, 553 U.S. at 191 (citation omitted).
During the COVID-19 pandemic, and as applied to particularly susceptible
voters, the State’s interest in preserving the photo ID requirement is diminished.
Again, the State already exempts from the requirement voters who are either 65 or
older or disabled, and who cannot access the polls due to a physical infirmity. Ala.
Admin. Code R. 820-2-9-.12(3). The State also has an array of tools to combat voter
134
App. 141

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 135 of 197

fraud. For example, the requirement that a voter provide identifying information—
such as her driver’s license number or the last four digits of her social security
number—with an absentee ballot application provides sufficient information to
identify absentee voters. See Ala. Code § 17-11-4; Pl. Ex. 22 at 19. Although the
defendants suggest that this information could be stolen, doc. 244 at 11, it is unlikely
that a person intent on submitting a fraudulent absentee ballot would find the photo
ID requirement a meaningful deterrent.
Evidence produced at trial confirms that the photo ID requirement’s value is
marginal at best. Mr. Gregory Biggs testified that although he believes the photo ID
requirement is a “proactive way to protect [election] integrity,” it was irrelevant in
the voter fraud cases he prosecuted in the 1990s. 9/16/20 at 24, 36. Ms. Carla
Woodall, the circuit clerk for Houston County, similarly testified that photo IDs were
not useful during an investigation she assisted with several years ago. 9/16/20 at 71.
Ms. Woodall also testified that the photo ID requirement played no role in her
detection of the “red flags” she observed in some relatively recent elections. 9/16/20
at 86–89.
At bottom, based on the evidence produced at trial, the State’s interest in
requiring voters who are either age 65 or older or disabled—a group the State already
exempts when they are infirm—to comply with the photo ID requirement is minimal.
In comparison, the burden on that limited class of voters is significant. The
requirement thus forces some vulnerable voters who wish to vote absentee to choose
135
App. 142

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 136 of 197

between exercising their fundamental right and protecting themselves from the virus.
To be sure, some of these vulnerable voters will choose to accept that risk and vote
in person—that is their prerogative. But for others, the risks will be too high, and
“even one disenfranchised voter . . . is too many.” Lee, 915 F.3d at 1321 (citation
omitted). Accordingly, the photo ID requirement violates the First and Fourteenth
Amendment rights of those voters who are either age 65 or older or disabled during
the pandemic.
3.
The CDC recommends that election administrators offer curbside voting as an
alternative to in person voting during the COVID-19 pandemic. Pl. Ex. 451 at 11.
In the past, several Alabama counties have provided this service for disabled citizens
who need assistance voting, but each time Secretary Merrill has intervened to stop
the service. 9/11/20 at 37–38, 40–41. The plaintiffs contend that this de facto ban
on curbside voting unconstitutionally burdens their right to vote by requiring them
to enter polling places and thereby increase their risk of exposure to the coronavirus.
See doc. 247 at 22. On the other hand, the defendants say that curbside voting is
illegal under Alabama law, incompatible with maintaining ballot secrecy, and

136
App. 143

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 137 of 197

impracticable.59 Docs. 244 at 11; 246 at 8. In deciding this challenge, the court
applies what is by now the all too familiar Anderson-Burdick balancing test.
a.
The court begins by determining whether the curbside voting ban’s burdens
are severe enough to trigger strict scrutiny. The plaintiffs predictably say it does,
doc. 247 at 22, but the court is not convinced. Trial evidence shows that the curbside
voting ban burdens the organizational plaintiffs’ members at some level. Many
Alabama NAACP members, for example, are older adults who are vulnerable to
COVID-19 and thus want to minimize their exposure to the virus. 9/10/20 at 59.
Other Alabama NAACP members have ambulatory issues that make polling places
difficult for them to navigate. Id. These characteristics also apply to some members
of GBM and People First. 9/9/20 at 134–35, 139–40; 9/11/20 at 106–107.
The defendants have two responses. First, they say that these voters can avoid
polling places by voting absentee. Doc. 244 at 10. However, that assumes the
plaintiffs can comply with the witness and photo ID requirements, which some
cannot do without risking their health, as explained above. Moreover, the plaintiffs
showed at trial that some disabled voters, including some members of People First,
have strong reasons to vote in person, rather than by absentee ballot, to receive

59

The court notes briefly that Alabama law does not prohibit jurisdictions from implementing
curbside voting when it can be done consistently with the State’s other election laws. This is
explained in Section II(E)(2)(d), infra.

137
App. 144

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 138 of 197

assistance from poll workers. One of People First’s members, Jenny Lux, testified
that she needs assistance on Election Day due to her visual impairment. 9/11/10 at
172. Ms. Lux cannot vote absentee because she does not regularly encounter two
adults to serve as witnesses and because obtaining notarization from her bank would
require Ms. Lux to go indoors, where she might expose herself to the virus. Id. at
181. And, as the evidence at trial showed, standing in line at a polling place poses
the same risk. That’s particularly true for Ms. Lux because she often votes using an
Automark machine, which requires her to spend more time at the polls than other
voters. Id. at 174. Curbside voting would minimize the risk of exposure to COVID19 facing voters like Ms. Lux.
Second, the defendants contend that voting in person is not burdensome even
for vulnerable voters because election officials are taking steps to mitigate the risks.
Doc. 244 at 10. This includes requiring poll workers to wear masks, purchasing
masks to provide to voters, purchasing sanitizing products, and enforcing social
distancing. 9/17/20 at 160. But these commendable efforts can only do so much.
Election officials are barred from requiring voters to wear masks while voting.
9/16/20 at 110. They cannot require temperature checking. Id. Not even voters who
have COVID-19 can be turned away from the polls, id., because these voters also
have a right to vote. This obviously increases the risk vulnerable voters will face
when visiting indoor polling places. However, election officials do at least have a
plan for isolating voters who are unwilling to comply with public health guidelines.
138
App. 145

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 139 of 197

Probate Judge Bill English, for example, testified that he will segregate voters who
decline to wear a mask once they enter the building. 9/17/20 at 161–62. Such voters
will either be directed to a designated area away from other voters or required to
wait outside until other voters have left the polls. Id.
These precautions mitigate the risks associated with voting in person such that
strict scrutiny is inapplicable, but it does not follow that “the lack of curbside voting
is no burden.” Doc. 244 at 10. Even with precautions indoors, a vulnerable voter
could encounter an unmasked individual before entering the polling place. Judge
English testified that unmasked voters waiting for others to clear out of polling
places will do so at the entrance, which could place them in proximity with
vulnerable voters entering and exiting the polls. 9/17/20 at 161. Moreover, even
masked, face-to-face interactions impose some level of risk that might dissuade
justifiably cautious persons from voting. See League of Women Voters, 2020 WL
4927524, at *9.
b.
The defendants offer a handful of interests to justify the significant burden
that the curbside voting ban imposes. For starters, they contend that allowing
curbside voting would “corrupt the process.” Doc. 244 at 11. Allegedly, the
“practicalities” of curbside voting “would harm Alabama’s interests in orderly
elections and in ensuring ballot secrecy.” Id. But several Alabama counties had
already adopted the practice before Secretary Merrill intervened to stop them. No
139
App. 146

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 140 of 197

evidence suggests that doing so compromised either the orderliness of those
elections or ballot secrecy. 9/11/20 at 37–42; 9/15/20 at 194–95. To the contrary,
evidence showed that curbside voting would further ballot secrecy for some voters.
Ms. Lux testified that voting in person using an Automark machine required poll
workers to supervise her voting. 9/11/20 at 179. On at least one occasion, a poll
worker scoffed at her political choices. Id. Voting from the privacy of a vehicle
certainly would have been more secretive for Ms. Lux.
Finally, the defendants note that requiring curbside voting would raise
“massive logistical problems” where the practice was implemented. Doc. 246 at 8.
These problems include “cost, personnel, geographical constraints, weather,
integrity of the ballot, secrecy of the ballot, traffic and time limitations.” Id. But
this court has explained that the plaintiffs seek only a negative injunction barring
Secretary Merrill from preventing curbside voting, not a positive one requiring its
implementation. Doc. 58 at 50; see also doc. 75 at 78. The defendants recognize as
much. Doc. 246 at 8 n.7. Under the plaintiffs’ requested relief, the only counties
that will implement curbside voting are those that determine they can do so
practically and consistently with Alabama law.

The defendants’ pragmatic

objections are thus irrelevant to the court’s balancing analysis.
In conclusion, the plaintiffs have shown that the curbside voting ban imposes
a significant burden on vulnerable voters during the COVID-19 pandemic. The
State, in contrast, has not provided “relevant and legitimate state interests
140
App. 147

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 141 of 197

‘sufficiently weighty to justify the limitation.’” Crawford, 553 U.S. at 191 (citation
omitted). Therefore, the curbside voting ban unduly burdens the fundamental right
to vote in violation of the First and Fourteenth Amendments.
*

*

*

Consistent with the above discussion and findings, the court makes the
following conclusions of law regarding the plaintiffs’ constitutional claims pleaded
in Count I:
1.

The plaintiffs established that, during the pandemic and as applied to

voters who are particularly susceptible to COVID-19 complications, the witness
requirement imposes a significant burden on their rights and the rights of their
members. Because the State’s interests in maintaining the witness requirement do
not justify those burdens, the requirement violates the First and Fourteenth
Amendments.
2.

The plaintiffs established that, during the pandemic and as applied to

voters who are particularly susceptible to COVID-19 complications because they are
either age 65 or older or disabled, the photo ID requirement imposes a significant
burden on their voting rights and the rights of their members. Because the State’s
interests in maintaining the photo ID requirement do not justify those burdens, the
requirement violates the First and Fourteenth Amendments.
3.

The plaintiffs established that, during the pandemic and as applied to

voters who are particularly susceptible to COVID-19 complications, the curbside
141
App. 148

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 142 of 197

voting ban imposes a significant burden on their voting rights and the rights of their
members. Because the State’s interests in maintaining the curbside voting ban do
not justify those burdens, the policy violates the First and Fourteenth Amendments.
E.
The plaintiffs assert in Count II that the photo ID requirement, as applied in
the COVID-19 pandemic, violates Title II of the ADA and that the curbside voting
ban violates the ADA as applied during the pandemic and also outside of the
pandemic. Doc. 75 at 68-71. The court will begin its analysis by addressing the
plaintiffs’ facial challenge to the curbside voting ban after first outlining the legal
framework applicable to Title II ADA claims.
To establish a claim under Title II, the plaintiffs must demonstrate: “(1) that
[they are] ‘qualified individual[s] with a disability;’ (2) that [they were] ‘excluded
from participation in or . . . denied the benefits of the services, programs, or activities
of a public entity’ or otherwise ‘discriminated [against] by such entity;’ 60 (3) ‘by
reason of such disability.’” Shotz v. Cates, 256 F.3d 1077, 1079 (11th Cir. 2001)
(quoting 42 U.S.C. § 12132).61 A plaintiff is a qualified individual if she “meets the
essential eligibility requirements” to participate in the program or services at issue
60

A “public entity” is “any State or local government [or] any department, agency . . . or other
instrumentality of a State or States or local government.” 42 U.S.C. § 12131(1). The defendants
here do not dispute that they qualify as public entities. See docs. 244; 245; 246.
61

The court discussed the legal framework for the plaintiffs’ Title II claims in its memorandum
opinion granting the motion for a preliminary injunction, see doc. 58 at 51-69, and the court revisits
it only to the extent necessary to explain its analysis.

142
App. 149

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 143 of 197

“with or without reasonable modifications . . . .” United States v. Georgia, 546 U.S.
151, 153–54 (2006) (quoting 42 U.S.C. § 12131(2)). To meet the second prong,
exclusions under Title II need not be absolute, and a public entity violates Title II
when a disabled person cannot readily access the program, service, or benefit at
issue. Shotz, 256 F.3d at 1080 (citing 28 C.F.R. § 35.150). However, mere difficulty
in accessing a benefit is not, by itself, a violation of the ADA. See Bircoll v. MiamiDade Cty., 480 F.3d 1072, 1088 (11th Cir. 2007). The third prong of the Title II
claim requires the plaintiffs to establish a causal link between their disabilities and
the exclusion, denial of benefits, or discrimination. See Bircoll, 480 F.3d at 1081,
n.11; Schwarz v. City of Treasure Island, 544 F.3d 1201, 1212 n.6 (11th Cir. 2008).
To the extent the plaintiffs succeed in making a prima facie case of
discrimination, they must then “propose a reasonable modification to the challenged
public program that will allow them the meaningful access they seek.” Nat’l Fed’n
of the Blind v. Lamone, 813 F.3d 494, 507 (4th Cir. 2016). This burden is “not a
heavy one . . . [i]t is enough for the plaintiff[s] to suggest the existence of a plausible
accommodation, the costs of which, facially, do not clearly exceed its benefits.”
Henrietta D. v. Bloomberg, 331 F.3d 261, 280 (2d Cir. 2003). Nevertheless, the
ADA does not require public entities to make modifications “that would impose an
undue financial or administrative burden . . . .” Tennessee v. Lane, 541 U.S. 509,
532 (2004) (citing 28 C.F.R. §§ 35.50(a)(2), (a)(3)).

143
App. 150

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 144 of 197

1.
The plaintiffs assert a facial challenge to the curbside voting ban, contending
that the de facto ban violates the ADA outside of the COVID-19 pandemic because
some polling sites in the State are physically inaccessible to voters with disabilities.
Docs. 75 at 71; 247 at 24-25. Specifically, the plaintiffs contend that testimony from
trial reveals that Dr. Peebles’s, Mr. Porter’s, and Ms. Lux’s polling places are not
readily accessible to them.62 Doc. 247 at 24.
a.
Dr. Peebles, who has cerebral palsy and uses a wheelchair, testified that he
typically votes in person at his polling site and did so in the March 2020 primary.
9/8/20 at 124, 129. To access the site, which is located in a hotel, Dr. Peebles must
go through the main lobby and use an elevator with the assistance of a caregiver. Id.
at 131. The plaintiffs contend that Dr. Peebles’s polling site is inaccessible because
he cannot operate the elevator by himself, and they suggest that his need for
assistance means the elevator is not “useable” by Dr. Peebles, as required by the
relevant regulations. Doc. 247 at 24 (citing 28 C.F.R. §35.133(a)). However, the
plaintiffs have not provided any authority to support the contention that a person
with a disability must be able to use the features of a facility, such as an elevator,

62

The court found that Dr. Peebles and Mr. Porter do not have standing to challenge the curbside
voting ban because a decision in their favor would not redress their injuries. See section
II(A)(3)(b). The court addresses the merits of their claim in the alternative for purposes of a
potential appeal.

144
App. 151

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 145 of 197

without assistance in order for those features to be accessible, see doc. 247, and the
court is aware of no such authority. And, Dr. Peebles testified that although “[t]here
are some issues [] with whether there is enough room for [him] to activate the button
on the elevator and then, turn, back out or pull out of the elevator without risking
being hit by the door,” he has “always [been] able to vote” at his polling site with
assistance. 9/8/20 at 131, 153. Moreover, the plaintiffs did not present evidence
that any aspect of the hotel, including its lobby and elevator, runs afoul of applicable
ADA regulations.
b.
Mr. Porter has Parkinson’s disease, which causes him to have difficulty
walking, and he uses a cane to walk. 9/14/20 at 64-68. He testified that he normally
votes in person at his polling site, and he voted in person in March. Id. at 76. At his
polling site, Mr. Porter’s disability license plate or placard allows him to park in a
disabled parking space, but he still has to walk approximately 100 – 150 feet to enter
the site, which proves challenging for him. Id. at 68, 77. Although the court does
not discount the difficulty walking that distance may present Mr. Porter, his
testimony that “[a]s time goes on, the greater the challenge to walk any distance” is
not sufficient, without more, to show that his polling site is inaccessible to him or
does not comply with the ADA.

145
App. 152

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 146 of 197

c.
Ms. Lux normally votes in person at her polling site. 9/11/20 at 171. She
changed residences recently and is not sure if her new polling site is ADA compliant.
Id. at 171, 177. At her former polling site, Ms. Lux had to sit down while waiting
because she could not stand in line for a long period due to issues with balance and
her back. Id. at 171-75. In addition, Ms. Lux had to “walk a long distance” to get
into her former polling place via a ramp. Id. at 177. But, as with Mr. Porter’s
testimony, Ms. Lux’s testimony is not sufficient without more to show that the site
was not accessible to her or not compliant with the ADA.
d.
The plaintiffs attempt also to establish that two polling sites, the Snowden’s
Women’s Center in Montgomery County and Lowndesboro C.M.E. in Lowndes
County, are not ADA compliant by introducing photos of the sites from Google
Street View and a Lowndesboro, Alabama website. See 9/10/20 at 62-71; Pl. Exs.
460; 462. But, the photo from the Women’s Center is dated July 2019, and it does
not provide any information about the current condition of the site. Pl. Ex. 462. The
photo of Lowndesboro C.M.E. is undated, and the plaintiffs did not provide evidence
regarding the current condition of the site. Pl. Ex. 460; 9/10/20 at 121-22. As a
result, the plaintiffs failed to establish that the polling sites pictured do not comply
with ADA regulations.

146
App. 153

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 147 of 197

To close, based on the evidence adduced at trial, the plaintiffs have not
established that any polling site in Alabama is physically inaccessible to voters
outside of the COVID-19 pandemic. Consequently, the defendants are entitled to a
judgment in their favor on the plaintiffs’ facial challenge to the curbside voting ban
under Title II of the ADA.
2.
The plaintiffs also assert that the curbside voting ban violates the ADA as
applied in the COVID-19 pandemic because in-person voting is not accessible to
voters with conditions that place them at high risk from COVID-19. Doc. 75 at 6871. The defendants challenge whether the plaintiffs have established the elements
of their prima facie case under the ADA and whether permitting curbside voting is
a reasonable accommodation.
a.
An individual has a disability under the ADA if, among other things, she has
“[a] physical or mental impairment63 that substantially limits one or more of the
major life activities of such individual . . . .” 42 U.S.C § 12102(1). The ADA’s
implementing regulations direct that “[t]he definition of ‘disability’ shall be
construed broadly in favor of expansive coverage, to the maximum extent permitted

63

“Physical or mental impairment means: (i) Any physiological disorder or condition . . . affecting
one or more body systems . . . ; or [] [a]ny mental or psychological disorder such as intellectual
disability . . . .” 28 C.F.R. § 35.108(b)(1)(i).

147
App. 154

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 148 of 197

by the terms of the ADA.” 64 Id. at § 35.108(a)(2)(i). The regulations also expressly
provide that physical or mental impairments include “visual, speech, and hearing
impairments, and cerebral palsy, . . . heart disease, diabetes, [and] intellectual
disability,” while major life activities include “walking . . . , interacting with others,
and working . . . .” Id. at §§ 35.108(b)(2), (c)(1)(i). Finally, “‘substantially limits’
shall be construed broadly . . . [and] is not meant to be a demanding standard.” Id.
at § 35.108(d)(1)(i).
Turning to the specifics here, the individual plaintiffs are eligible voters, and
each has a recognized physical impairment: Dr. Peebles has cerebral palsy, Mr.
Porter has asthma and Parkinson’s Disease, Ms. Threadgill-Matthews has
hypertension, and Ms. Thompson and Ms. Bettis 65 have diabetes and hypertension.
9/8/20 at 114, 116, 168-69; 9/9/20 at 10; 9/14/20 at 6-7, 64-68. In addition, People
First, GBM, and the NAACP have all identified members who are eligible voters

64

“Because Congress explicitly authorized the Attorney General to promulgate regulations under
the ADA, see 42 U.S.C. § 12134(a), the regulations ‘must [be given] legislative and hence
controlling weight unless they are arbitrary, capricious, or plainly contrary to the statute.’” Shotz,
256 F.3d at 1079 n.2 (quotation omitted).
65

Ms. Bettis testified that she currently takes only over-the-counter supplements to treat her
diabetes and hypertension. 9/14/20 at 6-7. Nevertheless, under the applicable ADA regulations,
“[a]n impairment that is . . . in remission is a disability if it would substantially limit a major life
activity when active.” 28 C.F.R. § 35.108(d)(1)(iv).

148
App. 155

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 149 of 197

with physical impairments.66, 67 See 9/9/20 at 129-30, 166-67; 9/10/20 at 81, 111;
9/11/20 at 106-07, 137-38, 172, 175, 164.
To be disabling under the ADA, the plaintiffs’ impairments must substantially
limit a major life activity. The State defendants contend that the plaintiffs are not
disabled under the ADA because the “[p]laintiffs’ own choices—not a ‘physical or
mental impairment’—limit their major life activities.” Doc. 244 at 5. But, this blithe
assertion ignores the stark reality of the COVID-19 pandemic and downplays the
risks exposure to the deadly virus present to the plaintiffs. Indeed, based on the risks
from exposure to COVID-19, the CDC advises people with underlying conditions,
like the plaintiffs, to limit interactions with people outside of their households as
much as possible and to avoid others who are not wearing masks. See Agreed Facts
at ¶ 62; Pl. Ex. 270 at 8. This CDC guidance supports a finding that it is the
plaintiffs’ or their members’ underlying medical conditions, not their personal
choices, that impact their ability to interact with others or work during the COVID-

66

As discussed above, the plaintiff have not identified any members of BVM, and BVM operates
through a network of partner organizations rather than through members of its own. See section
II(A)(1)(b), supra. And, the plaintiffs have not cited any authority for the proposition that an
organization may assert ADA claims for injunctive relief on behalf of non-member constituents.
Thus, BVM’s claims under the ADA fail, and the defendants are entitled to judgment in their favor
on those claims.
67

Judge Davis asserts that organizations cannot maintain ADA claims on behalf of their members,
doc. 246 at 11, but he cites no authority for that proposition. And, at least one other district court
in this Circuit has concluded that an organization has associational standing to pursue ADA claims
for injunctive and declaratory relief on behalf of its members. See Wein v. American Huts, Inc.,
313 F. Supp. 2d 1356, 1361-62 (S.D. Fla. 2004).

149
App. 156

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 150 of 197

19 pandemic. And, because the ADA must be broadly construed, see Kornblau v.
Dade County, 86 F.3d 193, 194 (11th Cir. 1996) (citations omitted), the court must
consider the circumstances and impact of the State’s current public health
emergency when determining whether the plaintiffs’ physical impairments
substantially limit a major life activity. Put differently, as Judge Dee Drell aptly
stated, “[t]he determination of a qualifying disability in this case cannot be looked
at in a vacuum.” Silver v. City of Alexandria, -- F. Supp. 3d --, 2020 WL 3639696
(W.D. La. July 6, 2020). Thus, the court concludes that in the context of the COVID19 pandemic, the plaintiffs’ or their members’ physical impairments are a qualifying
disability under the ADA because their impairments substantially limit the major life
activities of interacting with others or working.68
b.
i.
Next, the plaintiffs contend that, in the context of the COVID-19 pandemic,
the individual plaintiffs and the disabled members of the organizational plaintiffs are
excluded from voting in person due to the de facto ban on curbside voting. Doc. 75
The defendants counter that, even if the plaintiffs do not want to risk exposure to
COVID-19 by voting in-person at a polling place, they are not excluded from voting

68

Whether the plaintiffs’ impairments constitute a disability under the ADA is a legal conclusion.
See Pritchard v. Southern Co. Serv., 92 F.3d 1130, 1133 (11th Cir. 1996). Consequently, contrary
to the defendants’ contention otherwise, it is of limited import that some plaintiffs described
themselves as not disabled at trial.

150
App. 157

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 151 of 197

because they can vote absentee. See doc. 244 at 6. But, based on the ADA’s broad
remedial purpose, if a state provides voters with a choice between in-person and
absentee voting, then the ADA mandates that both options be accessible to voters
with disabilities. See Nat’l Fed’n of the Blind, 813 F.3d at 503-04; Disabled in
Action v. Bd. of Elections in New York, 752 F.3d 189, 198-99 (2d Cir. 2014); see
also doc. 58 at 68, n.46; 28 C.F.R. § 35.130(b)(1)(ii). Indeed, “[t]he Supreme Court
has cautioned against defining the scope of a public benefit so as to avoid questions
of discriminatory effects,” noting that, “‘the benefit itself, of course, cannot be
defined in a way that effectively denies otherwise qualified handicapped individuals
the meaningful access to which they are entitled.’” Nat’l Fed’n of the Blind, 813
F.3d at 504 (quoting Alexander v. Choate, 469 U.S. 287, 301 (1985)).69
In addition, the availability of absentee voting does not make voting
accessible to some members of People First, such as Ms. Lux, because those voters
require assistance to vote and should not be forced to give up their privacy to obtain
help from someone who, unlike a poll worker, does not have an affirmative
obligation to maintain their ballots’ secrecy. 70 9/8/20 at 124-25; 9/11/20 at 137-38,

69

Alexander v. Choate involved a claim brought under the Rehabilitation Act, but “[c]ases decided
under the Rehabilitation Act are precedent for cases under the ADA, and vice-versa.” Cash v.
Smith, 231 F.3d 1301, 1305 n.2 (11th Cir. 2000) (citation omitted), superseded by statute on other
grounds as stated in Seals v. Lee Brass Foundry LLC, 271 F. Supp. 3d 1302, 1322 (N.D. Ala.
2017).

70

To be sure, Ms. Lux testified that one poll worker scoffed at her political choice for president in
2008. While inappropriate, the conduct Ms. Lux described does not show that the poll worker
breached the ballot’s secrecy. See 9/11/20 at 179.

151
App. 158

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 152 of 197

172, 179; see also Ala. Code. §§ 17-6-34; 17-8-8. Also, absentee voting does not
provide a fail-safe that guarantees vulnerable voters a chance to cast a ballot. For
example, Mr. Porter, Ms. Thompson, and Ms. Bettis all testified that they could not
complete the absentee ballot process for the July election due to timing issues or
other mistakes, 9/8/20 at 174-75; 9/14/20 at 18, 40-41, 78, and Ms. Ellis testified
that some members of People First are unable to fill out an application or an absentee
ballot because of their disabilities, see 9/11/20 at 136-38.
Moreover, the availability of in-person absentee voting at an AEM’s office
does not necessarily provide an adequate substitute for voting at a polling place on
Election Day. Under the ADA, “[a] public entity, in providing any [] service, may
not, . . . on the basis of disability . . . [a]fford a qualified individual with a disability
an opportunity to participate in or benefit from the [] service that is not equal to that
afforded others; [or] . . . that is not as effective . . . as that provided to others . . . .”
28 C.F.R. § 35.130(b)(1)(ii). Absentee ballots completed at an AEM’s office are not
counted as they are cast, but are stored until poll workers begin counting them after
noon on Election Day. 9/15/20 at 139-40; 9/17/20 at 127-28, 148. And there is no
guarantee that an in-person absentee vote would not be rejected when the counting
of those ballots commences on Election Day. Consequently, a voter does not receive
confirmation that her vote was counted when she casts a ballot at the AEM’s office,

152
App. 159

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 153 of 197

and that confirmation has a special significance for many voters. 71 Thus, voting by
absentee ballot in person at an AEM’s office is not equal to voting at the poll on
Election Day.
For all of these reasons, the court finds that the proper inquiry to determine
whether the plaintiffs have been excluded from voting is whether the curbside voting
ban excludes them from voting in-person on Election Day, instead of whether it
excludes them from voting in general.
ii.
To establish an exclusion for purposes of Title II, the plaintiffs do not have to
show that they are prohibited from voting in person, but only that voting in person
is not “readily accessible” to them. See Shotz, 256 F.3d at 1080 (citing 28 C.F.R.
§ 35.150). Relevant to the analysis here, aerosolized droplets containing SARSCoV-2 may linger in stagnant air for several minutes, and the risk of transmission of
COVID-19 is heightened in indoor spaces where many people share a space for a
period of time, such as at a polling site. 9/8/20 at 17-18, 46-47; Pl. Ex. 269 at ¶¶ 10,
19-20. Thus, traditional in-person voting presents a heightened risk of exposure to
COVID-19, and several of the plaintiffs’ experts opined that vulnerable voters with
underlying conditions should not vote in person due to that risk of exposure. Those

71

Mr. Douglas, the executive director of GBM, testified that GBM’s members, especially its Black
members, have “a tradition of voting in person” to ensure acceptance of their ballots and confirm
their “vote[s] counted in real time.” 9/9/20 at 113. As Mr. Douglas stated, “There’s a pride in
that.” Id.

153
App. 160

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 154 of 197

opinions find support from Dr. Cotti’s study and report, which revealed that counties
in Wisconsin that had higher numbers of in-person votes cast per polling place had
a higher rate of COVID-19 spread at a community level after the state’s April
primary. 9/10/20 at 156, 174; Pl. Ex. 267 at 3.
The risk of COVID-19 transmission is amplified in Alabama because, as
noted above, poll workers in Alabama cannot check voters’ temperatures, turn away
voters who do not wear masks, or turn away voters who have a known case of
COVID-19. See 9/8/20 at 31, 48-49; 9/16/20 at 110; 9/15/20 at 202. Thus, even
with all the precautions State and county officials have taken to protect voters during
the pandemic, such as requiring poll workers to wear masks, providing masks to
voters who want them, and sanitizing, the plaintiffs or their vulnerable members still
may be confronted with unmasked or visibly sick voters at their polling sites, which
may dissuade them from voting in person. Indeed, Mr. Porter testified, for example,
that he did not vote in July after not receiving an absentee ballot because he could
not risk exposure to COVID-19 at his polling site. 9/14/20 at 78; see also 9/8/20 at
175; 9/14/20 at 22. The risk of COVID-19 exposure from in-person voting also
increases for voters with disabilities, such as Ms. Lux, who require assistance at the
polls, which prolongs the process of voting. See 9/11/20 at 175.
Taken together, all of this evidence shows that voting in person on Election
Day is not readily accessible to the plaintiffs or their members with disabilities
during the COVID-19 pandemic.
154
App. 161

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 155 of 197

iii.
Nevertheless, the defendants suggest that voting in person is readily accessible
to the plaintiffs because going to their polling places is no riskier than other
interactions the plaintiffs have had outside their homes. Doc. 244 at 6. Certainly,
the plaintiffs have left their homes to attend medical appointments for themselves
and loved ones, go to the office, pick up food and groceries, travel to a lawyer’s
office, take a pet who requires care to a veterinarian and groomer, and do essential
errands. See 9/8/20 at 12-23, 169, 171, 173, 199; 9/9/20 at 11-12, 26-27; 9/14/20 at
17, 33-35, 71-72. But, when the plaintiffs leave their homes, they wear masks,72
practice social distancing, use gloves or hand sanitizer, and take other steps to
minimize their risks, such as shopping during “senior hours.” 9/8/20 at 170-73, 193,
228; 9/9/20 at 11-12; 9/14/20 at 10-11, 35-36, 75. But, more to the point, the
plaintiffs should not be required to show that they avoided all contact with people
outside their homes and remained sequestered for the past six months for them to
prove that voting in person is not readily accessible due to the risk of exposure to
COVID-19. And, as mentioned above, the burden a person may have to accept to
tend to his or his family’s essential needs in a pandemic is different in kind from the
burden he should have to tolerate to access his polling place to exercise the

72

Dr. Peebles did not wear a mask during a high-stress meeting for an unrelated case in order to
have access to water, but all the other people in the meeting wore a mask, and they remained more
than six-feet apart in the meeting. 9/8/20 at 116-22; 133-34.

155
App. 162

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 156 of 197

fundamental right to vote. See League of Women Voters of Va., 2020 WL 4927524,
at *9. Thus, the plaintiffs’ limited activities outside of their homes do not establish
that their polling sites are readily accessible to them on Election Day.
c.
To satisfy the last element of their prima facie case, the plaintiffs must
establish a causal link between their disabilities and their exclusion from voting. See
Bircoll, 480 F.3d at 1081, n.11; Schwarz v. City of Treasure Island, 544 F.3d 1201,
1212 n.6 (11th Cir. 2008). In their post-trial brief, the State defendants contend that
the plaintiffs cannot satisfy this element because no plaintiff has shown that he or
she is “actually limiting their trips out of the home and personal contact with others.”
Doc. 244 at 7 (emphasis in original omitted). But, respectfully, this is a gross
mischaracterization of the plaintiffs’ testimony. As detailed above, the individual
plaintiffs testified at length about steps they have taken to reduce contact with people
outside their homes. See section I(E)(1), supra. For example, Ms. Bettis went so
far as to miss the funeral of a close friend’s son to avoid contact with others at the
funeral. 9/14/20 at 11. And, the court rejects the notion that the plaintiffs must prove
they have forsaken all interactions with people outside their homes during the course
of the pandemic before they can show a causal link between the conditions that make
them vulnerable to COVID-19 and their exclusion from the polls.
Undisputed evidence establishes that the CDC recommends that people like
the plaintiffs or their members with underlying conditions minimize their contact
156
App. 163

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 157 of 197

with others outside of their homes and avoid people who are not wearing masks. Pl.
Ex. 270 at 8. In addition, the plaintiffs’ experts also recommend that vulnerable
voters should not risk going inside a polling place to vote in November. 9/8/20 at
46-48; 9/9/20 at 38, 56-57. Based on the CDC guidance, the expert opinions, and
the risk of COVID-19 transmission indoors, see 9/9/20 at 31; section I(A), supra,
the court finds a causal connection between the plaintiffs’ impairments that make
them vulnerable to COVID-19 and the inaccessibility of their polling sites during
the COVID-19 pandemic. Thus, the plaintiffs have established a prima facie case
for their Title II claims challenging the curbside voting ban as applied in the
pandemic.
d.
The final step in the analysis is a review of the reasonable accommodation the
plaintiffs propose “that will allow them the meaningful access they seek.” Nat’l
Fed’n of the Blind, 813 F.3d at 507. The plaintiffs propose lifting the ban on curbside
voting as an accommodation to make in-person voting more accessible to voters with
disabilities. The defendants argue that permitting curbside voting is not a reasonable
accommodation because curbside voting violates Alabama law or would constitute
a fundamental change to Alabama’s voting laws. 73 Docs. 244 at 8; 246 at 7-9. Based

73

In their opposition to the plaintiffs’ motion for partial summary judgment, the State defendants
contend that permitting curbside voting is not a reasonable modification because Alabama law
already provides a modification for the plaintiffs, i.e., “[a]ny voter who is ‘mobility disabled’ or
over the age of 70, who so requests, may move to the front of the line at the polling place.” Doc.
206 at 24 (citing Ala. Code 17-9-13(c)). But, this law does nothing for the plaintiffs who are under

157
App. 164

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 158 of 197

on the evidence, the court concludes the plaintiffs’ proposed accommodation is
reasonable.
First, to reiterate, the plaintiffs do not request an order mandating curbside
voting state-wide, but only an order enjoining Secretary Merrill from prohibiting
curbside voting in counties willing to implement the practice. Thus, the defendants’
arguments regarding the burdens imposed by the resources required to implement
curbside voting are inapposite here.
Second, no provision of Alabama law expressly prohibits curbside voting. See
Agreed Facts at ¶ 110; 9/15/20 at 184. Relatedly, the defendants point out that no
provision expressly allows it either, and assert that, therefore, curbside voting runs
afoul of Alabama law. 9/11/20 at 70; 9/15/20 at 184. However, curbside, or driveup, voting is a form of in-person voting (which State law of course permits)—the
practice involves a voter who is present in person to sign the poll book, complete a
ballot, and give it a poll worker, who then inserts it into a tabulation machine. 74 See
9/11/20 at 175-76; 9/14/20 at 79; 9/15/20 at 157-58. And, simply because no
provision of Alabama law explicitly states that a voter may cast a ballot in person

70 and not mobility disabled, and who have underlying conditions, such as Ms. Bettis and Ms.
Threadgill-Matthews. And, even for plaintiffs who could benefit from this law to go to the front
of the line, they still must go inside their polling place to cast a ballot, risking exposure to other
voters.
74

Because the voter is present to cast a ballot in person, curbside voting is fundamentally different
in kind from voting remotely by text, phone, or email, and the defendants’ arguments drawing
comparisons between curbside voting and voting remotely, see doc. 246 at 8, are strawmen that
the court will not address.

158
App. 165

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 159 of 197

from a car with the help of poll workers does not mean that the practice is prohibited
by law. Indeed, Alabama law expressly provides that poll workers may assist voters
who request help completing their ballots. See Ala. Code §§ 17-9-11; 17-9-13; 178-1(b)(4). Moreover, the defendants admit that AEMs can hold events outside of
their offices to process and collect absentee ballots, and they encourage the practice,
even though Alabama Code provides that “[t]he county commission shall designate
the place or office where [the AEM’s] duties shall be performed.” Ala. Code § 1711-2; 9/11/20 at 48-50. To state the obvious, no provision of the Code on absentee
voting explicitly provides that an AEM may travel to nursing homes, college
campuses, or parking lots, to accept absentee ballots, see Ala. Code §§ 17-11-1 –
17-11-19, as Secretary Merrill encourages AEMs to do to make the process more
accessible to voters, see 9/11/20 at 48-49. Thus, just as an AEM may lawfully hold
events to collect absentee ballots that are not expressly contemplated by Alabama
Code, so too may counties, if they are so inclined, lawfully provide curbside voting
as a service to voters. Similarly, because curbside voting is a form of in-person
voting, it would not fundamentally alter elections in Alabama.
The defendants also contend that counties cannot offer curbside voting
because the Alabama legislature has not granted counties the authority to implement
the practice, which the defendants add may “undercut Alabama’s interest in secure
and uniform elections.” Docs. 244 at 8; 246 at 8. These contentions are unavailing.
First, the Alabama legislature has expressly authorized counties to conduct elections,
159
App. 166

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 160 of 197

including by selecting and operating polling sites for in-person voting.75 See Ala.
Code §§ 17-1-1, et. seq. Thus, because curbside voting is a form of in-person voting
at a polling site, counties may implement the practice without a grant of additional
authority from the legislature. Next, the defendants did not present any evidence
that curbside voting that complies with relevant State laws would be less secure than
traditional forms of in-person voting. See 9/11/20 at 37-39, 42; 9/15/20 at 194-95.
Rather, they simply speculated that nefarious poll workers may decide to throw away
ballots instead of putting them in the tabulation machine if the ballots are removed
from a voter’s line of sight. See 9/15/20 at 148-59. But, poll workers take an oath
to maintain the integrity of elections by complying with relevant laws, see Ala. Code
§ 17-8-8; doc. 248- at 148-126, ¶ 8.4.4, and should be trusted to take that oath
seriously. In addition, Alabama’s voting practices are already decentralized across
the State, with different counties utilizing different procedures. For example, not
every county utilizes electronic pollbooks to verify voters at polling sites, and county
probate judges determine how to lawfully handle “voting logistics” in their counties.
See 9/15/20 at 167, 186. Therefore, allowing counties, who believe they can do so
without impacting ballot integrity concerns, to implement curbside voting will not

75

The defendants contend that the absence of county commissions, who are responsible for
selecting polling sites, as defendants in this action precludes the court from granting relief to the
plaintiffs on the curbside voting claims. But, curbside voting does not necessarily require a county
to change the location of their polling sites, and, as mentioned above, the plaintiffs do not seek an
order mandating counties to provide curbside voting.

160
App. 167

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 161 of 197

undermine the State’s interest in uniform elections even if only some counties offer
the service to voters.
For all of these reasons, the court finds that enjoining the curbside voting ban
to permit those counties, if any, that are willing to provide the service to do so is a
reasonable accommodation. The plaintiffs with standing to assert the claim are
entitled to a judgment in their favor against Secretary Merrill on their Title II claim
challenging the curbside voting ban.
3.
Next, the plaintiffs assert that the photo ID requirement violates Title II of the
ADA as applied in the COVID-19 pandemic because the requirement makes
absentee voting inaccessible for Ms. Thompson and members of People First, the
Alabama NAACP, and GBM with underlying conditions. Doc. 75.
a.
As discussed above, Ms. Thompson and members of these three
organizational plaintiffs are eligible voters with a disability. See section, II(E)(2)(a),
supra. Still, the defendants contend that those plaintiffs are not qualified individuals
with disabilities because satisfying the photo ID requirement is an essential
eligibility requirement for absentee voting. See docs. 244 at 6, n.5; 245 at 9-11. In
particular, the defendants contend that the Eleventh Circuit’s recent decision in
Greater Birmingham Ministries v. Secretary of State for Alabama, shows that,
contrary to this court’s decision at the preliminary injunction stage, the photo ID
161
App. 168

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 162 of 197

requirement is an essential eligibility requirement. Doc. 245 at 9-11. The court
respectfully disagrees. To be sure, outside of the COVID-19 pandemic, the Eleventh
Circuit found that “the burden of presenting a photo ID in order to vote is ‘justified
by relevant and legitimate state interests “sufficiently weighty to justify”’ the burden
on Alabama voters.” Greater Birmingham Ministries, 966 F.3d at 1223–24 (quoting
Crawford, 553 at 191). Simply because a requirement serves a weighty state interest,
however, does not make it an essential eligibility requirement. Instead, “‘essential
eligibility requirements’ are those requirements without which the ‘nature’ of the
program would be ‘fundamentally alter[ed].’” Mary Jo C. v. New York State & Local
Ret. Sys., 707 F.3d 144, 158 (2d Cir. 2013) (quoting 28 C.F.R. § 130(b)(7)). And,
“[w]hether a particular aspect of an activity is ‘essential’ will turn on the facts of the
case.” Schaw v. Habitat for Humanity, 938 F.3d 1259, 1266 (11th Cir. 2019). 76
Alabama already exempts a subset of absentee voters with disabilities from
the photo ID requirement, including some of the plaintiffs. 77 See Doc. 249-4 at 1.
In their post-trial brief, the State defendants insist that this exemption, or carveout,

76

Schaw addressed the Fair Housing Amendments Act, but the Eleventh Circuit drew its
reasonable accommodation analysis, including the discussion of whether the accommodation
would remove an essential requirement, from precedent concerning the ADA. See 938 F.3d at
1265 n.2.
77

A voter over the age of 65 or with a disability who is “unable to access his or her assigned
polling place due to a neurological, musculoskeletal, respiratory [], cardiovascular, or other lifealtering disorder that affects the voter’s ability to perform manual tasks, stand for any length of
time, walk unassisted, see, hear, or speak” does not have to include a copy of a photo ID with an
absentee ballot application. Doc. 249-4 at 1; Ala. Admin. Code R 820-2-0-.12(3).

162
App. 169

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 163 of 197

“is not an exception” to the requirement because “voters still must identify
themselves.” Doc. 244 at 6, n.5. That statement illustrates why the photo ID
requirement is not essential—voters provide sufficient information on their absentee
ballot applications to identify themselves without the need for a photo ID. Indeed,
Ms. Barnett testified that with a voter’s name, address, and date of birth from the
absentee ballot application she has “a good amount of data to be able to identify the
voter.” 9/17/20 at 113. In addition to that information, voters also provide driver’s
license numbers or the last four digits of their social security numbers with an
absentee ballot application, and staff in the AEM’s office can verify the information
provided to confirm the voter’s identify before mailing an absentee ballot to the
voter. See id. at 114; doc. 249-4 at 1. Because absentee voters provide information
in their absentee ballot application that allows county officials to verify their
identities without a photo ID, enjoining the photo ID requirement for absentee voters
with disabilities that put them at-risk of severe complications from COVID-19
would not fundamentally alter the nature of Alabama’s absentee voting program.
Thus, the requirement is not an essential eligibility requirement, see doc. 58 at 6667, and the plaintiffs are qualified individuals with disabilities.
b.
Ms. Schwarzauer contends the photo ID requirements does not exclude the
plaintiffs from absentee voting because any individual with a disability is exempt
from the requirement. Doc. 233 at 3. This contention overlooks that Alabama
163
App. 170

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 164 of 197

narrowly interprets the exemption, such that it applies only to voters with specific
disabilities. See doc. 249-1 at 1. Consequently, the exemption does not apply to
Ms. Thompson or to all members of People First, GBM, and the Alabama NAACP
with underlying medical conditions that place them at heightened risk from COVID19. Ms. Thompson and those members must comply with the requirement to vote
absentee.
As discussed above, People First, GBM, and the Alabama NAACP identified
members with conditions that make them vulnerable to COVID-19 and for whom
obtaining a copy of their photo ID requires risking exposure to the virus because
they cannot make a copy at home. See section II(D)(2)(a), supra; 9/10/20 at 77–78,
94-95; 9/11/20 at 128-29. While the free curbside copy service offered by the
Mobile County Public Library may mitigate that risk for those members who live in
the County and have a vehicle they can drive to access the service, it does not help
People First members who cannot drive, or vulnerable members of People First,
GBM, and the Alabama NAACP who live outside of Mobile County. See 9/11/20
at 115, 129-30, 167; 9/9/20 at 129-30, 166-67; 9/10/20 at 81. And, for those voters,
the need to risk exposure to COVID-19 by leaving their homes or interacting with
another person to obtain a copy of their IDs could dissuade them from voting
absentee in November. As a result, absentee voting is not readily accessible to
vulnerable members of People First, GBM, and the Alabama NAACP during the
COVID-19 pandemic, and the photo ID requirement excludes them from absentee
164
App. 171

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 165 of 197

voting.

In light of the CDC’s recommendation that people with underlying

conditions minimize their contact with others outside of their homes, Pl. Ex. 270 at
8, the court finds a causal link between this exclusion and the organizational
plaintiffs’ members’ physical impairments.
As to Ms. Thompson, she must leave her house or interact with another person
to obtain a copy of her photo ID, risking exposure to COVID-19. However, after
learning of the Mobile County Public Library’s curbside notary and copying service
in this litigation, Ms. Thompson testified that she would use the service, in spite of
her reasonable concerns about COVID-19. 9/8/20 at 197. Thus, because Ms.
Thompson agreed that she could obtain a copy of her ID from the curbside service
at the library, complying with the photo ID requirement does not exclude Ms.
Thompson from absentee voting, and the defendants are entitled to a judgment in
their favor on Ms. Thompson’s Title II claim challenging the photo ID
requirement.78
c.
To make absentee voting readily accessible to People First, GBM, and the
Alabama NAACP members with disabilities, the plaintiffs propose that the State

78

This holding is not inconsistent with the court’s conclusion that the photo ID and witness
requirements impose an unconstitutional burden on Ms. Thompson’s fundamental right to vote,
notwithstanding the library’s curbside services. See section II(D)(2), supra. Even if Ms.
Thompson is willing to accept the risk of COVID-19 imposed by the photo ID requirement, thereby
making absentee voting readily accessible under the ADA, it does not mean that the State’s
interests in the requirement justifies the burden for purposes of the Anderson-Burdick analysis.

165
App. 172

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 166 of 197

expand the current exemption to the photo ID requirement during the COVID-19
pandemic to apply to all voters with conditions that place them at high risk of severe
complications from COVID-19. Doc. 247 at 15. According to the defendants, this
accommodation is not reasonable because AEMs use the copy of the ID voters
submit with their absentee ballot applications to identify the voters. Doc. 245 at 10.
Indeed, Ms. Barnett testified, for example, that she compares the signature on the
copy of the photo ID to the signature on the absentee ballot application to help her
verify the identity of the voter completing the application.79

9/17/20 at 118.

However, Ms. Barnett also testified that with the voter’s name, address, and date of
birth from the application, she has “a good amount of data to be able to identify the
voter,” and the application also includes the voter’s driver’s license number or the
last four digits of his social security number to further help an AEM verify the voter’s
identity. Id. at 113-14. With all of the information provided in the application to
identify the would-be absentee voter, a copy of the voter’s ID is not essential to
verifying the voter’s identity. Indeed, neither Ms. Barnett nor Ms. Woodall, the
Circuit Clerk and AEM for Houston County, indicated that they encountered any
difficulty verifying the identity of voters who are exempt from the photo ID
requirement.

79

If the voter registered to vote using a paper form, then the voter’s signature is on file in the
AEM’s computer system, and the AEM can compare the signature on the application to the
signature on file. 9/17/20 at 118.

166
App. 173

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 167 of 197

Because the photo ID requirement is not necessary to verify an absentee
voter’s identity, enjoining the requirement during the COVID-19 pandemic for
voters with conditions that place them at risk of severe complications from the virus
would not cause an undue burden on the defendants or fundamentally alter
Alabama’s absentee voting program. As a result, the court finds that the plaintiffs’
proposed modification is reasonable, and People First, GBM, and the Alabama
NAACP are entitled to a judgment in their favor against the State and Ms.
Schwarzauer on their Title II claim challenging the photo ID requirement.
*

*

*

To conclude, based on the legal framework for ADA claims and the findings
in this case, the court makes the following conclusions of law:
1.

The plaintiffs failed to establish that any polling site in Alabama is not

accessible to voters with disabilities outside of the COVID-19 pandemic. As a
result, they have not established that the defendants have excluded any voter from
voting by reason of a disability outside of the COVID-19 pandemic, and the
defendants are entitled to judgment in their favor on the plaintiffs’ claims presenting
a facial challenge to the curbside voting ban under Title II of the ADA.
2.

The defendants are entitled to judgment in their favor on BVM’s claims

asserted under Title II of the ADA.
3.

Ms. Threadgill-Matthews and the members of People First, the

Alabama NAACP, and GBM with underlying health conditions are qualified
167
App. 174

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 168 of 197

individuals with disabilities under the ADA. Due to the curbside voting ban, voting
in person on Election Day is not readily accessible to those individuals during the
COVID-19 pandemic, and the exclusion is because of their disabilities. In addition,
enjoining enforcement of the ban to permit counties who are willing to do so to offer
curbside voting is a reasonable modification. As a result, the curbside voting ban
violates Title II of the ADA as applied in the COVID-19 pandemic, and Ms.
Threadgill-Matthews, People First, the Alabama NAACP, and GBM are entitled to
a judgment in their favor against Secretary Merrill on that claim.
4.

The photo ID requirement is not an essential eligibility requirement for

absentee voting, and Ms. Thompson is a qualified individual with a disability. Even
so, because Ms. Thompson agreed that she can utilize her local library’s curbside
copying service to comply with the photo ID requirement, she did not establish that
the requirement makes absentee voting inaccessible to her during the COVID-19
pandemic. Consequently, the defendants are entitled to a judgment in their favor on
Ms. Thompson’s Title II claim challenging the photo ID requirement.
5.

The photo ID requirement is not an essential eligibility requirement,

and the members of People First, the Alabama NAACP, and GBM with underlying
health conditions are qualified individuals with disabilities. During the COVID-19
pandemic, the photo ID requirement for absentee voting makes absentee voting
inaccessible for those members, and enjoining enforcement of the ban is a reasonable
modification. As a result, People First, the Alabama NAACP, and GBM are entitled
168
App. 175

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 169 of 197

to a judgment in their favor on their Title II claim challenging the photo ID
requirement as applied in the COVID-19 pandemic.
F.
The plaintiffs claim in Count III that the curbside voting ban and witness
requirement violate Section 2 of the Voting Rights Act, 52 U.S.C. § 10301 (“Section
2”). Doc. 75 at 71-74. Section 2 provides that “[n]o voting qualification or
prerequisite to voting or standard, practice, or procedure shall be imposed or applied
by any State or political subdivision in a manner which results in a denial or
abridgement of the right of any citizen . . . to vote on account of race or color . . . .”
52 U.S.C. § 10301(a). A plaintiff may file two types of cases under Section 2: vote
denial/abridgement and vote dilution. Greater Birmingham Ministries v. Sec’y of
State of Ala., 966 F.3d 1202, 1234-35 (11th Cir. 2020). These types of claims are
distinct, and the analysis is different depending on the type of claim filed. 80 Id.
(noting a vote denial claim was “a very different type of claim” than a vote dilution
claim).

80

The plaintiffs argue the Gingles factors are controlling, but the Eleventh Circuit has “questioned
the applicability” of such factors to vote denial cases holding that the lower court’s refusal to apply
the Gingles factor to the vote denial claim was “not error.” Greater Birmingham Ministries, 966
F.3d at 1234-38. The court further noted that attempting to apply the Gingles factors to a vote
denial claim was futile. Id. at 1235 (“We will attempt [to apply the Gingles factors] however, in
order to demonstrate the futility of the exercise.”). In light of Greater Birmingham Ministries, the
court declines to apply the Gingles factors here.

169
App. 176

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 170 of 197

To succeed on their Section 2 claims, the plaintiffs must first identify a “voting
qualification or prerequisite to voting or standard, practice or procedure” that
purportedly abridges minority voting rights. 52 U.S.C. § 10301(a). The plaintiffs
bring two challenges under the VRA. First, they assert that the witness requirement
is a “voting qualification or prerequisite” that abridges Black voters’ access to the
polls. Doc. 75 at ¶ 71-74. Second, the plaintiffs allege the curbside voting ban is a
“practice or procedure” that abridges Black voting rights. Doc. 75 at ¶ 71-74.
The plaintiffs must establish that Black or minority voters have experienced
“a denial or abridgement of the right . . . to vote . . . .” 52 U.S.C. § 10301(a); Greater
Birmingham Ministries, 966 F.3d at 1233. Section 2 defines this as occurring when,
“the political processes leading to nomination or election . . . are not equally open to
participation by [the protected class] in that its members have less opportunity than
other members of the electorate to participate in the political process and to elect
representatives of their choice.” 52 U.S.C. § 10303(b). The existence of a denial
or abridgment is “the critical question” and involves considering “whether the
political process is equally open to minority voters[.]” Thornburg v. Gingles, 478
U.S. 30, 63, 79 (1986). The Eleventh Circuit explained a denial or abridgement
exists when there is not “meaningful access to the political process[.]” Osborn v.
Cox, 369 F.3d 1283, 1289 (11th Cir. 2004) (quoting Nippers v. Smith, 39 F.3d 1494,
1524 (11th Cir. 1994)).

170
App. 177

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 171 of 197

If the plaintiffs demonstrate a denial or abridgement, they must then show
that “the challenged law . . . caused the denial or abridgement of the right to vote on
account of race.” Greater Birmingham Ministries, 966 F.3d at 1233. This causation
element has two parts. For one, “the challenged law has to ‘result in’ the denial or
abridgement of the right to vote.” Id. Essentially, the plaintiffs must show that but
for the challenged provision, the protected class would have equal access to the polls.
52 U.S.C. § 10301(a) (“[n]o voting qualification . . . shall be imposed . . . in a manner
which results in a denial or abridgement”). Second, the plaintiffs must show that,
“the denial or abridgment of the right to vote [is] ‘on account of race or color.’”
Greater Birmingham Ministries, 966 F.3d at 1233. Stated differently, the plaintiffs
must “show[] that racial bias in the relevant community 81 caused the alleged votedenial or abridgment[.]” Id. (quoting Johnson v. Governor of State of Fla., 405 F.3d
1214, 1238 (11th Cir. 2005) (Tjoflat, J., specially concurring)).

81

It is clear this element of a Section 2 claim does not require the plaintiffs to prove discriminatory
intent. Such an interpretation would disregard the plain statutory language and the prior Supreme
Court precedent. The Supreme Court unanimously decided that the 1982 amendment to Section 2
does not require proof of discriminatory intent. See Chisom v. Roemer, 501 U.S. 380, 294-95
(1991) (“proof of intent is no longer required to prove a § 2 violation . . . proof of discriminatory
intent is no longer necessary to establish any violation of the section”) and id. at 406 (J. Scalia,
dissenting) (“the statute proscribes intentional discrimination only if it has a discriminatory effect,
but proscribes practices with discriminatory effect whether or not intentional”). Instead,
consideration of the causal impact of “racial bias in the relevant community” is a consideration of
whether “the challenged voting standard or practice causes the discriminatory impact as it interacts
with social and historical conditions.” Ohio Democratic Party v. Husted, 834 F.2d 620, 638 (6th
Cir. 2016).

171
App. 178

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 172 of 197

1.
The plaintiffs challenge the absentee voter witness requirement mandating
voters sign an affidavit in the presence of two witnesses or a notary and that the
witnesses or notary sign the same affidavit acknowledging that they observed the
voter sign the affidavit. This requirement forces a voter to either 1) interact with
two witnesses or 2) hire and interact with a notary. 9/14/20 at 139-40, 178. And, all
parties agree, in the context of the coronavirus pandemic, interacting with
individuals outside of one’s household increases the risk of exposure to COVID-19.
Agreed Facts at ¶ 62. In fact, the CDC advises those at higher risk of severe illness
from COVID-19 against interacting with individuals outside of their household,
especially those who are not wearing masks. Agreed Facts at ¶ 62; Pl. Ex. 270 at 8.
The evidence has shown Alabamians at high-risk for COVID-19 complications and
death are following the CDC’s guidance. 82 Pl. Ex. 270 at 30-33.

82

When looking at adults at high risk because of their medical condition in the Birmingham area,
74.4 percent report avoiding crowded or public places, 86 percent stay six feet from others, and
88.8 percent report wearing masks when outside of their home. Pl. Ex. 270 at 30. These
percentages remain high for those who are not at high risk. Id. In a statewide Auburn University
at Montgomery poll, “78.1 percent of Alabama registered voters said that they were ‘very’ or
‘somewhat likely . . . to voluntarily wear a mask or face covering in public if the COVID-19
pandemic continues through the end of the year.” Id. at 31, n.82. When looking specifically at
Black voters under 60 who are at high risk due to a medical condition, 74.8 percent report avoiding
public or crowded places that are not job-related. Id. at 30-31. Higher percentages of Black voters
in that category report maintaining six feet of distance and wearing masks when they must go out
in public. Id.

172
App. 179

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 173 of 197

a.
The plaintiffs assert the Challenged Provision causes a denial or abridgement
of Black individuals’ right to vote. Essentially, the plaintiffs argue that Black
Alabamians have less opportunity to vote than White Alabamians because Black
voters are less able to meet the witness requirement without increasing their risk of
COVID-19 complications or death. Based on the evidence presented at trial, the
court agrees.
i.
To begin, Dr. Traci Burch, an expert on political science and political
participation explained, “Black Alabama adults at high-risk for severe illness from
COVID-19 are far less able to satisfy these requirements for absentee voting than
high-risk White Alabama adults while following CDC guidance to avoid contact
with people from outside their household.” Ex. 270 at 7; 9/14/20 at 191-192. In
support of this contention, the plaintiffs proved at trial that Black voters at higher
risk are less likely to live in households with two adults over the age of 18. “22.0
percent of Black adults age 18 to 64 who report being in fair or poor health live in a
household with no other adults, meaning that they would need to contact two
additional witnesses from outside their household. This rate is five times higher than
that for White adults with health issues; only 3.9 percent of White adults with health
issues do not live with any adults.” Pl. Ex. 270 at 34; 9/14/20 at 203-04. And the
disparity is even greater for Black individuals over age 65: “nearly 90 percent of
173
App. 180

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 174 of 197

Black people age 65 and older would need to risk contacting at least one other person
outside their household to meet the witness requirement” compared with “77.2
percent of White people and 47.1 percent of Latino people.” Pl. Ex. 270 at 37. While
the percentages vary based on the study, the racial disparity remains. Ex. 270 at 3538. With less access to potential witnesses within their households, high-risk Black
voters are forced to violate the CDC’s guidance and expose themselves to increased
risk of COVID-19 infection.
ii.
Unlike in Greater Birmingham Ministries and Brown v. Detzner, where
Alabama and Florida had implemented measures to counteract the disparate impact,
the defendants have not shown that the many examples they offered alleviate the
disparate burdens Black voters face here. 83 To be clear, the defendants have not sat
idly by and have instead undertaken efforts to address the pandemic. But, none of
these actions, individually or collectively, alleviate the disparate burdens Black
voters face.

83

Greater Birmingham Ministries, 966 F.3d at 1236 (noting the disparate burdens minority voters
faced to get a voter ID were eliminated by “the wide range of photo IDs” that could be used to
vote, the “State’s willingness to cover the cost of obtaining . . . required documentation” and the
“availability of mobile unit locations and home visits . . . .”); Brown v. Detzner, 895 F. Supp. 2d
1236 (M.D. Fla. 2012) (holding decrease in number of in-person early voting days was not a denial
or abridgement when the new rules allowed for the same number of early, in-person voting hours
and required more weekend early-in person voting).

174
App. 181

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 175 of 197

To begin, Mr. Clay Helms, the Director of Elections and Deputy Chief of Staff
to Secretary of State Merrill, testified that he has offered to send staff members to
voters’ residences, so that they could safely have their ballots witnessed without
additional COVID-19 risk. 9/15/20 at 163. The court does not doubt Mr. Helms
sincerity that he “was willing to do what [he] needed to do to help” the voter. Id.
However, to the extent this testimony supports any inference the Secretary of State
has eliminated the burden of the witness requirement on Black voters, the court
expressly finds otherwise. This testimony was the only evidence provided that the
Secretary of State’s office offers this service, and there is no evidence that Secretary
Merrill’s office has in fact ever provided this service to voters. Further, to the extent
that the Secretary of State and Mr. Helms are able to help some voters, it is
questionable that they will be able to provide witnesses for the absentee ballots of
all voters who are higher-risk for COVID-19, live alone, and lack access to critical
resources necessary to vote safely by absentee. Finally, there is no evidence that
voters know about this service, or that the Secretary of State’s office has made any
effort to advertise the service.
Second, the State has allowed anyone who wants to vote absentee due to
concerns about COVID-19 to do so for the upcoming election. But, the voter must
still satisfy the witness requirement, and it is an obstacle for those who live alone or
with just one other adult and are at high risk due to underlying conditions. Third,
while the State also allows in-person absentee voting, taking advantage of this would
175
App. 182

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 176 of 197

also not eliminate the increased exposure to COVID-19 for these affected groups.
Like regular voting on Election Day, in person absentee voting entails encountering
more potentially infectious people (who may not be wearing a mask) and potentially
contaminated surfaces than the voter would if they did not have to leave their home.
9/9/20 at 61, 115; 9/15/20 at 201-202.
Fourth, the defendants presented evidence that Secretary Merrill encourages
AEMs to offer absentee curbside voting, see 9/11/20 at 48-50, and at least one AEM
has provided absentee curbside voting in Wilcox County, see 9/9/20 at 9, 27. While
this is an example of AEMs’ efforts to respond to the pandemic, the potential to have
a ballot witnessed through a car does not remedy the abridgment either because
Black voters are less likely than White voters to have access to a car. 9/9/20 at 8990. The parties agree that in Alabama, 12.7 percent of Black households do not have
a vehicle compared to 3.9 percent of White households. Doc. 228 at ¶13. Further,
the plaintiffs have proven Black high-risk Alabamians face poverty at higher rates
than their White high-risk counterparts.84

84

For Alabamians who are high risk due to a medical condition: 35.6 percent of Black individuals
have incomes below $25,000 compared to only 6.6 percent of White individuals. Pl. Ex. 270 at
39. 53.3 percent of Black Alabamians who are high risk due to a medical condition are food
insecure, compared to only 20.5 percent of White Alabamians who are high risk due to their health.
Id. Black Alabamians who are high risk due to their age are more likely than White Alabamians
to experience poverty as well. Id. 39.8 percent of senior Black individuals have incomes below
$25,000 whereas only 14.9 percent of senior White individuals do. Id. 27.1 percent of White
seniors are food insecure in Alabama compared to the 59 percent of Black seniors who are food
insecure. Id.

176
App. 183

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 177 of 197

Fifth, for similar reasons, the Mobile County Public Library’s curbside notary
services at five of its branches do not undercut the disparity in risks faced by Black
voters. 9/16/20 at 118-119. Dr. Latesha Elopre, the plaintiffs’ expert on internal
medicine, infectious diseases, and disparities in access to health care and health
outcomes in Alabama, testified that curbside notary services are a reasonably safe
way for a high-risk voter to comply with the witness requirement if the voter was in
a car alone. 9/9/20 at 94. Dr. Elopre’s point cuts to the heart of the matter—the
Library’s services are helpful, but only for voters who have access to a vehicle and
live in Mobile County. As stated previously, Black voters are less likely to have a
household vehicle than White voters, meaning they would have to ride with a person
outside of their household (if they can get a ride) or take public transportation
(assuming it is even an option) in violation of CDC guidance. Doc. 228 at ¶13.
Further, the Library’s director testified that not many residents have used the
curbside service, a fact she attributes to citizens not knowing about the service
despite her advertisements in a local paper that has free distribution. 9/16/20 at 120122, 133. And, even if the Library’s service becomes widely known and adequately
alleviates the disparate impact on Black voters in Mobile County, the benefit would
be limited because there was no evidence presented that libraries in other parts of
the State are offering this service.
Nor is the electronic notary option the Governor allowed a tool that can
counteract the disparate impact. State Ex. 25 at 4. The evidence established that
177
App. 184

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 178 of 197

Black voters are less likely to have access to the technological tools needed to
employ a notary remotely and they are less likely to have the means to pay for the
cost of the notary. The plaintiffs presented evidence that of forty-two Alabama
notaries who responded to their survey, only six stated they do not charge to notarize
ballots. 9/13/20 at 206. The others charge $5, $10, or more than $10. Id. And,
“some also charged if they were required to travel to meet people in order to notarize
signatures.” Id. These fees may seem nominal to some individuals, but they can
prove a major obstacle for those living in poverty. In Alabama, 27.7 percent of Black
individuals live in poverty compared to only 11.3 percent of White individuals. Doc.
228 at ¶10. Among high-risk Alabamians, the difference in the rates of Black
individuals and White individuals experiencing poverty is even more pronounced. 85
Pl. Ex. 270 at 39.
Black voters are also less likely to have access to the internet or a computer
in their home making the option of remote notarization a fiction for a sizeable portion
of Black voters. The evidence at trial showed that 29.6 percent of Black households
do not have broadband internet compared to 17.2 percent of White households. Doc.
228 at ¶ 12. 18.9 percent of Black households do not have a computer, smartphone,
or tablet compared to 11 percent of White households. Id. at ¶ 13. Similar to the
disparities in those experiencing poverty, these numbers are worse when looking at

85

See note 6, supra.

178
App. 185

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 179 of 197

high-risk Alabamians. Of those Alabama residents who are high risk due to age, 30
percent of White individuals do not have access to internet at home compared to 50
percent of Black individuals. 9/14/20 at 207.
All of these facts prove that Black voters who are at high-risk are less able to
safely meet the absentee voter witness requirement than comparable White voters.
Black voters at high risk are more likely to have to break established safety protocols
by exposing themselves to a witness outside their home. They are less likely to be
able to utilize additional safety measures like having someone witness their affidavit
from outside a window or paying for a notary to do so remotely. 9/14/20 at 207;
9/9/20 at 89-90; Pl. Ex. 270 at 40; Doc. 228 at ¶¶ 10, 13-14. Because of this, the
court holds that the plaintiffs have established that Black individuals have less of an
opportunity to vote than White individuals in Alabama during the pandemic, and
that their voting rights have been abridged.

Therefore, the plaintiffs have

successfully proven the first element of the claim.
iii.
The defendants argue that, despite this evidence of a disparate impact, there
is no denial or abridgement because Black and White voters who are equally at risk
for COVID-19 complications or death due to health or age, “face similar outcomes

179
App. 186

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 180 of 197

. . . .” and have equal access to witnesses. 86 But, this argument ignores reality in
Alabama—all things are not equal in Alabama in relation to COVID-19. Based on
the evidence at trial, Black and White voters are not “equally at risk” for contracting
COVID-19. Agreed Facts at ¶ 68; Pl. Ex. 271 at ¶ 16; 9/9/20 at 49. . The plaintiffs
have also shown that once infected with COVID-19, Black individuals are more
likely to have serious complications and die. Pl. Ex. 270 at 26; Agreed Facts at ¶
68; Pl. Ex. 271 at ¶ 14; 9/9/20 at 50-57, 82, 89. Dr. Elopre explained, “there is strong
data that supports . . . looking at cross age groups, that Black people, regardless of
health conditions, have higher rates of death compared to Whites.” 9//9/20 at 91-92.
Further, Black and White voters do not have equal access to witnesses. For those in
high-risk categories, Black voters are more likely to have to break CDC
recommended protocols and expose themselves to the virus in order to fulfill the
witness requirement. 87
The defendants’ position that ‘all other things being equal’ Black voters are
at no greater risk and can access witnesses the same as White voters also ignores the
plain text of Section 2. A denial or abridgment is established if “based on the totality
of the circumstances, it is shown that the political processes leading to nomination

86

Doc. 244 at 11 (“Black and white voters who suffer similar underlying conditions face similar
outcomes, 9/8 Rough Tr. at 68, and any voter can easily and safely meet the witness and photo ID
requirements.”).
87

See sources accompanying analysis at Section II(F)(1)(a)(i)-(ii), supra.

180
App. 187

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 181 of 197

or election . . . are not equally open to participation by members of a [protected
class] . . . .” 52 U.S.C. § 10301(b) (emphasis added). The phrase “based on the
totality of the circumstances” requires the court to look at all the facts affecting
voters. The defendants’ theoretical analysis regarding whether a Black and White
voter who are the same age, with the same medical conditions, and are equally able
to adhere to the witness requirement safely, have equal access to the polls runs
counter to the text by failing to consider “the totality of the circumstances” people
of color face, e.g. disparities in health, COVID-19 risks, and access to critical
resources for safely adhering to the witness requirement like transportation, funds
for a notary, technology, and internet access. Put simply, to discount the evidence
of racial inequity the plaintiffs have presented, as defendants argue, would make it
nearly impossible for any protected class to prove the abridgment of their voting
rights and would limit the VRA to only protecting voters in cases of intentional
discrimination. The Supreme Court has expressly discounted this interpretation. See
Chisom v. Roemer, 501 U.S. 380, 394-95 (1991).
b.
Having found that the plaintiffs have established the first element, the court
turns to causation. Again, this entails showing that the absentee voting witness
requirement “results in the denial or abridgement of the right” of Black Alabamians
“to vote on account of race or color.” 52 U.S.C. § 10301(a). The plaintiffs have
also made this showing.
181
App. 188

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 182 of 197

i.
The voting abridgement “results” from the absentee voting witness
requirement. But for the witness requirement, Black voters could mail in their
absentee voting applications without increasing their risk of COVID-19
complications or death. The witness requirement forces high-risk Black voters to
choose between safeguarding their health or voting.

Greater Birmingham

Ministries, 966 F.3d at 1234 (noting requirement plaintiffs show “the challenged law
. . . ‘resulted in’ the denial or abridgment of the right to vote”).
ii.
The plaintiffs have also shown that the abridgment of Black individuals’ right
to vote “was ‘on account of race or color’ . . . .” Id. To satisfy this requirement, the
plaintiffs must show that the challenged law “interacts with social and historical
conditions to cause an inequality in the opportunities enjoyed by black and white
voters” to participate in the political process. Gingles, 478 U.S. at 47; see also
Husted, 834 F.3d at 638 (directing courts to ask “whether the challenged [law] causes
the discriminatory impact as it interacts with social and historical conditions”). The
plaintiffs have shown the existence of pervasive “racial bias in the relevant
community.” Greater Birmingham Ministries, 966 F.3d at 1233. In particular, the
historical conditions are generally not in dispute. Alabama’s current constitution
was drafted in 1901 with the express goal of “dealing with the ‘grave problem’ of
‘Negro domination’ and . . . ‘establish[ing] white supremacy.” Pl. Ex. 264 at 7.
182
App. 189

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 183 of 197

Racial bias led legislators to implement racially discriminatory voting laws like a
poll tax and a literacy test. Id.; Agreed Facts at ¶ 146. These voting laws remained
in place for over forty years until the federal courts intervened to begin dismantling
them. Agreed Facts at ¶ 147. Even the passage of the VRA in 1965 did not stop
Alabama’s leaders from attempting to disenfranchise Black voters again, through
efforts by the legislature to create racially gerrymandered voting districts to dilute
the efficacy of Black voting power. See Agreed Facts at ¶¶ 147, 149-50; 9/14/20 at
122. The federal courts again had to intervene to prevent implementation of such
discriminatory policies. See Pl. Ex. 264 at 15. And the plaintiffs presented evidence
that these discriminatory policies extended to the implementation of the witness and
photo ID requirements in the 1990s. Pl. Ex. 264 at 20-21.

To be sure, not all

advocates for the absentee voting requirements instituted in the 1990s were
motivated by racial bias. However, the plaintiffs presented evidence that some state
officials still were, id. at 21-22, with one State senator “insist[ing]” voter fraud was
only perpetrated by Black people, and others praising the resulting drop in absentee
voting even though “the unspoken reality was that those numbers undoubtedly
represented a suppression of legitimate Black votes,” id. at 21-22.
Those racially discriminatory voting policies meant Black voters’ interests
were not represented by the Alabama government, and the State used its power to
enact a segregated and unequal education system. Pl. Ex. 264 at 24-25. Alabama’s
segregated public schools created racial disparities in education still existing today.
183
App. 190

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 184 of 197

Doc. 228 at ¶¶ 3-4. These educational deficits have been compounded by the State
and some private entities adopting racially discriminatory employment practices in
the past. 9/14/20 at 140; Pl. Ex. 264 at 31. And, Alabama’s racial bias was not
limited to the areas of voting, education, and employment. 9/10/20 at 9, 13-14; Pl.
Exs. 268 at ¶ 15 and 270 at 9. Those in power implemented discriminatory zoning,
redlining, and predatory lending which negatively affected housing and healthcare
for Black individuals. Pl. Ex. 268 at ¶ 8. All of these historical events were caused,
at least in part, by racial bias, and these events “produced and maintained” racial
residential segregation in Alabama’s communities in existence today. Id. And, the
evidence at trial shows racial residential segregation has today “contributed to higher
concentrations of poverty and low-quality housing, unemployment and underemployment, uninsured or uninsured” people, food insecurity, “as well as elevated
exposures to physical and chemical environmental hazards.” Id. Further, racial bias
in healthcare existing today has meant Black patients are less likely to receive
necessary medical tests than White patients, even when they have the same
symptoms. Pl. Ex. 268 at ¶15.
This reference to and consideration of the history of discrimination is not
designed to suggest that Alabama’s current leaders share the prejudiced views of
their predecessors. And, courts must “caution against allowing the old, outdated
intentions of previous generations to taint Alabama’s ability to enact voting
legislation.” Greater Birmingham Ministries, 966 F.3d 1202, 1236. The court
184
App. 191

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 185 of 197

references these acts of racial discrimination and bias because they are directly
relevant to the analysis proscribed by Section 2—they caused the racial disparities
that exist today that make it harder and less likely for Black voters to be able to vote
safely during the pandemic. The racial bias of Alabama’s former leaders and White
citizens, while certainly “outdated,” unfortunately still affects Black Alabamians’
health and socioeconomic status today. The racial bias caused the enactment of
discriminatory policies which resulted in Black Alabamians having less access today
to resources they need to be healthy—like food, doctors, health insurance, and a
clean environment—all of which have contributed to the higher COVID-19 infection
and death rates for Black individuals. It also led to Black Alabamians lacking
resources critical to safely adhere to the witness requirement during the pandemic,
like money for a notary, personal transportation, internet, and a computer.
Therefore, after considering the evidence as a whole, the court finds that the
history of discrimination shows “racial bias” in the Alabama community “caused the
alleged vote-denial or abridgment.” Greater Birmingham Ministries, 966 F.3d at
1233.

The court also finds that racial bias in voting, education, economics,

employment, and healthcare has caused Black voters to have less of an opportunity
than White voters to safely adhere to the absentee ballot witness requirement. See
Gingles, 478 U.S. at 47; Husted, 834 F.3d at 638. Consequently, the plaintiffs have

185
App. 192

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 186 of 197

shown that the abridgement of their right to vote was on account of their race, and
are due relief on their witness requirement claim under the VRA. 88

88

Defendant Schwarzauer argues that “the denial or abridgment is not ‘on account of race or color,’
but on account of the COVID-19 pandemic and the heightened risk it poses to older persons and
persons with certain underlying health conditions.” Doc. 189 at 10; Doc. 245 at 12. The evidence
at trial establishes that the historical and current racial bias mentioned above has caused high-risk
Black voters to be less able to meet the absentee voter witness requirement safely during the
pandemic. Alabama’s history of racial bias has caused these racial inequities, not the virus.

Defendant Schwarzauer also argues that the witness requirement’s facially race neutral language
and general applicability to all absentee voters “prevents it from being a violation of the VRA.”
Doc. 245 at 12 (citing Lee v. Virginia State Board of Elections, 843 F.3d 592, 600-01 (4th Cir.
2016), Ohio Democratic Party v. Husted, 834 F.3d 620, 631 (6th Cir. 2016), and Frank v. Walker,
768 F.3d 744, 753 (7th Cir. 2014)). None of these cases support Defendant Schwarzauer’s
assertion. In Lee v. Virginia, the Fourth Circuit found there was no evidence of “a denial or
abridgement of the right to vote” when plaintiffs only showed that “a lower percentage of
minorities have qualifying photo IDs and the process of obtaining photo IDs requires those voters
to spend time traveling to and from a registrar’s office.” 843 F.3d at 600-01. The Fourth Circuit
relied on the ruling in Crawford v. Marion County Election Board, 553 U.S. 181, 198 (2008), that
obtaining an ID does not make voting much harder, to find that plaintiffs had only proven a
“disparate inconvenience” instead of a “denial or abridgement.” Id. at 601. The court reasoned
that “[i]f Virginia had required voters to present identifications without accommodating citizens
who lacked them, the rule might arguably deprive some voters of an equal opportunity to vote.”
Id. at 601. Here, the plaintiffs have shown much more than just disparate inconvenience. They
have shown that Black people face higher risks of COVID-19 complications and death.
Defendant Schwarzauer asserts that Ohio Democratic Party, the Sixth Circuit found that “despite
statistical disparities ‘the record does not establish that [the state law] . . . actually makes voting
harder for African Americans.” Doc. 245 at 12 (quoting Ohio Democratic Party, 834 F.3d at 631).
The quote Defendant Schwarzauer relies on relates to the Circuit’s assessment of the equal
protection claim—not the voting rights claim, and the “statistical disparities” discussed was
evidence that Black voters “use early in-person voting at higher rates than other voters . . . ,” Ohio
Democratic Party, 834 F.3d at 631. In its discussion of the VRA claim, the Sixth Circuit expressly
held the opposite of what Schwarzauer asserted in her brief. The plaintiffs did not prove a denial
or abridgement because “[t]hey failed to establish a cognizable disparate impact.” Id. at 640. In
other words, “the statistical evidence in the record clearly establish[ed] that Ohio’s political
processes [were] equally open to African Americans.” Id. at 639. There was no denial or
abridgement of the right to vote because Black voters in Ohio were more likely to be registered to
vote and Black voter turnout was at least equal to White voter turnout even under the challenged
provision. Id.
Lastly, Frank v. Walker is also distinguishable. The Seventh Circuit held there was no denial or
abridgement caused by Wisconsin’s voter photo ID law because Black turnout would be higher
than White turnout even after subtracting “the difference between the 97.6% of white voters who
have photo ID or qualifying documents, and the 95% of black voters who do. . . .” 768 F.3d at 754.

186
App. 193

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 187 of 197

2.
The organizational plaintiffs and plaintiff Threadgill-Matthews 89 claim
Secretary Merrill’s de facto curbside voting ban unlawfully abridges Black
Alabamians’ right to vote in violation of Section 2 even in the absence of a global
pandemic. Doc. 75 at ¶ 215-219. They argue the curbside voting ban makes voting
harder for Black voters than White voters. Doc. 247 at 19-24. The plaintiffs contend
Black voters are disproportionately burdened by the ban because they are more likely
to have disabilities, are at higher risk for COVID-19 complications and death, and
are less likely to have safe and feasible opportunities for absentee voting. Id.
The plaintiffs’ claim fails to meet the first hurdle of Section 2 because the
curbside voting ban does not amount to a denial or abridgment of Black voting rights.
52 U.S.C. § 10301(a). The curbside voting ban enacted by Secretary Merrill only
applies to in-person voting on Election Day.90 And, to be sure, the ban is prohibiting
Jefferson County, Montgomery County, and perhaps others from offering curbside
voting on Election Day. Docs. 181 at ¶ 16 and 182 at ¶ 14. But, the curbside voting
ban does not apply to absentee voting. See 9/11/20 at 48-50. In fact, Secretary

Again, here the plaintiffs have shown Black voters are at higher risk for serious complications and
death due to COVID-19, see Pl. Ex. 270 at 26 and 9//9/20 at 91-92, and that Black voters in high
risk categories are less able to comply with the witness requirement safely, see sources
accompanying analysis at Section II(F)(1)(a)(i)-(ii), supra.
89

As discussed earlier, none of the other plaintiffs have standing to assert these claims. See section
I(A)(3)(b).

90

See section I(F)(3), supra (outlining Secretary Merrill’s curbside voting ban).

187
App. 194

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 188 of 197

Merrill encourages county AEMs to offer absentee curbside voting. Id. And, Ms.
Threadgill-Matthews testified she assisted one voter with using this option. See
9/9/20 at 9, 27. Put simply, based on the evidence, any voter who would benefit
from lifting Secretary Merrill’s ban on curbside voting on Election Day can do so
now by voting curbside at their AEM’s office. Because of this, the Plaintiffs have
failed to prove a denial or abridgement. 91
*

*

*

Based on the above application of the factual findings in this case to the
Voting Rights Act Section 2 legal framework, the court makes the following
conclusions of law:

91

This holding is consistent with the court’s conclusions that the curbside voting ban both
unconstitutionally burdens plaintiffs’ fundamental right to vote and violates the ADA. See
sections II(D)(3) and II(E)(2), supra. Different standards apply to these claims, and it is possible
for the plaintiffs to satisfy their burden of proof as to one but not the others. For the curbside
voting ban to violate the VRA, plaintiffs must prove a denial or abridgment of the right to vote,
whether absentee or in-person. In contrast, to prevail on the constitutional claims in Count I, the
plaintiffs needed to show that the State’s justifications for banning curbside voting outweighed the
burdens that the ban imposed on citizens’ right to vote. The curbside voting ban can of course
burden the right to vote without denying it. As for the ADA, to prevail on their Title II claim
challenging the curbside voting ban, the plaintiffs needed to prove, among other things, that inperson voting on election day was not readily accessible to them due to the ban. See section
II(E)(2)(b)(i), supra. And, because a voter does not receive confirmation that her vote counted
when she votes absentee, see 9/15/20 at 139-40; 9/17/20 at 127-28, 184, casting an absentee ballot
curbside at an AEM’s office prior to the election is not equal to voting at the poll on election day
for purposes of the ADA, see 28 C.F.R. § 35.130(b)(1)(ii). Moreover, the curbside voting ban can
cause in-person voting to be not readily accessible to voters without denying or abridging the right
to vote.

188
App. 195

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 189 of 197

1.

The plaintiffs have shown Black voters do not have equal access to

safely vote during COVID-19, because of the absentee ballot witness requirement,
and, therefore, Black Alabamians’ voting rights have been abridged.
2.

The voting abridgment is “on account of race or color” as it is caused,

in part, by Alabama’s history of racial bias in voting, education, employment,
economics, housing, and healthcare.
3.

The absentee ballot witness requirement violates Section 2 to the extent

it is enforced during the COVID-19 pandemic.
4.

The plaintiffs have not shown that the curbside voting ban is a denial

or abridgement of Black Alabamians’ voting rights.
G.
Finally, in Count V, the plaintiffs allege that the notary option contained in
the witness requirement conditions the right to vote on a person’s wealth in violation
of the Fourteenth Amendment’s Equal Protection Clause. Doc. 75 at 76–77. As
explained above, the witness requirement mandates that absentee voters have their
ballots either signed by two witnesses or notarized. Ala. Code § 17-11-9. Alabama
law also authorizes notaries public to collect a five-dollar fee for notarizing absentee
ballots. Id. § 36-20-74. Plaintiffs say that, “regardless of the COVID-19 crisis,” this
authorization is unconstitutional. Doc. 75 at 77 ¶ 232.
Additionally, during the COVID-19 pandemic, the Governor has freed
notaries public to notarize absentee ballots by videoconference. State Ex. 25 at 4.
189
App. 196

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 190 of 197

The court has noted, however, that “videoconferencing is not free. It requires
internet access at a minimum, which is a service that is an unaffordable luxury for
many.” Doc. 58 at 38 n.20. As a result, the plaintiffs say the notary option is
unconstitutional “[i]n the COVID-19 crisis,” and that it must be enjoined. Doc. 75
at 77 ¶ 233. This claim thus presents both a facial and an as applied challenge to the
witness requirement.
A “[s]tate violates the Equal Protection Clause of the Fourteenth Amendment
whenever it makes the affluence of the voter or payment of any fee an electoral
standard.”

Harper v. Va. State Bd. of Elections, 383 U.S. 663, 666 (1966).

Normally, because wealth is not a suspect classification, wealth-based
discrimination claims receive only rational basis review. See Jones v. Governor of
Fla., No. 20-12003, 2020 WL 5493770, at *5 (11th Cir. Sept. 11, 2020). However,
rational basis review does not apply to equal protection challenges that implicate
fundamental rights. See, e.g., id. at *4 (noting that rational basis review is reserved
for “classifications that neither implicate fundamental rights nor proceed along
suspect lines”). Supreme Court cases “solidly establish” that the “basic right to
participate in political processes as voters and candidates” is among those rights.
M.L.B. v. S.L.J., 519 U.S. 102, 124 (1996); Harper, 383 U.S. at 670.
But the defendants contend that recent caselaw from the Eleventh Circuit
rejects this basic tenet of constitutional law. Allegedly, the Circuit ruled in Jones v.
Governor of Florida (“Jones II”) that “heightened scrutiny does not apply” to the
190
App. 197

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 191 of 197

present challenge and that requiring voters to provide documentation verifying their
identities is constitutional, even if some individuals must pay to obtain the
documents. Doc. 232 at 1–2. Thus, the defendants ask the court to apply rational
basis review to this claim. Id. at 3–4. The court has already rejected this request
after concluding that Jones II was inapposite, 9/18/20 at 67, but the defendants move
the court to reconsider. Doc. 244 at 13. Their request is again due to be denied. 92
The claim before the court in Jones II dealt with the restoration of voting rights
for people convicted of felonies—not the general, fundamental right to vote. See
2020 WL 5493770 at * 4. Indeed, the Eleventh Circuit made clear that Jones II does
not address the fundamental right to vote: “Whatever may be true of the right to
vote generally, felons ‘cannot complain about their loss of a fundamental right to
vote because felon disenfranchisement is explicitly permitted . . . .” Id. (quoting
Harvey v. Brewer, 605 F.3d 1067, 1079 (9th Cir. 2010)). Because the laws at issue
in Jones II did not “implicate fundamental rights nor proceed along suspect lines,”
the Eleventh Circuit applied rational basis review. Id. at *4–8.
Here, the challenge to the notary option of the witness requirement implicates
an Alabama citizen’s fundamental right to vote. Thus, Jones II does not mandate

92

The defendants also maintain that the plaintiffs failed to plead a wealth-based discrimination
claim. Docs. 232 at 2; 244 at 13 n.14. The court initially labelled the plaintiffs’ challenge a wealth
discrimination claim. See doc. 161 at 22. But a review of the evidence offered at trial and the
plaintiffs’ amended complaint shows that Count V instead challenges the witness requirement as
unduly burdening the right to vote in violation of the Fourteenth Amendment.

191
App. 198

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 192 of 197

that rational basis review applies to the plaintiffs’ claim. To be sure, the Eleventh
Circuit did opine that “[o]utside of narrow circumstances, laws that burden the
indigent are subject only to rational basis review.” Id. at *5 (citing M.L.B., 519 U.S.
at 123–24). But the very case that the Circuit cited for that proposition, M.L.B.,
dictates that voting rights cases fall within that narrow band. See 519 U.S. at 124.
Therefore, because the plaintiffs’ equal protection claim implicates their or their
members’ basic fundamental right to vote, rational basis review is inappropriate.
Traditional equal protection jurisprudence therefore applies. 93 Under that
jurisprudence, “any alleged infringement of the right of citizens to vote must be
carefully and meticulously scrutinized.” Reynolds v. Sims, 377 U.S. 533, 561–62
(1964). In Harper, the Supreme Court ruled that state laws imposing poll taxes
categorically failed to satisfy that exacting scrutiny. “To introduce wealth or
payment of a fee as a measure of a voter’s qualifications,” the Court said, “is to
introduce a capricious or irrelevant factor. The degree of the discrimination is
irrelevant.” Harper, 383 U.S. at 668. In other words, if a state law makes wealth an

93

In an earlier order ruling on the parties’ various motions to dismiss, doc. 161, the court observed
that the four-factor test applied by the Eleventh Circuit in Jones v. Governor of Florida (“Jones
I”), 950 F.3d 795 (11th Cir. 2020), controlled this claim. In Jones I, the panel applied “heightened
scrutiny” to conclude that Florida’s law conditioning the restoration of voting rights for people
convicted of felonies on their ability to pay certain fines and fees was likely unconstitutional. Id.
at 827. The Circuit considered: “(1) the nature of the individual interest affected; (2) the extent to
which it is affected; (3) the rationality of the connection between legislative means and purpose;
and (4) the existence of alternative means for effectuating the purpose.” Id. at 825. Because the
court now understands that plaintiffs’ claim is not based on wealth discrimination, see note 92,
supra, the Jones I analysis would not apply. Moreover, because Jones II overruled Jones I, the
four-factor test is no longer valid in either context. Jones II, 2020 WL 5493770, at *8.

192
App. 199

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 193 of 197

electoral standard, then that law violates the Fourteenth Amendment regardless of
“whether the citizen, otherwise qualified to vote, has $1.50 in his pocket or nothing
at all, pays the fee or fails to pay it.” Id. The plaintiffs contend that Harper’s per se
rule controls. Docs. 238 at 3; 247 at 10. The defendants correctly note, however,
that Harper’s bright-line rule “does not apply to voting requirements that are related
to legitimate voter qualifications.” Doc. 244 at 13 (quoting Jones II, 2020 WL
5493770, at *6).
As a purported fraud prevention measure, the witness signature requirement
is at least designed to help identify voters. And, because “requiring voters to prove
their identity . . . falls squarely within the state’s power to fix core voter
qualifications,” the court agrees that the Harper rule does not govern. Jones II, 2020
5493770, at *6. Accordingly, the court cannot apply “any ‘litmus test’ that would
neatly separate valid from invalid restrictions,” but must instead “identify and
evaluate the interests put forward by the State as justifications for the burden
imposed by its rule.” Crawford, 553 U.S. at 190. The court will then “make the
‘hard judgment’ that our adversary system demands.” Id. In other words, AndersonBurdick balancing applies to this claim as well.
Starting with the plaintiffs’ facial challenge to the witness requirement, the
court concludes that the law is constitutional. Here, the State offers two familiar
interests to justify its rule—preventing voter fraud and protecting the integrity of its
elections. Docs. 232 at 4; 245 at 13. These interests are, of course, legitimate and
193
App. 200

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 194 of 197

strong. Lee, 915 F.3d at 1322 (citing Common Cause, 554 F.3d at 1353–54); see
also Crawford, 553 U.S. at 196. Indeed, they are at their strongest in a facial
challenge. When a plaintiff “advance[s] a broad attack on the constitutionality of [a
statute], seeking relief that would invalidate the statute in all its applications, they
bear a heavy burden of persuasion.” Crawford, 553 U.S. at 200.
At trial, the plaintiffs offered little evidence that Alabama’s law authorizing
notaries public to accept fees burdens their right to vote. In their post-trial briefing,
they cite the testimony of four witnesses to support their claim.

Allegedly,

“Plaintiffs Bettis, Peebles, and Thompson, and Ms. Lux testified that the notary
aspect of the Witness Requirement is burdensome.” Doc. 247 at 11. But this does
not withstand analysis.
Only one of those individuals, Dr. Peebles, testified that he might be unable
to comply with the witness requirement because he could not afford a five-dollar
notary fee. Dr. Peebles initially testified that he would be unable to receive free
notarization from his bank because that required going indoors and interacting with
others, which would expose him to possible COVID-19 infection. 9/8/20 at 127.
Although that constituted a burden in Count I, it does not where, as here, the claim
is that the fee itself is burdensome. Dr. Peebles did later testify, however, that a
notary public’s five-dollar fee might be cost prohibitive. Id. at 159. But it is not
entirely clear why that would be, because Dr. Peebles also testified that he always
has more than five dollars in his bank account. Id.
194
App. 201

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 195 of 197

The other witnesses that plaintiffs contend are burdened by the notary aspect
of the witness requirement never alleged that they could not pay a notary fee. Ms.
Bettis testified that she would not feel comfortable having her ballot notarized
because she could not be certain that the notary public followed social distancing
guidelines. 9/14/20 at 20–21. Ms. Lux testified that she was unwilling to receive
notarization from her bank because, like Dr. Peebles, she feared COVID-19
exposure. 9/11/20 at 180–81. But that again is not germane to wealth. Finally, the
plaintiffs note that Ms. Thompson is burdened by the notary aspect of the witness
requirement, but they fail to cite any of her testimony to support that contention. See
doc. 247 at 11. And the court’s review of her testimony reveals that Ms. Thompson
would be willing to obtain free notary services from her local library. 9/8/20 at 196–
97. Although risking virus exposure at the library constituted a burden under Count
I, the free option alleviates any wealth-based burden she may face.
Ultimately, the plaintiffs failed to prove that the notary aspect of the witness
requirement imposes even a slight burden on them, during or outside of the
pandemic. Accordingly, the State’s interests necessarily justify the rule. The
plaintiffs’ claims under Count V are therefore due to be dismissed.
*

*

*

Consistent with the above discussion and findings, the court makes the
following conclusions of law regarding the plaintiffs’ constitutional claims:
1.

The plaintiffs failed to establish that the notary aspect of the witness
195
App. 202

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 196 of 197

requirement, on its face, burdens their right to vote based on their wealth. Because
the State has a legitimate interest in maintaining the witness requirement, the law
does not violate the Fourteenth Amendment.
2.

The plaintiffs failed to establish that the notary aspect of the witness

requirement, as applied during the pandemic, burdens their right to vote based on
their wealth. Because the State has a legitimate interest in maintaining the witness
requirement, the law does not violate the Fourteenth Amendment.
III. EQUITABLE RELIEF AND CONCLUSION
Consistent with the court’s findings and conclusions, the plaintiffs’ motion for
reconsideration, doc. 229, is due to be denied, and Judge Davis’s and Ms.
Schwarzauer’s motions for judgment on partial findings, docs. 231, 233, are moot.
The plaintiffs are entitled to enter an order declaring that the Challenged Provisions
violate the fundamental right to vote, the ADA, and the VRA as applied during the
COVID-19 pandemic.
Finally, as previously stated, the plaintiffs also seek an order enjoining the
enforcement of the witness requirement, photo ID requirement, and curbside voting
ban for the November 2020 general election. See doc. 75 at 78-79. To show they
are entitled to an injunction, the plaintiffs must show that (1) they have suffered an
irreparable injury; (2) remedies available at law are inadequate to compensate for
the injury; (3) considering the balance of hardships between the parties, an equitable
remedy is warranted; and (4) that the public interest will not be disserved by an
196
App. 203

Case 2:20-cv-00619-AKK Document 250 Filed 09/30/20 Page 197 of 197

injunction. eBay Inc. v. MercExchange, L.L.C., 547 U.S. 388, 391 (2006) (citations
omitted). Based on the court’s findings and conclusions, the plaintiffs have made
this showing.

If the Challenged Provisions are not enjoined, they will

unconstitutionally and unlawfully violate the rights of the plaintiffs or their
members, causing irreparable harm. Because no monetary sum could compensate
for this injury, legal remedies are inadequate. For those reasons, the balance of
hardships weighs in favor of injunctive relief, and the public interest will not be
disserved. The court will issue a separate order and judgement.
DONE the 30th day of September, 2020.

_________________________________
ABDUL K. KALLON
UNITED STATES DISTRICT JUDGE

197
App. 204

FILED

Case 2:20-cv-00619-AKK Document 260 Filed 10/06/20 Page 1 of 2

2020 Oct-06 PM 04:06
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
PEOPLE FIRST OF ALABAMA, et
al.,
Plaintiffs,
v.
JOHN MERRILL, et al.,
Defendants.

)
)
)
)
)
)
)
)
)

Civil Action Number
2:20-cv-00619-AKK

)

ORDER
This action is before the court on the defendants’ motion for stay pending
appeal, doc. 253, which the plaintiffs oppose, doc. 256. For the reasons below, the
motion is due to be denied.
To determine whether to issue a stay, courts consider: “‘(1) whether the stay
applicant has made a strong showing that [they are] likely to succeed on the merits;
(2) whether the applicant will be irreparably injured absent a stay; (3) whether
issuance of the stay will substantially injure the other parties interested in the
proceeding; and (4) where the public interest lies.’” Hand v. Scott, 888 F.3d 1206,
1207 (11th Cir. 2018) (quoting Nken v. Holder, 556 U.S. 418, 426 (2009)). At issue
here is whether under Purcell v. Gonzalez, 549 U.S. 1 (2006), these factors weigh in
favor of a stay. The defendants contend that the court issued its order enjoining
certain provisions of Alabama election law too close to the November 3, 2020
election, see doc. 253 at 4-14, and, consequently, they are likely to succeed on the
App. 205

Case 2:20-cv-00619-AKK Document 260 Filed 10/06/20 Page 2 of 2

merits. But, as the court explained in its conclusions of law, the Purcell principle
does not preclude the court from providing relief to the plaintiffs in this case. See
doc. 250 at 109-117. And, the defendants have not shown that the court erred in
reaching that conclusion, or made a strong showing that they are likely to succeed
on the merits of their appeal. Moreover, the defendants will not be irreparably
injured absent a stay because enjoining enforcement of laws that violate federal law
and the plaintiffs’ fundamental right to vote does not harm the State or the county
defendants. In contrast, staying the court’s order would substantially injure the
plaintiffs because, among other things, enforcement of the witness and photo ID
requirement for absentee voting and the curbside voting ban imposes significant
burdens on their right to vote under the First and Fourteenth Amendments. Thus,
the public interest favors denying the stay. Therefore, for these reasons, the
defendants’ motion, doc. 253, is DENIED.
DONE the 6th day of October, 2020.

_________________________________
ABDUL K. KALLON
UNITED STATES DISTRICT JUDGE

2
App. 206

App. 207

App. 208

9/15/2020
Rough Transcript
(Excerpts)

App. 209

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

#!

VJG!EQWTV<!!Vjcpm!{qw/!!262!ku!tgegkxgf!cu!ygnn/!!

yg!eqwnf!igv!qwt!jcpfu!qp!vq!rgthqto!ewtdukfg!xqvkpi!kp!yjkej!

)D[!OT/!FCXKU<*!!Ot/!Jgnou-!fq!{qw!jcxg!cp{!eqpegtp!kh!vjg!

vjg!dcnnqv!ku!ugetgv-!cpf!vjg!xqvgt-!kh!vjg{!ctg!tgegkxkpi!cuukuvcpeg-!

Rnckpvkhhu!kp!vjku!ecug!jcxg!cumgf!vjcv!xqvgtu!jcxg!vjg!cdknkv{!vq!iq!

ecp!cuuwtg!vjcv!vjgkt!dcnnqv!ku!dgkpi!kpugtvgf!kp!vjg!vcdwncvqt!cpf!

kp!eqpegtp!qp!Gngevkqp!Fc{!vq!vjgkt!rqnnkpi!ukvg!cpf!xqvg!htqo!

vjcv!vjgkt!xqvg(u!eqwpvkpi/!!Uq!c!ownvkvwfg!qh!vjkpiu!vjcv!uectg!og!

vjgkt!ectuA!!Fq!{qw!cu!cp!gngevkqp!qhhkekcn!dgnkgxg!vjcv!uwej!c!

vq!fgcvj!qp!vjcv/!!

rtqegfwtg!ku!hgcukdng!qt!rtcevkecnA!

#!

)D[!OT/!FCXKU<*!!Ot/!Jgnou-!cu!{qw!wpfgtuvcpf!gngevkqp!

"!

Pq-!ukt/!

rtqegfwtgu-!ku!kv!rgtokuukdng!hqt!c!rqnn!yqtmgt!vq!vcmg!c!dcnnqv!

#!

Yj{!pqvA!

htqo!c!xqvgt!cpf!vq!tgoqxg!kv!htqo!vjg!xqvgt(u!nkpg!qh!xkukqp!vq!

"!

Tguqwtegu-!hktuv!qh!cnn/!!Cu!K!rwv!kp!o{!gkvjgt!kpvgttqicvqt{!

vcmg!kv!qwv!qh!ukijvA!

cpuygtu!qt!fgenctcvkqp!..!K!ecp(v!tgogodgt!yjkej!qpg!..!K!

"!

Pq-!ukt-!K!fqp(v!ugg!vjcv!dgkpi!rgtokuukdng/!

fkuewuugf/!

#!

Pqy-!vjgtg!ctg!ogcpu!kp!vjg!ncy-!ctg!vjgtg!pqv-!vjcv!cnnqy!

VJG!EQWTV<!!Ot/!Jgnou-!{qw!dtqmg!wr!vjgtg!dtkghn{/!!Ecp!

gngevkqpu!qhhkekcnu!cpf!rqnn!yqtmgtu!vq!ikxg!xqvgtu!cuukuvcpeg!kh!

{qw!uvctv!cickpA!!Tguqwtegu!cpf!vjgp!gv!egvgtc-!gv!egvgtc/!!

tgswguvgfA!

VJG!YKVPGUU<!![gu-!ukt-![qwt!Jqpqt/!!Egtvckpn{/!!Kp!o{!

"!

Vjcv(u!eqttgev/!

fgenctcvkqp!cpf0qt!kpvgttqicvqt{!tgurqpug!..!K!ecp(v!tgogodgt!

#!

Yjcv!ku!vjg!fkhhgtgpeg-!kh!cp{-!kp!{qwt!okpf!vq!c!xqvgt!kp!vjg!

yjkej!qpg!..!K!fkuewuugf!yj{!kv!ycu!kortcevkecn-!ewtdukfg!xqvkpi/!!

rqnnkpi!rnceg!cv!vjg!vcdwncvkqp!ocejkpg!cumkpi!hqt!cuukuvcpeg!

Cpf!c!nqv!qh!vjcv!fgcnu!ykvj!vjg!tguqwtegu/!!Yg!cntgcf{!jcxg!

kpugtvkpi!vjg!dcnnqv!kpvq!vjg!vcdwncvkqp!ocejkpg!xgtuwu!c!xqvgt!kp!

tguqwteg!kuuwgu!kp!igpgtcn!cu!qh!pqy/!![qw!ctg!..!cu!{qw(xg!

vjg!ect!cumkpi!vjg!rqnn!yqtmgt!vq!vcmg!vjg!dcnnqv!kpukfg!vjg!rqnnkpi!

rtqdcdn{!uggp!cdqwv!rqnn!yqtmgt!tgetwkvogpv!ghhqtvu/!![qw(f!jcxg!

rnceg!cpf!qwvukfg!qh!vjg!xqvgt(u!ukijvA!

vq!jcxg!cffkvkqpcn!yqtmgtu/!![qw(f!jcxg!vq!jcxg!cffkvkqpcn!

"!

gngevtqpke!rqnn!dqqmu!kh!{qw!jcxg!gngevtqpke!rqnn!dqqmu!cv!cnn/!!

dgkpi!ugetgv/!!K!ogcp-!cpf!kh!{qw!vcmg!o{!dcnnqv!cpf!{qw!fqp(v!nkmg!

Vjqug!gngevtqpke!rqnn!dqqmu!yqwnf!jcxg!vq!dg!oqdkng!qt!cdng!vq!dg!

vjg!yc{!K!nqqm!qt!{qw!fqp(v!nkmg!..!{qw!fqp(v!vjkpm!K(o!iqkpi!vq!

oqxgf/!!Uqog!xgpfqtu!fqp(v!jcxg!rqnn!dqqmu!vjcv!cvvcej!htqo!c!

xqvg!{qwt!yc{!cpf!vjgp!cnn!qh!c!uwffgp!vjcv!dcnnqv(u!vwemgf!kpvq!

uvcpf/!![qw(f!pggf!cffkvkqpcn!xqvg!ocejkpgu!kp!gxgt{!ukping!

vjg!vtcuj!ecp!pkeg!cpf!pgcv!cu!{qw!ycnm!kpvq!vjg!rqnnkpi!rnceg-!

xqvkpi!rnceg-!yjkej!vjgtg(u!pqv!gpqwij!ocejkpgu!kp!gzkuvgpeg!vjcv!

lwuv!cu!cp!gzcorng/!

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
268

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
269

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Ygnn-!ejckp!qh!ewuvqf{!ku!lwuv!cu!korqtvcpv!cu!vjg!dcnnqv!

#!

Qmc{/!!

"!

[gu-!ukt-!lwuv!cu!c!igpgtcn!uvcvkuvke-!vjku!ku!yjcv!yg(xg!uggp/!

"!

Dwv!kh!vjg!xqvgt!ecp(v!ugg!{qw!kpugtvkpi!vjg!dcnnqv-!vjgp!vjg!

#!

Nqqm!cv!Gzjkdkv!2-!rngcug-!Ot/!Jgnou/!!Fq!{qw!tgeqipk|g!vjku!

rtqeguu!..!vjgtg(u!cp!qduvceng/!!Vjgtg(u!c!ugrctcvkqp!vjgtg!vjcv(u!

Gzjkdkv-!Uvcvg!Fghgpfcpvu(!2A!

dgkpi!etgcvgf/!!Xqvgtu!fghkpkvgn{!fgugtxg!cuukuvcpeg!kh!vjg{!

"!

[gu-!ukt/!

tgswguv!kv-!cpf!vjg{!fq!uqogvkogu!kp!vjg!rqnnkpi!rnceg!yjgtg!

#!

Cpf!yjcv!ku!vjcvA!

vjg{(tg!cdng!vq!ugg!yjcv(u!jcrrgpkpi/!!Vjg{(tg!cwvjqtk|kpi!cp!

"!

Vjku!ku!o{!fgenctcvkqp-!o{!kpkvkcn!fgenctcvkqp/!

kpfkxkfwcn!vq!jgnr!vjgo/!!Vjg{!ujqwnf!dg!cdng!vq!ugg!yjcv!vjg{(xg!

#!

Qmc{/!!Cpf!jcxg!{qw!jcf!vjg!qeecukqp!vq!tgxkgy!kv!ukpeg!vjg!

cwvjqtk|gf!vq!jcrrgp/!

vkog!kv!ycu!hktuv!uwdokvvgfA!

Fq!{qw!jcxg!cp{!kphqtocvkqp-!Ot/!Jgnou-!cdqwv!yjgvjgt!

"!

[gu-!ukt/!

vjgtg!oc{!dg!fkhhkewnv{!ykvj!vcdwncvkqp!ocejkpgu!kh!vjg!dcnnqvu!igv!

#!

Cpf!ycu!vjku!fgenctcvkqp!vtwg!cpf!eqttgev!cv!vjg!vkog!vjcv!

fcorA!

{qw!uwdokvvgf!kvA!

#!

"!

[gu-!ukt/!

dcnnqv!igvu!fcor-!kv!kpetgcugu!kp!uk|g-!qmc{A!!Kv!igvu!ykfgt/!!Cpf!

#!

Cpf!cu!{qw!ukv!jgtg!vqfc{-!ku!kv!uvknn!vtwg!cpf!eqttgevA!

yjkng!kv!ku!vjcv!yc{-!kv!fqgu!pqv!kpugtv!kpvq!vjg!ocejkpg!rtqrgtn{/!!

"!

[gu-!ukt/!

"!

Yg!jcxg!jcf!kuuwgu!yjgtg!dcnnqvu!igv!fcor/!!Cpf!yjgp!c!

Kv!ecp(v!dg!tgcf!rtqrgtn{/!!Vjg!ocejkpg!fqgup(v!nkmg!kv!kp!ukorng!

OT/!FCXKU<!!Oqxg!vq!cfokv!Uvcvg!Fghgpfcpvu(!Gzjkdkv!

vgtou/!!Cpf!vjcv!jcu!jcrrgpgf!kp!uqog!eqwpvkgu/!
#!

Pwodgt!2-!vjg!fgenctcvkqp!qh!Enc{!Jgnou-![qwt!Jqpqt/!

Fq!{qw!mpqy!yjq!yqwnf!ocpcig!vtchhke!kh!c!nkpg!qh!

VJG!EQWTV<!!Ou/!Tggf-!cp{!qdlgevkqpuA!!

xqvgtu!..!qt!kh!c!nctig!pwodgt!qh!xqvgtu!nkpg!wr!kp!vjgkt!ect!vq!xqvg!
ewtdukfg!cuuwokpi!vjcv!ygtg!rgtokuukdngA!
"!

K!yqwnf!cuuwog!cffkvkqpcn!rqnn!yqtmgtu/!!

#!

Yjcv!ku!{qwt!wpfgtuvcpfkpi!qh!vjg!cig!qh!rqnn!yqtmgtu!

OU/!TGGF<!!Ygnn-![qwt!Jqpqt-!K!fqp(v!wpfgtuvcpf!yj{!yg!
pggf!Enc{!Jgnou(u!fgenctcvkqp!yjgp!yg!jcxg!Enc{!Jgnou!
vguvkh{kpi!tkijv!pqy/!!Uq-!{gu-!K!qdlgev/!
VJG!EQWTV<!!Vjcv(u!vjg!igpgtcn!twng-!Ot/!Fcxku/!!Vjg!ykvpguu!

wuwcnn{A!

ku!jgtg/!!Jg(u!vguvkh{kpi!kp!eqwtv/!!Uq!ngv(u!iq!ykvj!jku!vguvkoqp{/!!Kh!

"!

76.rnwu-!81.rnwu!uqogvkogu/!

vjgtg(u!cp{vjkpi!kp!vjg!fgenctcvkqp!vjcv!jg(u!pqv!vguvkhkgf!vq!vjcv!

#!

Ctg!{qw!uc{kpi!qp!cxgtcig-!vjg{!vgpf!vq!dg!qnfgt!kpfkxkfwcnu!

{qw!ycpv!jko!vq!iq!vjtqwij-!{qw!qdxkqwun{!jcxg!vjg!tkijv!cpf!vjg!

yjq!xqnwpvggt!vq!ugtxg!cu!rqnn!yqtmgtuA!
RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
26;

vkog!vq!fq!uq/!!Dwv!vjg!cevwcn!fgenctcvkqp!kvugnh-!dcugf!qp!o{!

App. 210

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
271

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

pggf!vq!jcxg!mpqyngfig!qh!yjq!vjg!ecpfkfcvgu!ctg!cpf!dg!cdng!vq!

VJG!YKVPGUU<!!Ecp!{qw!cum!kv!cickp-!Ou/!TggfA!!

ocvej!vjcv/!!

VJG!EQWTV<!!Jcpi!qp-!Ot/!Jgnou/!

[qw!mpqy-!yg(tg!pqv!ukipcvwtg!gzrgtvu/!!Uq!kh!{qw!ugg!

OU/!TGGF<!!Yckv!hqt!vjg!lwfig!vq!..!

rgqrng!..!vjg!ucog!rgtuqp!ukipkpi!ownvkrng!ykvpguu!ukipcvwtgu-!K!

VJG!EQWTV<!!Cnn!tkijv/!!K!yknn!tgrjtcug!vjg!swguvkqp/!!

iwguu!{qw(f!jcxg!uqog!tgcuqp!vq!kpxguvkicvg!vjcv/!!K(o!pqv!cp!

Ot/!Jgnou-!ku!{qwt!qhhkeg!tgurqpukdng!hqt!gpuwtkpi!vjcv!rqnnkpi!

gzrgtv!qp!ukipcvwtgu!uq/!!Kv(u!cnuq!wugf!kp!vgtou!qh!gngevkqp!

rncegu!eqorn{!ykvj!CFC!tgswktgogpvuA!!

eqpvguvu!K!vjkpm!kp!vjg!rcuv-!fgvgtokpkpi!htcwf-!fgvgtokpkpi!yjq!
ykvpguugf!kv/!!Dwv!cv!vjg!vkog!vjcv!cdugpvgg!rqnn!yqtmgtu!ctg!

VJG!YKVPGUU<!!Vjcpm!{qw-![qwt!Jqpqt/!!Co!K!iqqf!vq!
cpuygtA!!

ejgemkpi!kv-!vjg!dkiiguv!vjkpi!ku-!ku!vjku!rgtuqp!c!ecpfkfcvg/!
#!

VJG!EQWTV<!![gu-!ukt/!!

Vjcpm!{qw/!!K!ycpv!vq!vtcpukvkqp!vq!kp.rgtuqp!xqvkpi/!!Ygnn!

VJG!YKVPGUU<!!Qmc{/!!Qwt!qhhkeg-!cu!K!uckf!gctnkgt-!ugpfu!qwv!

cevwcnn{-!tgcnn{!swkemn{-!pqvjkpi!kp!uvcvg!ncy-!Cncdcoc!uvcvg!ncy!

iwkfcpeg!vjcv!tgokpfu!eqwpvkgu!vjcv!vjg{!owuv!hqnnqy!vjg!CFC/!!Kh!

rtqjkdkvu!c!rgtuqp!htqo!ykvpguukpi!ownvkrng!cdugpvgg!dcnnqvu=!ku!

yg(tg!ikxgp!pqvkeg!vjcv!uqogqpg!ku!pqv!hqnnqykpi!vjg!CFC-!vjgp!

vjcv!eqttgevA!

yg!kpkvkcvg!qwtugnxgu/!!Jqygxgt-!kv(u!vjg!eqwpv{(u!tgurqpukdknkv{!vq!

"!

Pq!swqvc-!vq!o{!wpfgtuvcpfkpi-!{gcj/!!Vjgtg(u!pq!nkokv/!

#!

Qmc{/!!Cpf!vjgp!oqxkpi!qp!vq!kp.rgtuqp!xqvkpi-!vjgtg!ctg!

cfjgtg!vq!vjg!CFC/!
OU/!TGGF<!!Vjcpm!{qw-![qwt!Jqpqt-!cpf!vjcpm!{qw-!

enqug!vq!3-111!rqnnkpi!rncegu!kp!vjg!Uvcvg!qh!Cncdcoc=!ku!vjcv!

Ot/!Jgnou/!!

tkijvA!

#!

Uq!cu!{qwt!qhhkeg!uwtxg{gf!cnn!rqnnkpi!rncegu!kp!vjg!Uvcvg!qh!

"!

[gu-!oc(co/!

Cncdcoc!vq!fgvgtokpg!yjgvjgt!vjg{!ctg!CFC!eqornkcpvA!

#!

K!vjkpm!vjg!Ugetgvct{!vguvkhkgf!qp!Htkfc{!vjgtg!ctg!2-;91/!!

"!

Pq-!oc(co-!yg!jcxg!pqv/!

#!

Uq!{qw!fqp(v!mpqy!qt!{qwt!qhhkeg!fqgup(v!mpqy!hqt!egtvckp!

Fqgu!vjcv!pwodgt!uqwpf!hcoknkct!vq!{qwA!
"!

[gcj/!!Kv!ycu!2-;91!cv!vjg!vkog-!dwv!kv(u!rtqdcdn{!ejcpigf/!

vjcv!cnn!2-;91!rqnnkpi!rncegu!kp!vjg!Uvcvg!qh!Cncdcoc!ctg!ceeguukdng!

#!

Qmc{/!!Vjcv(u!hckt/!![qwt!qhhkeg!ku!tgurqpukdng!hqt!gpuwtkpi!

wpfgt!vjg!CFC=!ku!vjcv!tkijvA!

vjcv!cnn!rqnnkpi!rncegu!eqorn{!ykvj!CFC!tgswktgogpvu=!ku!vjcv!

"!

tkijvA!

cnn!2-;91!rqnnkpi!rncegu/!

OT/!FCXKU<!!Qdlgevkqp/!!Vjcv!cuuwogu!hcevu!pqv!kp!gxkfgpeg/!

#!

Vjcv(u!tkijv/!!K!fqp(v!vjkpm!kv(u!cp!qdnkicvkqp!qh!qwtu!vq!uwtxg{!

Qmc{/!!Vjcpm!{qw/!!Ku!vjcv!vjg!ucog!hqt!vcdwncvkqp!ocejkpgu!

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
292

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
293

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

hqt!rgqrng!ykvj!fkucdknkvkguA!!Fq!{qw!mpqy!yjgvjgt!qt!pqv!cnn!

gpvtwuvgf!ykvj!jgnrkpi!cfokpkuvgt!gngevkqpu=!ku!vjcv!tkijvA!

rqnnkpi!rncegu!jcxg!yqtmkpi!vcdwncvkqp!ocejkpgu!hqt!rgqrng!ykvj!

"!

[gu-!oc(co-!vjg{(tg!gornq{gf!vq!fq!uq/!

fkucdknkvkguA!

#!

[qw(tg!hcoknkct!ykvj!ewtdukfg!xqvkpi!qt!ftkxg.vjtqwij!xqvkpi=!

"!

Xgt{!ukoknct-!{gu-!oc(co/!!Cickp-!yg!ugpf!qwv!iwkfcpeg!rtkqt!

ku!vjcv!eqttgevA!

vq!vjg!gngevkqp!vjcv!vjg{!owuv!cfjgtg!vq!vjcv-!vjcv!cp!Cwvqoctm!qt!

"!

Qp!c!xgt{!igpgtcn!dcuku-!{gu-!oc(co/!

GzrtguuXqvg-!yjkej!ctg!dtcpfu!qh!fkucdknkv{!ceeguukdng!ocejkpgu-!

#!

Vjg!Cncdcoc!eqfg(u!gngevkqp.tgncvgf!rtqxkukqpu!ctg!ukngpv!qp!

owuv!dg!cv!gxgt{!rqnnkpi!nqecvkqp!kpenwfkpi!vjg!cdugpvgg!rqnnkpi!

ewtdukfg!xqvkpi=!ku!vjcv!tkijvA!

nqecvkqp/!!Rtkqt!vq!gcej!gngevkqp-!yg!tgokpf!og!vjcv!vjg{!owuv!dg!

"!

Eqttgev/!

vguvgf!cpf!ocmg!uwtg!vjcv!kv!jcu!kpm-!gv!egvgtc/!!Yg!cnuq!cfxkug!

#!

[qwt!qhhkeg!fqgu!pqv!jcxg!vjg!cwvjqtkv{!vq!rtgxgpv!c!nqecn!

vjcv!rqnn!yqtmgtu!vjgougnxgu!wug!vjg!ocejkpgt{/!!Dgecwug!kh!{qw!

lwtkufkevkqp!htqo!qhhgtkpi!ewtdukfg!xqvkpi!kh!vjg!xqvkpi!ogvjqf!

fqp(v!wug!kv!{qwtugnh-!{qw!oc{!pqv!mpqy!jqy!kv!yqtmu/!![qw!oc{!

hwnn{!eqornkgu!ykvj!uvcvg!ncy=!ku!vjcv!eqttgevA!

pqv!dg!cdng!vq!cuukuv!vjcv!kpfkxkfwcn!kp!pggf!ykvj!vjg!ocejkpg/!!Cu!

"!

Ecp!{qw!cum!og!vjcv!cickpA!!Vjcv(u!c!dki!qpg/!

hct!cu!uwtxg{kpi-!ucog!cpuygt/!!Yg!fqp(v!uwtxg{!gxgt{!rqnnkpi!

#!

Cduqnwvgn{/!![gcj/!!Cpf!K!ecp!..!ygnn-!yg(nn!vt{!vq!dtgcm!kv!

rnceg!vq!ocmg!uwtg!vjg!ocejkpg!ku!ugv!wr/!

fqyp-!dwv!kv!ku!c!nqpi!qpg/!!Uq!{qwt!qhhkeg-!vjg!Ugetgvct{!qh!Uvcvg(u!

#!

Qmc{/!!Ot/!Jgnou-!cnn!gngevkqp!qhhkekcnu!vcmg!cp!qcvj!qh!qhhkeg!

dghqtg!vjg{!rgthqto!vjgkt!fwvkgu!cv!vjg!gngevkqp=!ku!vjcv!eqttgevA!

qhhkeg-!fqgu!pqv!jcxg!vjg!cwvjqtkv{!vq!rtgxgpv!c!nqecn!lwtkufkevkqp!
htqo!qhhgtkpi!ewtdukfg!xqvkpi!kh!vjg!xqvkpi!ogvjqf!hwnn{!eqornkgu!

"!

Igpgtcnn{-!{gu-!oc(co/!

ykvj!vjg!uvcvg!ncy=!ku!vjcv!eqttgevA!

#!

Cpf!vjku!kpenwfgu!rtgekpev!gngevkqp!qhhkekcnu-!tkijvA!

"!

"!

Vjcv(u!o{!wpfgtuvcpfkpi-!{gu-!oc(co-!vjg!rqnn!yqtmgtu!ctg!

Qwt!qhhkeg!ku!twp!d{!Ugetgvct{!Ogttknn/!!Jku!uvcpeg!jcu!dggp!cu!vjg!

uwrrqugf!vq!fq!uq/!
#!

Ygnn-!o{!cpuygt!qp!vjcv!yqwnf!dg-!hktuv-!K(o!pqv!cp!cvvqtpg{/!!

Ugetgvct{!qh!Uvcvg!vjcv!ewtdukfg!xqvkpi!ku!pqv!nkuvgf!kp!vjg!ncy-!kv(u!

Vjg!rqnn!yqtmgtu!ctg!uwrrqugf!vq!fq!uqA!!Ku!vjcv!yjcv!{qw!

pqv!eqxgtgf/!!Vjgtghqtg-!kv!ku!pqv!ngicn!ceeqtfkpi!vq!ncy/!!O{!

lwuv!vguvkhkgf!vqA!

cpuygtu-!o{!uvcpegu!eqog!htqo!rtcevkecnkv{!uvcpfrqkpv-!dgecwug!

"!

[gu-!oc(co/!

K(o!lwuv!cp!cfokpkuvtcvkxg/!!K(o!pqv!vjg!Ugetgvct{!qh!Uvcvg/!!K(o!pqv!

#!

Vjcv!ycu!o{!pgzv!swguvkqp/!!Uq!K!lwuv!ycpvgf!vq!mpqy!

vjg!cvvqtpg{/!!Ecp!kv!dg!fqpgA!!Cpf!o{!cpuygt!jcu!dggp-!K!fqp(v!

yjgvjgt!{qw!qdxkcvgf!kv/!!Uq!qp!Gngevkqp!Fc{-!rqnn!yqtmgtu!ctg!
RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
294

vjkpm!uq/!!Pq/!

App. 211

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
295

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

#!

Yjgp!{qw!uc{!ecp!kv!dg!fqpg-!{qw!fqp(v!vjkpm!uq/!!Ecp!{qw!

#!

gzrnckp!qt!enctkh{!vjcvA!
"!

Wj.jwj/!!Cpf!fq!{qw!wpfgtuvcpf!..!ku!kv!{qwt!wpfgtuvcpfkpi!

vjcv!vjg!oclqtkv{!qh!eqwpvkgu!yknn!jcxg!gngevtqpke!rqnn!dqqmu!

Ygnn-!vjg!yc{u!vjcv!ewtdukfg!xqvkpi!jcu!dggp!fqpg!vjwu!hct!

cjgcf!qh!vjg!qt!hqt!vjg!Pqxgodgt!4tf!igpgtcn!gngevkqpA!

htqo!o{!wpfgtuvcpfkpi!jcu!pqv!dggp!ngicn-!pqv!dggp!ceeqtfkpi!vq!

"!

ncy-!kh!vjg!ncy!fkf!ogpvkqp!kv-!dcnnqv!ugetge{-!vjkpiu!nkmg!vjcv!vjcv/!!

jcxg!dggp!xgt{!tgegpv/!!Uq!cickp-!{qw(tg!vcmkpi!c!eqwpv{!vjcv!ku!

Cpf!cu!K!ogpvkqpgf!gctnkgt!kp!vjg!vguvkoqp{-!vjg!tguqwteg!kuuwg/!!

lwuv!ngctpkpi!c!dtcpf!pgy!rtqitco!eqwpv{ykfg!ykvj!gngevtqpke!

Vjgtg(u!pqv!gpqwij!ocejkpgu-!vjgtg(u!pqv!gpqwij!rqnn!yqtmgtu-!

rqnn!dqqmu/!!Cpf!kp!vjku!uegpctkq-!{qw(tg!cnuq!cumkpi!vjgo!vq!oqxg!

vjgtg(u!pqv!gpqwij!rqnn!dqqmu/!!Vjg!rqnnkpi!uvcvkqpu-!cu!uqog!qh!

kv!qwvukfg!cpf!qhhgt!uqogvjkpi!vjcv(u!pgxgt!dggp!qhhgtgf!htqo!c!

{qwt!lwfigu!vjcv!vguvkhkgf!ecp!rtqdcdn{!vgnn!{qw-!ctg!pqv!ugv!wr!hqt!

eqwpv{ykfg!uvcpfrqkpv!qt!uvcvgykfg!uvcpfrqkpv!kp!vjg!jkuvqt{!qh!

ewtdukfg!xqvkpi/!!Vjgtg(u!c!ownvkvwfg!qh!kuuwgu!vjcv-!{qw!mpqy-!

vjg!uvcvg/!!Uq!lwuv!dgecwug!vjg{!jcxg!vjgo!fqgup(v!ogcp!{qw!ycpv!

lwuv!dnwpv!jqpguv{-!55!fc{u!dghqtg!vjg!gngevkqp-!{qw!lwuv!fqp(v!vt{!

vq!vcem!qp!c!dtcpf!pgy!rtqitco!vq!eqorngvgn{!fguvtq{!vjgkt!

vq!fq/!!K!ogcp-!uvcvgu!vjcv!jcxg!ewtdukfg!xqvkpi!urgpv!{gctu!

cdknkv{!vq!ectt{!qwv!cp!gngevkqp/!!

guvcdnkujkpi!c!ogvjqf!hqt!ewtdukfg!xqvkpi/!!Vjg{!fqp(v!fq!kv!kp!

K!vjkpm!cv!vjku!rqkpv-!yg!ctg!kp!vjg!jkij!61u/!!C!nqv!qh!vjqug!

Cnuq!fgrgpfkpi!qp!vjg!dtcpf!qh!gngevtqpke!rqnndqqm-!vjg{!ctg!

51.uqogvjkpi!fc{u/!!O{!cpuygtu!ctg!oqtg!htqo!c!rtcevkecn!

eqppgevgf!vq!c!uvcpf!yjkej!ecppqv!dg!tgoqxgf/!!Uq!{qw!ctg!vqvkpi!

uvcpfrqkpv/!!K(o!uqtt{!K(o!ftkhvkpi!htqo!{qwt!swguvkqp/!!

ctqwpf!uqogvjkpi!vjcv(u!vykeg!cu!nctig!cu!c!dtkghecug/!![qw(tg!

#!

Uq!{qw!lwuv!vguvkhkgf!vjcv!kv(u!{qwt!dgnkgh!vjcv!rtkqt!kpuvcpegu!

qh!ewtdukfg!xqvkpi!ygtg!knngicn=!ku!vjcv!eqttgevA!
"!

iqkpi!vq!vqvg!vjcv!kp!cpf!qwv!qh!c!rqnnkpi!rncegA!!Uq!K!lwuv!yqwnfp(v!
igv!vqq!jwpi!wr!qp!61.rnwu!eqwpvkgu!jcxg!rqnn!dqqmu-!vjgtghqtg-!

Htqo!o{!nkokvgf!wpfgtuvcpfkpi-!{gu-!htqo!c!dcnnqv!ejckp!qh!

{c{-!kv(u!cnn!iqkpi!vq!yqtm!qwv/!!Vjgtg(u!c!nqv!oqtg!urgekhkekv{!vq!kv/!

ewuvqf{!uvcpfrqkpv/!!K(xg!pgxgt!jgtf!qh!c!vcdwncvkqp!ocejkpg!

#!

dgkpi!qwvukfg!qh!vjg!rqnnkpi!rnceg-!qh!cp!gngevtqpke!rqnndqqm!gxgt!

vjtqwij!vjg!rtkqt!kpuvcpegu!qh!ewtdukfg!xqvkpi!yjkej!yg!jcxg!

dgkpi!qwvukfg!qh!c!rqnnkpi!rnceg/!!Kp!vjqug!kpuvcpegu-!gngevtqpke!

fkuewuugf!rtgxkqwun{/!!Uq!{qw(xg!rtgxkqwun{!kfgpvkhkgf!kpuvcpegu!

rqnn!dqqmu!ygtgp(v!gxgp!kp!vjqug!eqwpvkgu!cv!vjcv!vkog!htqo!o{!

kp!Rgtt{-!Jcng-!cpf!Ejknvqp!Eqwpv{=!ku!vjcv!tkijvA!

wpfgtuvcpfkpi/!!Uq!K!ycup(v!vjgtg!qp!ukvg/!!Vjcv(u!yjcv!K!

"!

wpfgtuvcpf/!!Pqy-!K!eqwnf!dg!ytqpi/!!Dwv!o{!vguvkoqp{!ku!lwuv!

kpuvcpeg!kp!Ejknvqp!Eqwpv{/!!K(o!pqv!cyctg!qh!cp{vjkpi!qp!vjcv/!!

yjcv!K!..!yjcv!K!vtwvjhwnn{!wpfgtuvcpf!vq!dg!vtwg/!

Pqv!uc{kpi!kv!fkfp(v!jcrrgp/!!Dwv!K(o!oqtg!cyctg!qh!Rgtt{!cpf!

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
296

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
297

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!ku!pqv!vjg!qhhkekcn-!egtvkhkgf!xgtukqp!qh!vjg!rtqeggfkpiu/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!FQGU!EQPVCKP!GTTQTU!yjkej!YKNN!ejcpig!vjg!vtcpuetkrv(u!ceewtce{0ogcpkpi/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Vjku!wpegtvkhkgf!vtcpuetkrv!oc{!pqv!dg!hkngf!ykvj!vjg!eqwtv!qt!ekvgf!htqo/

Jcng/!

qeewttgf!kp!3129=!ku!vjcv!eqttgevA!

#!

Qmc{/!!Ngv(u!uvctv!ykvj!Rgtt{!cpf!Jcng-!cpf!vjgp!yg!ecp!..!K(nn!

fkuewuu!Ejknvqp!ncvgt/!!
OU/!TGGF<!!Cevwcnn{-!Gtke-!yqwnf!{qw!okpf!rwnnkpi!wr!Uvcvg(u!
cogpfgf!tgurqpugu!vq!qwt!tqiu-!rngcug/!!Rgthgev/!!

Ygnn-!yj{!fqp(v!yg!fq!c!eqwrng!vjkpiu/!!Qpg-!K!ycpv!vq!ycnm!

[qw!mpqy-!K!vtkgf!vq!tgogodgt!vjcv/!!K!fqp(v!tgogodgt!qh!cp!

"!

[gu-!oc(co/!

#!

Cpf!Gf!Rcemctf!cpf!Jwij!Gxcpu-!vyq!gornq{ggu!qh!vjg!

Ugetgvct{!qh!Uvcvg(u!qhhkeg!ygtg!qdugtxkpi!vjg!eqwpvkpi!qh!
cdugpvgg!dcnnqvu!kp!vjcv!eqwpv{=!ku!vjcv!eqttgevA!!

#!

Ot/!Jgnou-!fq!{qw!tgeqipk|g!vjku!fqewogpvA!

"!

[gu-!oc(co/!!Vjg{!ygtg!ugpv!vq!Rgtt{!Eqwpv{/!

"!

[gu-!oc(co-!igpgtcnn{/!

#!

Qmc{/!!Cpf!yjkng!vjgtg-!vjg{!ngctpgf!vjcv!cp!kpurgevqt!

OU/!TGGF<!!Cpf-!Gtke-!ecp!{qw!uetqnn!fqyp!vq!vjg!ncuv!rcig/!!

fgnkxgtgf!c!dcnnqv!vq!c!xqvgt(u!ect!dgecwug!vjg!xqvgt!ycu!pqv!

Cpf!iq!wr!qpg-!K(o!uqtt{/!!Vjcpm!{qw/!!

oqdkng!gpqwij!vq!gpvgt!vjg!rqnnkpi!rnceg=!ku!vjcv!eqttgevA!

#!

Ku!vjcv!{qwt!ukipcvwtg-!Ot/!JgnouA!

"!

"!

[gu-!oc(co/!

oqdkng!gpqwij-!{gu-!oc(co/!!

#!

Qmc{/!!

#!

OU/!TGGF<!!Gtke-!yqwnf!{qw!rngcug!iq!vq-!K!dgnkgxg!K(f!nkmg!vq!

pqv!kpceeguukdng!vq!jcpfkecrrgf!rgtuqpu/!!Jqy!fq!{qw!mpqy!vjcvA!

uvctv!qp!rcig!pwodgtgf!27/!!Qmc{/!!
#!

"!

Cpf-!Ot/!Jgnou-!fq!{qw!ugg!cv!vjg!dqvvqo!qh!vjcv!rcig-!

Vjg!kpurgevqt!ocfg!vjg!uvcvgogpv!vjcv!vjg!xqvgt!ycu!pqv!

Kp!vjcv!kpuvcpegu-!{qw!tgrtgugpv!vjcv!vjg!rqnnkpi!rnceg!ycu!

Ygnn-!vjcv(u!ceeqtfkpi!vq!..!K!ycup(v!vjgtg!qp!ukvg/!!Uq!Gf!

Rcemctf!cpf!Jwij!Gxcpu!yqwnf!jcxg!vcnmgf!vq!vjg!kpurgevqt!cpf!

kpvgttqicvqt{!;-!cumkpi!{qw!vq!kfgpvkh{!ykvj!urgekhkekv{!gcej!

fgvgtokpgf!vjcv!kv!ycu!ceeguukdng/!

kpuvcpegu!vjg!Cncdcoc!Ugetgvct{!qh!Uvcvg!jcu!gphqtegf!vjg!

#!

ewtdukfg!xqvkpi!rtqjkdkvkqpA!
"!

OU/!TGGF<!!Gtke-!yqwnf!{qw!lwor!fqyp!vq!rcig!29/!!

[gu-!oc(co/!

#!

OU/!TGGF<!!Cpf-!Gtke-!yqwnf!{qw!lwor!fqyp!vq!rcig!28-!

vjg!vqr!qh!rcig!29/!!Kv(u!Jcng!Eqwpv{=!ku!vjcv!tkijvA!

rngcug/!!Rgthgev/!!Ngv(u!ugg/!!
#!

Qmc{/!!

Vjg!hktuv!kpuvcpeg!{qw!fkuewuu!uvctvu!cdqwv!okfyc{!fqyp!ku!

Rgtt{!Eqwpv{=!ku!vjcv!tkijvA!

Cpf!vjg!ugeqpf!kpuvcpeg!{qw!fkuewuugf-!Ot/!Jgnou-!uvctvu!cv!

"!

[gu-!oc(co/!

#!

Cpf!Ot/!..!qt!Ugetgvct{!Ogttknn!ngctpgf!cdqwv!vjku!qeewttgpeg!

htqo!c!xqvgt-!c!eqpuvkvwgpv-!K(o!uqtt{=!ku!vjcv!eqttgevA!

"!

[gu-!oc(co/!

"!

[gu-!oc(co/!

#!

Rgthgev/!!Cpf!vjg!Rgtt{!Eqwpv{!kpuvcpeg!qh!ewtdukfg!xqvkpi!

#!

Cpf!wrqp!ngctpkpi!cdqwv!vjku-!Ugetgvct{!Ogttknn!ecnngf!vjg!

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
298

App. 212

RCIG!!!!!!!!QH!WPEGTVKHKGF!VTCPUETKRV
299

